<html>
<title> - INDIAN LAW AND ORDER COMMISSION REPORT: A ROADMAP FOR MAKING NATIVE AMERICA SAFER</title>
<body><pre>[Senate Hearing 113-438]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-438
 
  INDIAN LAW AND ORDER COMMISSION REPORT: A ROADMAP FOR MAKING NATIVE 
                             AMERICA SAFER 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

90-933 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                      COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 12, 2014................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Begich......................................     3
Statement of Senator Cantwell....................................     1
Statement of Senator Heitkamp....................................     3
Statement of Senator Murkowski...................................    16
    Prepared statement...........................................    18
Statement of Senator Tester......................................    25

                               Witnesses

Eid, Troy A., Chairman, Indian Law and Order Commission..........    29
    Joint prepared statement.....................................    31
Ellis, Affie, Commissioner, Indian Law and Order Commission......    27
Jerue, Tami Truett, Director of Social Services/Tribal 
  Administrator, Anvik Tribal Council............................    37
    Prepared statement...........................................    39
Purdon, Hon. Timothy Q., U.S. Attorney, District of North Dakota, 
  U.S. Department of Justice.....................................     8
    Prepared statement...........................................     9
Washburn, Hon. Kevin, Assistant Secretary--Indian Affairs, U.S. 
  Department of the Interior.....................................     4
    Prepared statement...........................................     6

                                Appendix

Great Plains Tribal Chairman's Association, prepared statement...    56
Posey, Ivan D., Chairman, Montana-Wyoming Tribal Leaders Council, 
  prepared statement.............................................    55
Response to written questions submitted to Troy A. Eid and Affie 
  Ellis by:
    Hon. Mark Begich.............................................    68
    Hon. Tim Johnson.............................................    67
Response to written questions submitted to Hon. Timothy Q. Purdon 
  by:
    Mark Begich..................................................    80
    Hon. Heidi Heitkamp..........................................    71
    Hon. Tim Johnson.............................................    78
Willman, Elaine D., Director, Community Development and Tribal 
  Affairs, Village of Hobart, prepared statement.................    65
Written questions submitted to Hon. Kevin Washburn...............    81


                    INDIAN LAW AND ORDER COMMISSION 
           REPORT: A ROADMAP FOR MAKING NATIVE AMERICA SAFER

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:47 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. The Senate Committee on Indian Affairs will 
come to order.
    Today we are having an oversight hearing on the Indian Law 
and Order Commission Report: A Roadmap for Making Native 
America Safer. I apologize to everyone, we thought we were 
going to have this hearing at 2:30 and obviously votes got in 
the way. I know everyone is worried about impending weather, so 
we appreciate your patience.
    We are going to hear from two people today, the Assistant 
Secretary, thank you for being here again, Assistant Secretary 
Washburn, and the Honorable Timothy Purdon, who is U.S. 
Attorney, District of North Dakota, U.S. Department of Justice.
    Obviously this Committee is soon going to be chaired by my 
colleague, Jon Tester, so under his leadership I know we will 
continue to guide and shape Federal law to strengthen the 
government-to-government relationship between tribes, and the 
people who live in Indian Country and also the Alaska Native 
people. So I look very much forward to working with Senator 
Tester, and as a member of this Committee I plan to continue to 
be active.
    Today's hearing is on the Indian Law and Order Commission 
Report: A Roadmap for Making Native America Safer. We will hear 
from the Committee's work to improve public safety and justice 
in Indian Country. The report was mandated under the Tribal Law 
and Order Act of 2010, which was enacted while a former 
colleague, Senator Dorgan, was Chair of the Committee. And the 
report specifically identifies problems that exist with public 
safety and justice in Indian Country and Alaska Native 
villages. More importantly, it proposes recommendations to 
address some of these issues.
    Some of the Commission's recommendations require 
legislative action. I look forward to working with my 
colleagues to tackle some of those barriers that exist to 
reducing crime in Indian Country. I would also recognize the 
amazing work that tribes are already doing to reduce crime and 
making their communities safer. I want to acknowledge the 
tribes in my home State of Washington who are making 
improvements in public safety. Tribes in Washington are 
operating tribal courts that are finding new, innovative ways 
to address recidivism, including being some of the first tribes 
to provide defense counsel to indigent defendants. I am also 
proud that the Puyallup Tribe is one of the first three tribes 
to selected as part of a pilot project to exercise tribal 
jurisdiction over domestic violence crimes on the reservations. 
This pilot project was established under VAWA reauthorization 
last year, when we fought so hard to strengthen the tribal 
provisions in that. And this pilot project will allow a few 
tribes on an accelerated basis to begin exercising tribal 
jurisdiction over certain domestic violence crimes on 
reservations, specifically domestic violence crimes committed 
by non-tribal members.
    While VAWA was a step forward for all of the tribes in 
Indian Country, there is still a lot more work to be done to 
bring in parity and to make tribal jurisdictions more 
responsible for the tribes within their land base. As we all 
know, the patchwork of jurisdiction in Indian Country creates 
severe problems for law enforcement and judicial systems to 
make arrests and prosecute crimes. And these jurisdictional 
problems are only exacerbated by the remoteness of some of our 
tribal areas.
    So as the Commission report illustrates, nowhere is this 
problem more challenging than in Alaska. I know my colleague 
Senator Begich is here, and Senator Murkowski and I had a 
chance to talk about this last August when I was visiting 
Alaska. Alaska's 229 federally-recognized tribes have no land 
base and many villages are virtually where there is no law 
enforcement presence.
    So this issue is vital. The Commission has dedicated so 
much time in the report to what has happened in Alaska Native 
villages. So I am so glad my colleague Senator Begich is here 
this afternoon. I continue to say that we will work with him 
and other members of this Committee on this important issue.
    Now I would like to turn it over to my colleague, the Vice 
Chairman of the Committee.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Madam Chairwoman, 
for holding this important hearing. Public safety in Native 
American communities is a complex and serious issue. It has 
been a top priority for the tribes in Wyoming, the Eastern 
Shoshone and the Northern Arapaho Tribes, for a long time.
    Back in the 111th Congress, I co-sponsored a bill that 
became the Tribal Law and Order Act. This Act was intended to 
address certain deficiencies in the Indian Country criminal 
justice system. It established the Indian Law and Order 
Commission to study and make recommendations to further improve 
the system. Today we are going to hear the Commission's 
findings and recommendations. More importantly, we are going to 
hear from Federal and tribal officials on where we should go 
from here.
    I want to express my appreciation to Affie Ellis, who is 
here with us today and will be testifying on the second panel, 
and Ivan Posey, who has also been involved, for considerable 
contributions to the Commission's work. Affie served as the 
Commissioner and traveled to some of the most remote locations 
in this Country to hear from Indian people. Ivan Posey was 
scheduled to testify today, but he experienced flight delays. 
He served on the Commission's tribal advisory committee.
    So thank you to both of my fellow Wyoming citizens and the 
Commission for all their hard work on this report. I look 
forward to the testimony today. I thank you very much, Madam 
Chairwoman.
    The Chairwoman. Would either of my colleagues like to make 
an opening statement? Senator Begich or Senator Heitkamp?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Madam Chair, I will be brief, because I 
know we have some great witnesses. But I thank you for holding 
this hearing. I know we made a request and I appreciate your 
honoring that request and having this hearing today, especially 
because one of the sections is dedicated to Alaska. Sometimes 
we like things dedicated to Alaska, this is not necessarily 
something we like to have dedicated to Alaska.
    But I think it is very important, because the points that 
it brings out are things that we can do, and the problems we 
have in Alaska. So I thank you for that. And I know I will have 
some questions, especially around a piece of legislation I had 
sponsored on the Safe Villages and Families Act, and how we can 
move forward to create a better environment for rural Alaska, 
which is diverse and broad and has some incredible issues, as 
your report shows.
    So thank you, Madam Chair, and I would say again, your 
leadership here has been exceptional. I will miss you as chair, 
but I know you are going to the Small Business Committee, which 
is also a very important committee, not only for this Country, 
but I will tell you, for Alaska in many ways. Thank you for our 
service here. I look forward to the questions.
    The Chairwoman. Thank you. Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, and thank you to both you and 
to Vice Chairman Barrasso for holding this hearing. And I want 
to thank you, Chairwoman, for the excellent work. I am thrilled 
to find out that you are going to remain on the Committee. I 
know we have many, many issues to look forward to a cooperative 
venture on.
    As a former Attorney General from North Dakota, I have seen 
first hand the law and order challenges of the give tribes in 
our State. Our tribes are known as large land-based tribes. For 
example, Standing Rock Sioux Reservation is approximately 36 
square miles, or 2.3 million acres. It is roughly the size of 
Connecticut. And for that entire land mass, the tribe has only 
24 law enforcement officers. This is considered relatively 
well-staffed, compared to many places.
    The high rates of violence, substance abuse and 
incarceration affect everyone, whether or not they are tribal 
members. You can simply not live with these conditions near you 
and not see the toll that they take on the social fabric of our 
community and certainly of the tribes.
    I don't think we should be proud to live in a country where 
34 percent of Native American women will be raped in their 
lifetime. I don't think we should be proud to live in a country 
where almost 40 percent of Indian people will be subjected to 
domestic violence. Violent crime rates across Indian Country 
are twice as high as the national average, and Indian children 
experience abuse at rates 50 percent higher than their non-
Native counterparts.
    I look forward to looking for solutions, not just studies, 
but actually having a broad conversation about how we can in 
fact begin to change the trajectory. In fact, I think 
generationally, we have to do this if we are going to continue 
to have healthy communities in Indian Country. There should be 
no solution off the table, which is why the Violence Against 
Women Act, which for the first time began to talk about working 
cooperatively with tribal courts is so significant. It was a 
leap, it was hard-fought. But yet it is one step, I think, in 
the right direction to getting justice for Indian people, both 
in Indian Country and off Indian Country.
    So I want to thank you, Madam Chairwoman, but I also need 
to say hello to Tim, because Tim Purdon and I have worked 
together on issues throughout North Dakota for a lot of years. 
He has made this issue definitely his prime focus as U.S. 
Attorney. I appreciate that focus, Tim. Thank you.
    The Chairwoman. Again, thank you to the witnesses, and we 
are sorry for the delay. Thank you for your patience, and we 
look forward to your testimony. We will start with you, 
Assistant Secretary Washburn. Thank you for being here.

          STATEMENT OF HON. KEVIN WASHBURN, ASSISTANT 
       SECRETARY--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Washburn. Madam Chair, thank you for scheduling this 
hearing. Thank you for your long leadership. We are grateful 
for that and glad that you are going to be continuing your 
service on the Committee.
    Mr. Vice Chair, thank you for our service too, and your 
support of TLOA and committee members, you have both been very 
active members of that committee. It is always an honor to 
appear before you. Thank you.
    I want to first thank the Department of Justice for the 
great partnership we have developed. I have to say, this 
Department of Justice has really made a lot of progress in the 
last five years and really, really brought justice in Indian 
Country forward a long way. With the support of this Committee, 
with TLOA and the VAWA reauthorization, we have really made 
some major accomplishments for self-determination for Indian 
Country. After TLOA and after VAWA, though, we still have a 
ways to go. I am really grateful to Chairman Eid and the rest 
of the Commission for keeping the conversation going, because 
we haven't solved all the problems. We have many more to solve, 
and the conversation now continues.
    As an academic, I had the great honor to appear before the 
Commission, thanks to the invitation of Chairman Eid. I am very 
supportive of its work.
    There are a lot of very specific recommendations in the 
report. Frankly, that is very, very helpful, because it really 
helps to have someone that has really looked carefully, thought 
through the difficult details, read the scholarship and talked 
to people and held hearings and really made some specific 
recommendations.
    We have not consulted with tribes specifically on any of 
those recommendations, though, so one of the things I thought I 
might do in my testimony is talk about some overarching 
principles that I think come through in the report and that are 
very important principles that we can agree on.
    One of those, first, is that tribal law enforcement 
officers need to be equal partners in Indian Country. They need 
access to all the information that regular police officers 
outside of Indian Country have, criminal police reports and 
that sort of thing. They need to have the information available 
to do their job. They need access to all the information that 
is necessary to accomplish public safety.
    A second compelling theme in the report that we strongly 
agree on is that all tribes have an interest in public safety. 
This includes tribes in Public Law 280 States, like Alaska. 
That is an important principle and we are troubled by the 
information that the Commission has helped to shed light on in 
Alaska. I thank Senator Begich for his leadership in trying to 
address that. It is a real problem, and we need to have all 
issues on the table to figure out how to address them. They 
aren't easy to address because there are some fiscal challenges 
there. But we need to be talking about them.
    A third compelling theme in the report I think is that 
where the United States has invested strategically in Indian 
Country with its financial resources, we have seen great 
success. We have a lot of examples of that, including at the 
Wind River Reservation. And we can't be blind to that. We have 
invested millions of dollars in increasing money in this area 
during the Obama Administration, and it has really made a 
difference. The Justice Department has invested hundreds of 
millions of dollars in grant programs. That money has really 
accomplished a lot. It hasn't solved all the problems, but it 
has really moved things forward tremendously.
    Another compelling theme in the report, and in the interest 
of time, the last one I will talk about, is that public safety 
is more than just law enforcement. It includes a lot of other 
issues. And providing public safety requires is to address 
issues like substance abuse and re-entry and other issues aside 
from just addressing individual crimes. In addition to the 
Justice Department, we have many other important partners in 
this area, too, including IHS and SAMHSA and other entities 
across the Federal Government. There is a dramatic coordination 
challenge that we must address so that we are providing good 
services to all the people in Indian Country and meeting the 
needs of victims, defendants and those children who are exposed 
to violence and other people who are exposed to these crimes.
    So I will stop there, because I had far more rather be 
talking about the things that you have an interest in thank 
taking up all of my time. I am grateful to you for holding this 
hearing and I look forward to your questions. Thank you.
    [The prepared statement of Mr. Washburn follows:]

Prepared Statement of Hon. Kevin Washburn, Assistant Secretary--Indian 
                Affairs, U.S. Department of the Interior
    Good afternoon Chairwoman Cantwell, Vice Chairman Barrasso, and 
members of the Committee. Thank you for inviting the Department of the 
Interior (Department) to provide testimony on the Indian Law and Order 
Commission Report: ``A Roadmap for Making Native America Safer.'' I am 
pleased to be here.
    The Administration continues to prioritize the issue of addressing 
public safety in Tribal communities. This priority is shared by 
Secretary Sally Jewell, myself, Tribal leaders and members of this 
Committee. The Administration strongly supported enactment of the 
Tribal Law and Order Act, which created the Indian Law and Order 
Commission (Commission). The Act required the Commission to conduct a 
comprehensive study of law enforcement and criminal justice in tribal 
communities, develop recommendations for modifications and improvements 
to justice systems at the Tribal, federal, and state levels, and submit 
to the President and Congress a report that contains a detailed 
statement of the findings and conclusions of the Commission. The Indian 
Law and Order Commission Report: ``A Roadmap for Making Native America 
Safer,'' (Report) was delivered to the President in November 2013.
    Most of the Department's work in this area is carried out by the 
Bureau of Indian Affairs-Office of Justice Services, led by Director 
Darren Cruzan. In reviewing the Report, the Department saw much more 
than specific recommendations. The Report included overarching 
principles that can help strengthen justice and public safety in Indian 
country. We find several broad principles or themes within the Report 
that are crucial to improving public safety in Indian country. The 
Department has prioritized public safety in Indian Country in its 
appropriation requests in recent years.
    The first is that Tribal law enforcement officers should be equal 
partners of the public safety community. The Report touched on the 
importance of increasing access to public safety information that is 
collected and used by all federal, Tribal and state public safety 
entities. It is essential that the Department provide Tribes with full 
and immediate access to criminal justice-related information related to 
their communities. Tribes must have appropriate information necessary 
to exercise their inherent criminal jurisdiction effectively under 
Tribal law as provided by the Tribal Law and Order Act of 2010 (TLOA) 
and the Violence Against Women Act Reauthorization Amendments of 2013 
(VAWA). The Department has drafted a formal protocol to be used by all 
direct service BIA duty stations for this purpose.
    The Department is committed to not only sharing and providing 
access to information, but also working in partnership with Tribal 
public safety agencies to strengthen public safety in Indian Country 
through intergovernmental cooperation. This intergovernmental 
cooperation includes entering into Deputation Agreements with the 
Tribes which enables officers working for Tribal police departments 
with established Deputation Agreements to apply for Special Law 
Enforcement Commissions (SLEC's). Special Law Enforcement Commissions 
allow Tribal police officers to enforce certain federal laws in Indian 
Country. Tribal police officers who put their lives on the line just 
like federal, state, county and municipal police officers deserve the 
same level access to information that those officers have.
    We consistently cooperate and dialogue with our public safety 
partners. These collaborations include our federal, Tribal and state 
partners in public safety. As sister federal agencies, we must 
collaborate and communicate with each other on public safety issues in 
Indian Country. Pursuant to our government-to-government relationship 
with the Tribal Nations, we must consult with Tribal Nations in 
addressing the public safety concerns in Indian Country. Moreover, 
since each Tribe is located within a state, and sometimes two or more 
states, it is paramount that we facilitate collaboration and 
communication between Tribes and states in addressing public safety 
concerns in Indian Country.
    A second compelling theme of the Report is that all tribes have an 
interest in public safety. The Report notes that all Tribes have an 
interest in protecting their members and lands and further recommends 
that federal funding for Tribal Justice Systems should be made 
available on equal terms to all federally recognized Tribes, whether 
their lands are under federal jurisdiction or congressionally 
authorized state jurisdiction and whether they opt out of federal or 
state jurisdiction. This Administration strongly supports the 
principles of Tribal self-determination and self-governance, and we are 
reviewing the Report and its recommendations to consider if there are 
ways that we could improve and support the tools available to address 
their public safety concerns.
    In light of the importance of providing public safety to all Indian 
communities, the Department shares the Department of Justice's views 
regarding the repeal of Section 910 of VAWA 2013 to allow Alaskan 
Tribes full civil jurisdiction to issue and enforce domestic violence 
protection orders to protect Alaska Native victims of domestic 
violence. This is a sound initial step toward addressing public safety 
issues for Alaska Natives.
    A third compelling theme in the Report is the recognition that 
where we have strategically invested resources in public safety in 
Indian Country, we have seen success. Reducing crime in Indian Country 
is of paramount importance and the Department has been successful in 
promoting safe communities. In 2010-2011, the Department initiated the 
Safe Indian Communities--High Priority Performance Goal (HPPG) 
initiative, which was targeted at achieving a significant reduction in 
violent criminal offenses of at least 5 percent within 24 months on 
four Indian reservations by increasing staffing levels to the national 
rural policing level (2.8 police officers per 1000 residents), 
implementing a comprehensive strategy involving community policing, 
tactical deployment, and critical interagency and intergovernmental 
partnerships. At the end of the measurement period, there was an 
average 35 percent decrease in violent crime across all four HPPG 
sites. This result suggests that public safety improvements can be 
achieved when a comprehensive strategy is implemented.
    We also find a compelling theme in the Report that public safety is 
more than simply law enforcement. The Report recommends a more 
inclusive view of public safety in Indian Country. This view of public 
safety includes not just our police officers, but also our detention 
programs, our Tribal courts programs, and our Indian Services programs, 
such as Social Services. The Report encourages Tribes to develop and 
enhance drug courts, wellness courts, residential treatment programs, 
combined substance abuse treatment-mental health care programs, 
veterans' courts, clean and sober housing facilities and reentry 
programs. We need to work harder to address substance abuse and re-
entry issues, and facilitating housing and education, and supporting 
families to improve public safety in Indian Country.
    The Department is pursuing an Indian Affairs Agency Priority Goal 
to reduce recidivism across three targeted reservations by a total of 6 
percent. This reduction we hope will be realized through implementing a 
comprehensive strategy involving alternative courts, increased 
treatment opportunities, probation programs, and critical interagency 
and intergovernmental partnerships between Tribal, federal and state 
stakeholders.
    The Department is pleased with the efforts of Tribes and the 
Department of Justice to address violence against women in Indian 
Country. The Department has been a partner in these efforts. During the 
past year, the Department has trained over 300 tribal court personnel 
on trial court advocacy skills with specific emphasis on issues 
affecting the safety of Native Women. Specifically, the trainings 
focused on issues surrounding domestic violence and sexual assault on 
adults and children. These trainings have been a collaborative effort 
between, the Department of the Interior, the Department of Justice 
Access to Justice Office and the United States Attorneys' Offices. 
Together, we have offered a trial court advocacy training specifically 
for Tribal court personnel. In an effort to provide realistic and 
pertinent issues specific to Tribal courts, the trial court advocacy 
training sessions have included fact patterns which address violence 
against Native women such as homicide, rape, assault and battery in the 
home, and workplace.
Conclusion
    Thank you for the opportunity to provide the Department's views on 
the Indian Law and Order Commission Report. The Department is anxious 
to hear the views of Indian Tribes about all the important subjects 
addressed in the Report. The Department will continue to work closely 
with this Committee, Tribal leaders through consultation, and our 
federal and state partners, collaboratively and cooperatively, to 
address the law enforcement, corrections and inter-agency issues to 
better address public safety in Indian Country.
    Thank you for focusing attention on the Commission's work. I am 
available to answer any questions the Committee may have.

    The Chairwoman. Thank you.
    Mr. Purdon, thank you very much for being here.

STATEMENT OF HON. TIMOTHY Q. PURDON, U.S. ATTORNEY, DISTRICT OF 
            NORTH DAKOTA, U.S. DEPARTMENT OF JUSTICE

    Mr. Purdon. Chairwoman Cantwell and Vice Chair Barrasso, 
members of the Committee, thank you for inviting me here today. 
Thank you for the opportunity to provide the perspective of the 
Department of Justice on the Indian Law and Order Commission's 
thorough and thoughtful report, A Roadmap for Making Native 
America Safer, and to discuss the Department's ongoing efforts 
to ensure public safety in Indian Country.
    The Department shares the commitment of this Committee and 
of the Indian Law and Order Commission to this important issue. 
We congratulate Chairman Eid and the Commission on the hard 
work that has culminated in its final report and 
recommendations. Like the Commission, we at the Department have 
long been concerned about the high rate of crimes occurring in 
Indian Country, in particular violence against women and Native 
children. That is why early in this Administration Attorney 
General Eric Holder launched a Department-wide initiative to 
improve public safety in Indian Country.
    Since 2009, the Department has engaged in focused and 
energetic efforts alongside our tribal law enforcement partners 
to help stem the tide of crime in Indian Country. As the United 
States Attorney for the District of North Dakota and as the 
chair of Attorney General Holder's Native American Issues 
Subcommittee, I am honored to appear before you to discuss this 
work by the Department to improve public safety in Indian 
Country. Under Attorney General Holder, the Department has made 
fighting crime in Indian Country a top priority and has pursued 
an aggressive strategy, consisting of law enforcement action, 
but also prosecution, grant funding, training, technical 
support and most importantly, collaboration with our tribal 
partners. It is already beginning to show some signs of 
success.
    The Department's renewed focus nationwide on leveraging our 
partnership with tribal, State, local and Federal law 
enforcement partners to address violent crime has led to 
concrete results. Specifically, in just the last four years, 
U.S. Attorneys offices like mine with responsibility for Indian 
Country across the Country have seen a number of prosecutions 
for crimes committed in tribal lands increase by more than 54 
percent. This increase was reported to Congress in our Indian 
Country Investigation and Prosecution Report for calendar years 
2011 and 2012 and was presented to Congress last spring.
    Specifically, Indian Country caseloads nationwide have 
increased overall from approximately 1,100 cases filed in 
fiscal year 2009 to over 1,600 criminal cases filed in fiscal 
year 2012. This increase in prosecution is due to many factors. 
But efforts by U.S. Attorneys across the Country to enhance 
investigative and prosecutorial coordination with tribal 
partners has been critical to this improvement.
    One of the important tools contributing to this improved 
collaboration is the Department's enhanced Tribal Special 
Assistant United States Attorney, or SAUSA program. Tribal 
SAUSAs are recommended and encouraged under the ILOC 
Commission's report, and I agree that that is a good thing. It 
is a good program.
    SAUSAs are able to are our tribal prosecutors who are 
cross-deputized and then able to prosecute crimes both in 
tribal court but also in Federal court as appropriate. These 
tribal SAUSAs serve to strengthen a tribal government's ability 
to fight crime, and they also increased the coordination and 
collaboration between a U.S. Attorney's office and a tribal 
prosecutor's office.
    Since its inception, this program has blossomed with dozens 
of tribal SAUSAs serving in districts across the Country. We 
have had a very successful SAUSA program in North Dakota with 
the Standing Rock tribal prosecutor's office. One of our former 
SAUSAs is here in the room, he has moved to D.C. and gone to 
work for the Indian Gaming Commission. Miles Janssen was one of 
our SAUSAs, prosecuting cases in both tribal court and Federal 
court, shoulder to shoulder with my AUSAs.
    The Department recognizes that the unique challenges to 
public safety in Indian Country created by jurisdictional 
schemes, varied jurisdictional schemes and geographic isolation 
pose unique challenges. It is against this backdrop that the 
roadmap presents a broad array of recommendations in issue 
areas as diverse as criminal jurisdiction and juvenile justice. 
At the Department, we are carefully studying the 
recommendations and will be reaching out to stakeholders and 
Federal law enforcement and obviously with our tribal partners 
to see additional input on solutions that can help address the 
difficult public safety issues we confront. Meanwhile, we will 
continue to use our existing authorities to meet our 
responsibilities and to strengthen capacity at every level of 
the criminal justice system.
    Again, thank you for having me here today, Chairwoman 
Cantwell. I look forward to answering any questions the 
Committee may have today.
    [The prepared statement of Mr. Purdon follows:]

 Prepared Statement of Hon. Timothy Q. Purdon, U.S. Attorney, District 
              of North Dakota, U.S. Department of Justice
    Chairwoman Cantwell, Vice-Chair Barrasso, and Members of the 
Committee:
    Thank you for the opportunity to provide the perspective of the 
Department of Justice on the Indian Law and Order Commission's 
thorough, thoughtful, and incisive report, A Roadmap for Making Native 
America Safer, and to discuss the Department's ongoing efforts to 
ensure public safety in Indian Country. The Department shares the 
commitment of this Committee and the Indian Law and Order Commission to 
this important issue, and we congratulate the Commission on the hard 
work that has culminated in its final report and recommendations. Like 
the Commission, we at the Department have long been concerned about the 
high rate of crimes occurring in Indian Country, in particular violence 
against women. That's why, early in this Administration, Attorney 
General Eric Holder launched a Department-wide initiative to improve 
public safety in Indian country. Since 2009, the Department has been 
engaged in focused and energetic efforts alongside our tribal law 
enforcement partners to help stem this tide.
    As the United States Attorney for the District of North Dakota and 
Chair of the Attorney General's Native American Issues Subcommittee, I 
am honored to appear before you to discuss the work of the Department 
to improve public safety in Indian Country. Since 2009, the Department 
has made fighting crime in Indian Country a top priority and has 
pursued an aggressive strategy consisting of law enforcement action, 
prosecution, grant funding, training, technical support, and 
collaboration with tribal partners that is already showing success. For 
example, the Department's renewed commitment to the vigorous 
prosecution of federal crimes in Indian Country has increased the 
number of Indian Country prosecutions by United States Attorney's 
Offices nationwide by more than fifty percent over the past four years.
    Nonetheless, the Department recognizes that an increase in federal 
arrests and prosecutions alone cannot solve all the public safety 
challenges on the reservations. Accordingly, we have augmented our 
enhanced focus on law enforcement and prosecutions with additional 
support for tribal criminal justice institutions. In 2010, the 
Department answered a call from tribal leaders for a more streamlined, 
holistic approach to its tribal-specific grant programs by establishing 
the Coordinated Tribal Assistance Solicitation (CTAS). CTAS helps 
tribes secure critical federal assistance on a wide array of criminal 
justice issues, including preventing violence against women, protecting 
at-risk children, improving community policing, and exploring 
alternatives to incarceration. Through CTAS, we have awarded nearly 
$440 million in federal grants to tribes in the past four years. These 
funds work to directly strengthen the criminal justice system in Indian 
Country, creating opportunities for increased collaboration with our 
tribal partners and increased tribal self-determination.
    The Department recognizes the unique challenges to public safety in 
Indian Country created by varied jurisdictional schemes and varying 
tribal cultures. It is against this backdrop that the Roadmap presents 
a broad array of recommendations in issue areas as diverse as criminal 
jurisdiction and juvenile justice. We are carefully studying the 
recommendations and will be reaching out to stakeholders to seek 
additional input on solutions that can address the difficult public 
safety issues confronting tribal communities. Meanwhile, we will 
continue to use our existing authorities to meet our responsibilities 
and to strengthen capacity at every level of the criminal justice 
system.
Establishing Unprecedented Levels of Cooperation
    Since taking Office, Attorney General Holder has consistently 
emphasized that combatting violent crime in Indian Country and 
fostering safe communities is a top priority of the Department of 
Justice. Attorney General Holder has stated that when it comes to this 
challenge, we must ``recommit ourselves to collaboration on an 
unprecedented scale.'' To this end, the Department took steps in early 
2010 to ensure that each United States Attorney's Office with 
responsibilities in Indian Country implemented a district-specific 
operational plan to formalize its strategy for consulting and working 
with tribal, state, and local law enforcement, prosecutors, and other 
leaders, to improve public safety in Indian Country. For example, in 
North Dakota, our operational plan took the form of an Anti-Violence 
Strategy that combines enhanced enforcement of federal criminal laws 
with support for viable crime prevention programs and efforts to build 
a sustainable offender reentry program. Our plan has now been in place 
for almost three years and has resulted in unprecedented levels of 
communication and collaboration between the U.S. Attorney's Office and 
the tribes in North Dakota as well as a large increase in the number of 
Indian Country cases being prosecuted by our Office.
    The Department's renewed focus nationwide on leveraging 
partnerships with tribal, local, state, and federal partners to address 
violent crime has led to concrete results, not just in North Dakota, 
but across the rest of the country. In just the last four years, U.S. 
Attorneys' offices with responsibility for Indian Country have seen the 
number of prosecutions for crimes committed on tribal lands increase by 
more than 54 percent. This increase was reported to Congress in our 
Indian Country Investigation and Prosecution Report (ICIP) for calendar 
years (CYs) 2011 and 2012. \1\ Specifically, Indian Country caseloads 
nationwide have increased overall:
---------------------------------------------------------------------------
    \1\ www.justice.gov/tribal/tloa-report-cy-2011-2012.pdf.

---------------------------------------------------------------------------
  <bullet> 1,091 criminal cases filed in fiscal year (FY) 2009;

  <bullet> 1,138 criminal cases filed in FY 2010;

  <bullet> 1,547 criminal cases filed in FY 2011; and

  <bullet> 1,677 criminal cases filed in FY 2012.

    This increase in prosecutions is due to many factors, but efforts 
by U.S. Attorneys to enhance investigative and prosecutorial 
coordination with tribal partners have been critical to this 
improvement.
    A great example of how collaboration improves law enforcement can 
be found in Montana. In 2010, Montana United States Attorney Mike 
Cotter began convening bi-monthly meetings involving the federal 
prosecutors assigned to each reservation, the tribal prosecutors for 
the reservation, and tribal and federal law enforcement officers. 
During these meetings, cases arising on a particular reservation during 
the preceding two-week period are discussed and a decision is reached 
collaboratively concerning which jurisdiction--Federal or tribal or 
both--will prosecute a particular case. This close communication 
ensures that serious Indian Country crimes are appropriately 
investigated and that the decision whether a matter will be charged in 
federal court or tribal court is an informed one.
    An important tool contributing to improved collaboration is the 
Department's enhanced Tribal Special Assistant U.S. Attorney (SAUSA) 
program. Tribal SAUSAs are tribal prosecutors who are ``cross-
deputized'' and able to prosecute crimes in both tribal court and 
federal court as appropriate. These Tribal SAUSAs serve to strengthen a 
tribal government's ability to fight crime and to increase the USAO's 
coordination with tribal law enforcement personnel. Since its 
inception, the program blossomed, with dozens of Tribal SAUSAs serving 
in districts across the country.
    To increase the use of Tribal SAUSAs in cases involving violence 
against Native women, in 2012, the Office on Violence Against Women 
(OVW) initiated its Violence Against Women Tribal SAUSA Pilot Project, 
making awards to four tribes in Nebraska, New Mexico, Montana, North 
Dakota and South Dakota to fund cross-designated tribal prosecutors. 
The goal of the Tribal SAUSA Pilot Project is that every viable crime 
of domestic violence, dating violence, sexual assault, and stalking 
will be prosecuted in federal court, tribal court, or both. We have an 
OVW-funded SAUSA working in my Office and for the Standing Rock Sioux 
Tribal Prosecutor. She has tried domestic violence cases in tribal 
court and has secured prison time in domestic violence cases in federal 
court as well.
    The work of Tribal SAUSAs can also help to accelerate a tribal 
criminal justice system's implementation of the Tribal Law and Order 
Act of 2010 and the Violence Against Women Reauthorization Act of 2013. 
The use of Tribal SAUSAs is expanding and, consistent with the 
Roadmap's Recommendations 3.3 and 3.4, the Department supports 
strengthening the work of Tribal SAUSAs by improving access to law 
enforcement sensitive information and witnesses where such access does 
not exist already.
    The SAUSA program is one area that the Roadmap acknowledges has the 
potential to address the broader need for skilled, committed 
prosecutors working on the ground in Indian Country. To help meet this 
demand, Attorney General Holder announced last November the Attorney 
General's Indian Country Fellowship. This fellowship, which will be 
part of the Attorney General's Honors Program, will inspire and train 
the next generation of prosecutors to serve in Indian Country. It will 
create an opportunity for highly qualified law-school graduates to 
spend three years--primarily in U.S. Attorneys' Offices--working on 
Indian Country cases and thereby creating a pool of attorneys with deep 
experience in Federal Indian law, tribal law, and Indian country 
issues.
    The commitment of the U.S. Attorney's Offices in Indian Country has 
been supported by Department components that have provided much-needed 
training to law enforcement and prosecutors who are working in Indian 
Country. For example:

  <bullet> National Indian Country Training Initiative (NICTI). 
        Prosecutors working in Indian Country need specialized 
        training. The NICTI has answered that call. Launched in 2010, 
        it works to ensure that AUSAs and Tribal SAUSAs, as well as 
        state and tribal criminal justice personnel, receive the 
        training and support needed to address the particular 
        challenges relevant to Indian Country prosecutions. For 
        example, in January 2013, the NICTI partnered with the National 
        Strangulation Training Institute to deliver the first-ever 
        national Indian Country training on the investigation and 
        prosecution of non-fatal strangulation and suffocation 
        offenses. The training, held at the National Advocacy Center in 
        Columbia, South Carolina, drew attendance from 17 tribes, U.S. 
        Attorney's Offices, the FBI, and the Bureau of Indian Affairs 
        and provided an in-depth examination of the mechanics of 
        strangulation and suffocation from a medical, legal, and law 
        enforcement perspective.

  <bullet> Access to Justice (ATJ). Since 2011, ATJ has partnered with 
        the U.S. Department of the Interior's Bureau of Indian Affairs, 
        Office of Justice Services, to host a series of tribal court 
        trainings known as the Tribal Court Trial Advocacy Training 
        Program. This free, three-day trial advocacy course is designed 
        to improve the trial skills of judges, public defenders, and 
        prosecutors who appear in tribal courts. All trainings are 
        staffed by experienced tribal prosecutors, defenders, judges, 
        Assistant United States Attorneys (AUSAs) who prosecute Indian 
        Country cases, and Assistant Federal Public Defenders.

    Finally, the Department is also working to ensure that, in our work 
in Indian Country, we remain focused on providing critical services to 
the victims of crime. Since 2009, the Office for Victims of Crime 
(OVC), within the Office of Justice Programs, has provided over $2.6 
million to the BIA to support victim assistance positions in Montana, 
South Dakota, Arizona, and New Mexico and has helped to build the 
capacity of sexual assault services in Indian Country through such 
innovative partnerships as the Department and the Indian Health Service 
working together to establish the American Indian/Alaska Native Sexual 
Assault Nurse Examiner-Sexual Assault Response Team (SANE-SART) 
Initiative, which addresses the comprehensive needs of tribal victims 
of sexual violence.
    As the Roadmap recommends and as detailed above, the Department is 
embracing intergovernmental cooperation and coordination. In an effort 
to further strengthen the government-to-government relationships 
between the Department and sovereign tribes, the Department is in the 
process of adopting a new Statement of Principles to guide all the 
actions we take in working with federally recognized Indian tribes. 
This proposed Statement will codify our determination, as the Attorney 
General has remarked, to serve not as a patron, but as a partner in 
fighting crime and enforcing the law in Indian Country. It will also 
memorialize our commitment to Indian tribes and provide a foundation 
for reinforcing relationships, reforming the criminal justice system, 
and aggressively enforcing federal laws and civil rights protections. 
The Department has now begun the process of formal and informal 
consultation with tribal leaders on the Statement of Principles. \2\
---------------------------------------------------------------------------
    \2\ http://www.justice.gov/tribal/.
---------------------------------------------------------------------------
Combating Domestic Violence
    The fight against domestic violence in Indian Country has been an 
especially important priority for the Department of Justice. The 
Department applauds Congress for passing the bipartisan Violence 
Against Women Reauthorization Act of 2013 (VAWA 2013), which the 
President signed into law last March. This important Act, most of which 
has already taken effect, improves the ability of federal and tribal 
authorities to respond to domestic violence offenders and protect 
victims in three crucial ways. First, it strengthens federal domestic 
violence offenses and the federal assault statute--a statute frequently 
used in Indian Country intimate-partner violence crimes. Second, the 
Act recognizes the tribes' inherent power to exercise ``special 
domestic violence criminal jurisdiction'' over those who commit acts of 
domestic violence or dating violence or violate certain protection 
orders in Indian Country, regardless of their Indian or non-Indian 
status. Finally, it contributes to tribal self-determination by 
recognizing that tribes have full civil jurisdiction to issue and 
enforce protection orders involving any person (Indian or non-Indian) 
in matters arising anywhere in the tribe's Indian country or otherwise 
within the tribe's authority. These provisions, which help hold Indian 
and non-Indian perpetrators accountable, were first proposed, and have 
long been championed, by the Department.
    While the new law's tribal criminal jurisdiction provision takes 
effect on March 7, 2015, VAWA 2013 also authorizes a voluntary ``Pilot 
Project'' to allow tribes to begin exercising special domestic violence 
criminal jurisdiction sooner. The Department received the first set of 
requests from six tribal governments to participate in the Pilot 
Project and last week three tribes--the Pascua Yaqui Tribe of Arizona, 
the Umatilla Tribes of Oregon, and the Tulalip Tribes of Washington--
were granted Pilot Project approval by the Department. They will be the 
first tribes in the nation to exercise special criminal jurisdiction 
over crimes of domestic and dating violence, regardless of the 
defendant's Indian or non-Indian status, under VAWA 2013.
    The Roadmap offers a recommendation for another step forward in 
Alaska as well. It urges the repeal of Section 910 of VAWA 2013. VAWA 
Section 910 renders the restored tribal jurisdiction provisions of 
Sections 904 and 905 of the Act generally inapplicable in Alaska. The 
Department supports the repeal of Section 910. Permitting application 
in Alaska of VAWA Section 905, which provides that tribes have full 
civil jurisdiction to issue and enforce domestic violence protection 
orders, would be a meaningful change that could help protect Alaska 
Native victims of domestic violence. Unlike VAWA Section 904 (which 
recognizes tribal criminal jurisdiction over certain crimes committed 
in a tribe's Indian country), VAWA Section 905 expressly covers not 
only matters arising anywhere in the tribe's Indian country but also 
matters that are ``otherwise within the authority of the Indian 
tribe.'' So the impact of repealing Section 910 will likely have its 
greatest direct effect on the application of Section 905, which would 
then recognize Alaska tribes' civil jurisdiction to issue and enforce 
protection orders involving Natives and non-Natives alike.
Protecting Our Children
    Providing safe, secure, and healthy communities for children is 
perhaps the most important priority for all stakeholders in Indian 
Country. In that regard, the Roadmap makes numerous recommendations 
relating to myriad criminal justice issues impacting tribal youth and 
juvenile justice.
    The Department agrees that few issues are more critical to the 
long-term improvement of public safety in Indian Country than working 
with young people to break the cycle of violence and hopelessness we 
have come to see on some reservations. Recognizing the importance of 
this issue, the Department is working to improve juvenile justice in 
Indian Country.

  <bullet> In South Dakota, my colleague U.S. Attorney Brendan Johnson 
        has implemented a process of collaboration with tribal 
        prosecutors on some reservations that formalizes efforts to 
        work together towards ensuring justice for juvenile offenders. 
        While remaining committed to the federal prosecution of 
        juveniles who commit the most serious offenses and those 
        involved in gang activity, the South Dakota U.S. Attorney's 
        Office program recognizes that, where appropriate, tribal 
        prosecution may be the most effective method of handling 
        juvenile misconduct. The hope is that keeping these young 
        offenders under the supervision of the tribal court for as long 
        as possible will provide an opportunity for rehabilitation, 
        allow the youth to remain in his community surrounded by his 
        family and culture, and keep federal prosecution--and a federal 
        record--as a last resort.

  <bullet> In North Dakota, in the fall of 2012, we launched a pilot 
        program aimed at reaching young people on the Standing Rock 
        Reservation. An AUSA in our office, who is himself an enrolled 
        member in a North Dakota tribe, spearheaded the program. During 
        the 2012-2013 school year, he organized a series of 
        presentations to the student bodies of Standing Rock High 
        School and Standing Rock Middle School designed to educate the 
        students on protecting their personal safety and on the legal 
        and physical/psychological hazards associated with certain 
        conduct. The Standing Rock students were receptive to these 
        presentations and we believe the program increased trust of the 
        law enforcement presenters. Indeed, the Bismarck Tribune 
        editorialized that ``[t]o have an assistant U.S. attorney 
        making his or her presence felt on the Standing Rock Indian 
        Reservation--not in the courtroom but in the lives of young 
        Native Americans--has to make a positive difference.'' \3\ We 
        agree.
---------------------------------------------------------------------------
    \3\ ``Reaching out on the Reservation,'' Bismarck Tribune, May 3, 
2012.

    Finally, the Department recently established the American Indian 
and Alaska Native Children Exposed to Violence Task Force as part of 
the Department's Defending Childhood Initiative. The Initiative is 
designed to prevent and reduce children's trauma from experiencing 
violence as victims or witnesses. Research funded by the Department 
demonstrates that a majority of America's children--more than 60 
percent--are exposed to some form of violence, crime, or abuse. \4\ 
While this study was not specific to tribal communities, our own 
experiences and reports from tribal leadership tell us that American 
Indian and Alaska Native children experience high degrees of unmet 
needs for services and support to prevent and respond to extreme levels 
of violence on some reservations.
---------------------------------------------------------------------------
    \4\ https://www.ncjrs.gov/pdffiles1/ojjdp/227744.pdf
---------------------------------------------------------------------------
    The Task Force is made up of an Advisory Committee of tribal 
members and national experts--in academia, child health and trauma, and 
child welfare and law--and a Working Group that, along with me, 
includes U.S. Attorneys Amanda Marshall from Oregon, Brendan Johnson 
from South Dakota, and Barry Grissom from Kansas, as well as other top 
officials from the Departments of Justice, the Interior, and Health and 
Human Services. More specifically:

  <bullet> The Task Force's Advisory Committee, co-chaired by former 
        U.S. Senator and former chair of the Senate Committee on Indian 
        Affairs Byron Dorgan and Iroquois composer and singer Joanne 
        Shenandoah, has been appointed to examine the scope and impact 
        of violence facing American Indian and Alaska Native children 
        and make policy recommendations to Attorney General Holder on 
        ways to address this issue.

  <bullet> The Working Group was formed to support the Advisory 
        Committee because the Department recognizes that there are 
        things we can do right now that can have a direct and immediate 
        impact in children's lives. These efforts are already making a 
        difference. Since its inception in August 2013, the Working 
        Group of federal officials has taken action to improve 
        educational and programmatic services in youth detention 
        facilities in Indian Country. Contracts have been secured for 
        teachers who will provide educational services to Native youths 
        held in Bureau of Indian Affairs' detention facilities.

    The Advisory Committee held its first hearing on December 9, 2013, 
in Bismarck, North Dakota. We were honored to have Senator Heitkamp 
participate. Over this next year, the Advisory Committee will continue 
to travel throughout the country, holding hearings and listening 
sessions. The Advisory Committee will explore existing research and 
consult with experts to obtain a clearer picture of the incidence of 
violence among native children, and help identify ways to prevent it. 
The Advisory Committee's work will culminate in a final report--a 
strategic plan of action that will guide practitioners and policymakers 
at all levels. Similar to the work of the Defending Childhood Task 
Force, the recommendations of the Advisory Committee will serve as a 
blueprint to guide us into the future.
    The work that is done in Indian Country United States Attorney's 
Offices across this nation every day is critical to the improvement of 
public safety on the reservations. As a United States Attorney who has 
prioritized this work in my District, I am incredibly grateful to my 
colleagues throughout the Department and to Attorney General Holder for 
their unwavering commitment to the mission in Indian Country. The 
United States Attorney community and the Department as a whole are 
proud of the work we have done thus far, but know there is much more to 
do. As the Attorney General has declared, we must and we will, recommit 
ourselves to collaboration with our tribal partners on an unprecedented 
scale.
    Thank you for the opportunity to appear before you today to 
reiterate the Department's strong commitment to working with Congress, 
and especially this Committee, and with our tribal partners to achieve 
the core goals that animated the Indian Law and Order Commission and 
its dedicated members and staff: to build safe, sustainable, healthy, 
and resilient American Indian and Alaska Native communities. We praise 
the Commission for its hard work and devotion to strengthening and 
securing public safety for tribal nations, and we thank the Commission 
for its thoughtful and comprehensive recommendations.
    I look forward to answering any questions you may have.

    The Chairwoman. Thank you. And again, I thank both the 
witnesses.
    I am going to start with you, Assistant Secretary Washburn. 
One of the goals of the high priority performance goal was to 
target a 35 percent reduction, and these pilots have come back 
with some pretty spectacular results.
    So what does the Administration plan on doing to expand the 
program? Are you looking at the fiscal year 2015 budget? What 
do we know about what might be needed as far as a budget number 
to help address this on a larger scale than just these pilots?
    Mr. Washburn. Thank you, Madam Chairwoman. We have found 
that those pilots were indeed very successful. I think that 
what they show is that when we invest appropriate resources we 
get results. I think that that is now clear.
    We are moving forward with similar pilot programs like that 
in other places in Indian Country. What we will be doing going 
forward is expanding what we are trying to do to address public 
safety more holistically so that we are addressing, we are 
going to create a program that will give tribes the ability to 
use the money where they think best. If it is substance abuse, 
or other areas, re-entry, we would like to expand sort of the 
idea of HPPG, which is that if we invest money, we will get 
results. But we want to try to decrease recidivism. Rather than 
going straight at the crime rate, we are going to start trying 
to get the recidivism rate, repeat offenders.
    So that is kind of the next step for that program. I can't 
talk too much about actual funding requests going forward for 
2015, although the Committee usually does have a hearing in 
late March after the budget comes out. So I will be able to 
speak more about that when the final decisions have been made. 
So we can talk, going forward, about the funding at that time.
    The Chairwoman. Okay. How about something a little more 
basic. You do believe that you should expand the pilot 
programs?
    Mr. Washburn. Well, yes. We have seen success. That is the 
bottom line. The question, I think now, we have some difficult 
fiscal challenges, because if we can do this well at four 
locations, we do have 566 tribes. So there are some fiscal 
challenges to expanding this to all tribes. So we need to 
figure out how to go forward in light of those fiscal 
challenges. But the exercise has proven itself, that when we 
invest well and invest strategically we can make a difference.
    The Chairwoman. On this question of special prosecutors, 
Mr. Purdon, you basically painted them in a pretty positive 
light. Very much walking in both worlds and making it work. So 
I was surprised that one of the commission's findings that the 
FBI Office of Justice Services and U.S. Attorneys' office are 
reluctant to provide Federal criminal investigation information 
to the deputized prosecutors.
    Mr. Purdon. Right.
    The Chairwoman. So is that your experience with them? What 
should we do about trying to solve that problem?
    Mr. Purdon. That is not my experience in North Dakota. And 
I can speak more broadly first. I think the Department has seen 
that recommendation from the Committee, is it the intention of 
the Department that Special Assistant United States Attorneys 
who have passed a background check and who can go into court 
and represent the United States of America, that they are 
entitled to the sensitive law enforcement information they need 
to work on the cases that they are prosecuting.
    So that is the Department's position. To the extent that 
that might not be happening in a couple of spots, we are 
committed to making sure that does happen. In North Dakota, our 
experience has been the opposite, that once those SAUSAs become 
certified and become part of my team at the U.S. Attorney's 
office, they go into court shoulder to shoulder with our AUSAs. 
We treat them like AUSAs. We don't, in North Dakota, keep 
information from them. They are part of the team.
    It is that collaboration between the assistant U.S. 
Attorneys, the line prosecutors in my office that have 
dedicated their lives to making Indian Country safer and the 
tribes own representative, the tribal prosecutor, who has that 
joint interest in public safety on the reservation. Bringing 
those two forces together, it helps get convictions but it also 
increases the communication and the collaboration and the idea, 
we really become then more community prosecutors, become part 
of that community.
    My folks live in Bismarck. They don't live in Fort Yates on 
the reservation. But our goal is to make those AUSAs part of 
that community so that they are involved in the public safety 
challenges of that reservation.
    The Chairwoman. Thank you. So, share information.
    Mr. Purdon. That is the goal. That is what we do. That is 
the position of the Department of Justice.
    The Chairwoman. Thank you. I have more questions but I will 
let my colleagues here have some time, we will go back and 
forth. The Vice Chairman stepped out for a while. Senator 
Murkowski, do you have a question?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. I do, Madam Chairman. Thank you for 
advancing this very important discussion today. Welcome, too, 
to our witnesses. I haven't had a chance to hear your verbal 
testimony but I have read your written statements and 
appreciate that.
    Quick question for you, Secretary Washburn. The BIA has 
made it a policy of not funding tribal courts or law 
enforcement, in Public Law 280 States. So given that what we 
are seeing from the Commission in terms of a recommendation, 
would the BIA be willing to submit a budget request to Congress 
that includes funding for tribes in Public Law 280 States?
    Mr. Washburn. Thank you for that question, Senator 
Murkowski. It is a very difficult question.
    Senator Murkowski. I know it is. It seems so easy to ask. 
Put this in the budget.
    [Laughter.]
    Mr. Washburn. Thank you for recognizing that. The problem 
is, it is sort of a simple fiscal problem, which is that we 
don't necessarily have enough money to do everything the 
Federal Government needs to do for every constituency. And so 
we don't--I think we have an existing system where we have 
only, we have exclusive responsibility with the tribes, the 
Federal Government and the tribes, in ordinary Indian Country 
type jurisdictions. In Public Law 280 States, the States have a 
responsibility and a delegation of Federal authority.
    We feel like we need to focus our funding where it is most 
needed, which is in those jurisdictions where the tribes and 
Federal Government have exclusive jurisdiction. That is not a 
policy decision. It is just a necessity based on limited fiscal 
resources.
    I guess I would say I can't fully answer your question 
because the question would, especially under the Murray-Ryan 
budget scenario we have, we have to figure out where we would 
take the money from to fund Public Law 280 law enforcement 
States, tribes in those States. And that is a difficult 
question. So we have a limited amount of money, and where do we 
take it from is the question.
    Senator Murkowski. I understand that, because we are 
dealing with that every day up here. But I also recognize that 
as I am talking with tribes from Alaska that truly are trying 
to make the best of an already squeezed situation; they are not 
asking for a lot. They are asking for some level of 
contribution and participation. And as we know, they are taking 
up that responsibility and yet the compensation or the 
reimbursement for them is slim to none.
    Extraordinarily challenging for them, and yet they are 
stepping forward and doing the best job that they can. We have 
got to be creative. This is where, Mr. Purdon, I appreciate 
what you, the perspective that you provide, coming from the 
U.S. Attorneys office and the efforts that we are working on to 
be more collaborative, cross-deputization, how we are looking 
critically at how we do better, given our very, very difficult 
budget considerations.
    I also appreciate the clarification that you provided on 
section 910 of VAWA. I think there is a lot of confusion about 
what Alaska tribes are eligible for or not eligible for. And I 
obviously absolutely support the policy that our tribal court 
protective orders over our members or non-members in 
relationship with tribal members are honored. And in fact, the 
State of Alaska has confirmed that these protective orders are 
honored once they are registered. It is important to make sure 
that that is more clarified.
    A couple of questions then for you. This task force, the 
American Indian Alaska Native Children Exposed to Violence Task 
Force, I know that you are going to be, well, I guess I want to 
know if the task force will be visiting Alaska. Valerie 
Davidson, of course, is on that task force and always 
represents us well. But do you have plans to go to the State?
    Mr. Purdon. Yes. The Alaska Native American Indian Children 
Exposed to Violence Federal Advisory Committee, which is part 
of our task force, along with the working group that I am part 
of, that advisory committee held its first hearing in Bismarck. 
We were honored to have Senator Heitkamp speak at that hearing. 
They met this week, Assistant Secretary Washburn was in Phoenix 
for the second meeting. The third meeting, the location is 
escaping me, but my understanding is that there is a commitment 
for that fourth meeting, that it will take place in Alaska.
    Senator Murkowski. Great. That is good to hear.
    This is just a much broader question and not fair, as I 
have just allowed the clock to go to zero, but how do you see 
an expanded role of U.S. Attorneys in rural Alaska? Are there 
some partnerships that we can create with our tribes and our 
State to really better serve, what can we be doing better 
there?
    Mr. Purdon. Obviously unlike myself in North Dakota, where 
I have primary jurisdiction over major crimes in Indian 
Country, the situation is different in Alaska. Obviously you 
understand that, but just to set the stage.
    That being said, the U.S. Attorney's office in Alaska, 
along with Federal law enforcement agencies, is taking, I 
think, some concrete steps to assist the remote villages that 
are the subject of the report and the subject of your concern. 
For instance, the FBI and the U.S. Attorneys office conducts a 
great deal, my understanding is, of outreach to the villages on 
the issue of sex trafficking. Because there is a vulnerable 
population of young people in those communities. The FBI has a 
project, Innocence Lost, I believe, and a partnership with the 
U.S. Attorneys office. That outreach and training has been 
done. So that is something we can do, even though the U.S. 
Attorneys office doesn't have jurisdiction over the villages.
    Additionally, in 2012, the U.S. Attorneys office, my 
colleague Karen Loeffler in Alaska, applied for and received 
funding for a specific AUSA in her office to focus on violent 
crime in rural Alaska. Now, that person doesn't have major 
crimes jurisdiction, but they have been able to make use of 
existing Federal authorities under perhaps the drug or the 
firearms titles to charge and prosecute under Federal law folks 
that are violent criminals out in rural Alaska, including the 
villages. That is an important step, and one that should be 
recognized. Then I also understand that the U.S. Marshal 
Service and the U.S. Attorneys office work hard with the 
villages in terms of sex offender registration and ensuring 
that people pay penalties if they don't register.
    So in addition to the U.S. Attorneys office, the Office of 
Justice Programs does offer financial support as well. The 
Native villages are eligible for our CTAS grants, and there is 
grant money that flows to those villages as well. So we have to 
do what we can with the resources and the prosecutorial 
techniques we have. U.S. Attorney Loeffler is an active member 
of our subcommittee and is committed to this issue. They have 
done what they can, given the jurisdictional hurdles.
    Senator Murkowski. It has really helped to have the 
participant of the marshals, too, and just having an extra 
presence. So cumulatively, you try to chip away at it. It is a 
big problem and I appreciate your comments.
    Thank you, Madam Chair.
    [The prepared statement of Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska
    I would like to thank Chairman Cantwell and Vice Chairman Barrasso 
for the scheduling this hearing on the Indian Law and Order Commission 
Report. I was a proud co-sponsor of the Tribal Law and Order Act of 
2010, a bill that authorized the Indian Law and Order Commission to do 
its work. I would like to thank the Commission for their hard work and 
extensive outreach to Indian country and Alaska Native villages--often 
the most rural and untraveled parts of America.
    While we appreciate that the Commission has directed attention to 
the shameful statistics and reality of public safety in rural Alaska, 
the recommendations have generated much controversy in our state--
fueling a long standing historical debate over the Alaska Native Land 
Claims Settlement Act, and whether or not tribes should have 
reservation trust lands. The Commissioners have addressed the issue of 
public safety in Alaska from the lens of Indian country, rather than 
those working to address the barriers to justice in our villages.
    In rural Alaska, the barriers to delivering justice are 
tremendous--not only geographic, but also financial. I have been 
driving a conversation of partnership between the State and our tribes. 
Whether it be through the construction of public safety buildings, 
holding cells and health clinics, or through providing training for 
tribal law enforcement and honoring tribal court protective orders--
cooperation is necessary. The fact of the matter is, we all must be 
asking more of ourselves--the Tribes, the State, and the Federal 
Government.
    What concerns me, is that often a young women who is sexually 
assaulted in a village must be flown hundreds of miles away to a hub 
community like Bethel, Nome or Anchorage, for a forensic exam and for 
evidence to be collected for prosecution. This only happens if she is 
willing to report what has happened to her--because the experience of 
too many others is that nothing will happen to her perpetrator. Our 
young women cannot be afraid to speak out, for fear of local politics 
or retribution.
    What protocols and relationships between our tribes and the State 
need to occur? What role must our health providers play to address 
domestic violence and sexual assault in our communities? What can we be 
doing in the area of prevention, with our school districts? What are we 
collectively doing to address the deplorable housing conditions? What 
are we doing to make sure a woman, and often her children, have options 
when they leave a women's shelter?
    These are the questions we must ask in order to drive the 
conversation that I hope to have in Alaska. There are good examples. In 
the AVCP region last year, the regional tribal organization and the 
State of Alaska partnered to build three new public safety buildings in 
Kalskag, Mekoryuk, and Russian Mission. AVCP, in partnership with the 
State will build new public safety buildings in Aniak, Kwigillingok, 
Mountain Village, and Tununak. All hire is local, which provides added 
economic boost for families in the region.
    Our regional tribal organization based in Dillingham, Alaska has 
created a prisoner re-entry program for Native men who leave prison. 
The Bristol Bay Native Association, with outreach to the Alaska 
Department of Corrections, the Alaska Juvenile Justice Program, and the 
National Reentry Resource Center has created the Bristol Bay Regional 
Reentry Coalition to help those released with employment, housing, 
children and culture.
    The Indian Law and Order Commission Report--failed to examine what 
works in rural Alaska when it comes to achieving public safety and the 
partnerships that exist between our regional tribal non-profits, 
including our tribal health providers and the State of Alaska. Instead, 
the report took aim to the long-standing battle of whether or not 
Alaska should have Indian reservations.
    In the 2013 Violence Against Women Act, I asked the Attorney 
General of the United States, the State of Alaska, and the Alaska 
Federation of Natives to revisit the purpose and composition of the 
Alaska Rural Justice and Law Enforcement Commission. I look forward to 
hearing from Alaskans on how we collectively will address the issue of 
public safety in Alaska.

    The Chairwoman. Thank you. Senator Heitkamp?
    Senator Heitkamp. Thank you, Madam Chairwoman. Just a quick 
point, and I think that the Honorable Kevin Washburn is tired 
of me saying this. But obviously we now have the report. We are 
waiting to find out what the Administration's fiscal response 
is to that, and we look forward to seeing the Presidential 
budget, because we hope that it reflects the great need that we 
see for law enforcement and for law and order in Indian 
Country. So I will just lay down my marker, we are waiting. We 
will wait and see.
    My questions are mainly for U.S. Attorney Tim Purdon. 
Obviously those of us who have done this work over a long 
period of time realize that we can in fact continue to invest 
resources, continue to do what we are doing. But so much of 
what happens is related to substance abuse, drug and alcohol 
addiction. In fact a rate of over, I think it is 220 percent of 
all, over another DOJ statistical average is what we see in 
Indian Country related to alcohol. So let's not kid ourselves. 
Because we have a chronic addiction issue, we have recidivism. 
That recidivism not only takes a lot of prosecutorial effort, 
but it continues to add to the despair and dismembering, 
really, of the community.
    So my question is, what are you doing to promote re-entry 
programs in tribal communities in order to combat recidivism?
    Mr. Purdon. Senator Heitkamp, re-entry is a huge challenge. 
Ninety-five percent of the folks that my AUSAs prosecute and 
send to Federal prison, 95 percent of them come back to the 
reservation at some point. This is an issue that is very 
personal to me. Before I was U.S. Attorney, Senator Heitkamp, 
as you are aware, I was in private practice. I actually did 
some public defender work and defended folks charged with 
crimes in Federal court.
    I had a client once that I had represented and he went to 
prison and I ran into him at the halfway house in Bismarck 
seven years later. He is coming out of prison. You never know 
how those conversations are going to go. But he was happy to 
see me and I said, oh, how are you doing? He said, I am doing 
well, I am at the halfway house, I have a job, I have a 
sponsor, I am in an AA group and I have a sponsor and things 
were going well for him in Bismarck. But he is not from 
Bismarck. He is from Standing Rock. And when his six months 
were up at the halfway house, he got in a car and went back to 
Standing Rock. Three months later, I got a call, his probation 
is being revoked, he is being sent back to Federal prison.
    I said to him, what happened? He said, well, I got back to 
Standing Rock, no job, no AA group, no sponsor. And we see that 
over and over and over again. So re-entry has to be part, 
besides just the prosecution side, we have to get involved in 
re-entry. And so one of the challenges we have, we don't have 
halfway house facilities where inmates can do their last six 
months of BOP custody on the reservations. They are doing these 
halfway house stints hundreds of miles from their home.
    That is not something I can impact. But what I can impact, 
and I have worked hard within the Department, I actually chair 
the Federal Interagency Re-Entry Council's Working Group on Re-
Entry in Indian Country. We have to figure out how to make, re-
entry is a big part of the attorney generals' agenda right now. 
What about that Indian Country piece?
    And we need to do more, I am working, in North Dakota, 
working closely with the court, with the probation office, to 
see how we can work together to provide some sort of support 
for those folk coming back.
    Senator Heitkamp. And I would add to your challenge re-
entry of Native American kids who come in and out of juvenile 
justice facilities and then have absolutely no support when 
they return home.
    Mr. Purdon. Absolutely.
    Senator Heitkamp. Just a quick story, when I started as 
attorney general, I wrote an opinion. It was based on a Montana 
court case which said States' attorneys don't have jurisdiction 
in certain situations. We went, along with the State court 
officials, went to the Department of Justice, not Justice, but 
we went to the courts and said, look, we need to expand our 
part-time magistrate to be a full-time magistrate. Our vision 
was that that magistrate would actually be a circuit rider and 
would take court onto the reservations so that we didn't have 
transportation issues, you have a clearer vision of how this 
works, people can come down and watch, it is not hundreds of 
miles away.
    Mr. Purdon. Right.
    Senator Heitkamp. You know what? That never happened. And 
so often, what we have is we have no court system that we are 
working with right on site. So what can the Attorney General do 
to expand Federal court presence on reservations along with 
collaboration with tribal courts?
    Mr. Purdon. What can the attorney general do? He can't do 
as much as the AO of the U.S. court system, right. But in North 
Dakota, we have worked creatively and we have a sweep, and this 
has occurred, we had an operation, Prairie Thunder, at Standing 
Rock, where we had a sweep of some folk accused of drug crimes. 
The magistrate came down to Standing Rock and stayed the night. 
The Federal magistrate from Bismarck came down, held court 
behind a table in the gym at Standing Rock. We need to be, we 
as U.S. Attorneys, need to be working with the courts to try 
and do more of that sort of thing, of bringing the Federal 
court, making it relevant. To somebody in Fort Yates, well, 
Fort Yates isn't that far, but Belcourt, what goes on in 
Bismarck, 200 miles away, it just creates such great challenges 
all the way around.
    Senator Heitkamp. And I really encourage you to work within 
the court system, and I think we should create an expectation 
in the Congress that, look, we understand you like your Federal 
courthouses and that you have a lot of security. But you also 
have an obligation here, especially related to major crimes, 
when you bring it, and people can see that there are 
consequences, that has an effect, too.
    Mr. Purdon. Absolutely.
    Senator Heitkamp. So we will continue to work on the issue 
of access to justice by locating courts where people live.
    The Chairwoman. Thank you. Vice Chairman Barrasso?
    Senator Barrasso. Thank you very much, Madam Chairwoman.
    Secretary Washburn, Ivan Posey, who wasn't able to be here 
today, council member for a long time, Eastern Shoshone Tribe 
in Wyoming, long-time advocate for Native youth, I just wanted 
to visit a little bit about that. He submitted written 
testimony for this hearing, recommending that stronger 
preventive services be provided to reduce the unacceptably high 
number of Native youth who are entering the justice system. I 
just wondered if there are things that you thought of what the 
Department of the Interior could do to assist in preventing 
Native youth from entering the justice system.
    Mr. Washburn. I think that is an important question. There 
are a lot of services that we need to be providing. Crime 
doesn't exist in a vacuum. Someone let the child down if they 
are in that situation, somewhere along the line. And it may 
have been a lot of people who let that child down. So there 
certainly are a lot of things we can do.
    This new approach that we are looking forward to 
implementing, a pilot project with some specific tribes to try 
to provide more of those wraparound services to prevent 
recidivism and prevent offending, and giving the tribes the 
tools they need to deal with substance abuse and other issues 
like that, will be an effort to do those things. You are 
absolutely right, that we need to prevent crimes before they 
happen.
    I spent a few years as a Federal prosecutor. It was very 
apparent to me as I prosecuted juveniles and adult defendants 
that the problem that led to this crime happened usually many 
years before I ran across them. And so it made me think that we 
can't prosecute our way out of criminal problems on 
reservations. We need to be thinking much more broadly than 
that. So I certainly agree with what you are suggesting.
    Senator Barrasso. Mr. Purdon, when I look at the Commission 
report, it seems that the Native American youth are 
significantly over-represented in the juvenile justice system. 
These youths seem to receive harsher sentences. You are nodding 
your head, you are well aware of that of the finding.
    The Commission recommended Federal pre-trial diversion 
programs that allow sentencing in the tribal court. Can you 
talk a little bit about what other efforts there might be that 
we could undertake or you could through the Department of 
Justice?
    Mr. Purdon. Two programs, two pilots, two things to think 
about. My colleague in South Dakota, United States Attorney 
Brendan Johnson, has been a real leader on this issue in South 
Dakota. His office has been able to strike some MOUs with some 
of the tribes with developed court systems whereby a Native 
American juvenile offender who might get sucked into Federal 
court, they are able to work with the tribal court and put that 
person, put that young person on tribal probation. And if they 
successfully complete the probation under the tribal court 
umbrella, they are not prosecuted in Federal court.
    Obviously, there has to be a balance. I see some juvenile 
offenders who come across my desk who have committed horrific 
crimes, committed homicide, they have committed sexual assault. 
So there has to be a balance there as well. But for someone who 
is not involved in that sort of a conduct, the South Dakota 
Johnson model is a great model. I have asked my prosecutors to 
take a look at that, should we be implementing something 
similar perhaps with Standing Rock that has a very well 
developed court system, where we can trust the probation 
officers are going to do a good job of monitoring that American 
Indian youth.
    See, that is one thing. In my office I am tremendously 
proud of the work of one of my AUSAs, a man named Gary Delorme, 
who is an enrolled member of one of our reservations himself. 
He is in charge of the Standing Rock Reservation. Over the last 
two years, he and the tribal prosecutor have met on a monthly 
basis at the high school with high school and middle school 
students to talk about staying away from drugs, wearing your 
seat belt. He has brought in Native American law enforcement 
officers to talk about their career path. And Gary reports to 
me that when juvenile cases come to his desk now and he goes to 
a court appearance with one of those kids who sat in those 
meetings with him, that young man is embarrassed that he is now 
in front of Gary in a juvenile court proceeding. Gary has 
become part of his life. It goes back to what I saying to 
Senator Cantwell about becoming a member of that community.
    That is a program that has worked for us. It may work in 
other jurisdictions. But the resources of the U.S. Attorneys 
office on the reservation, not just prosecuting cases, but 
becoming a part of that community and spending the resources 
that we have, expanding them to the reservation, that has to 
have a positive impact. So there are two examples. I think your 
point is well taken. When we look at the number of Native 
American youth, look at the number of juveniles in our Federal 
system, they are almost all Native American. That is because of 
the jurisdictional challenge.
    The BOP, they have a job. And this is a very difficult 
situation. We need to create and find ways to help these folk 
without, where appropriate, pulling them into that Federal 
system. So I agree with you.
    Senator Barrasso. Thank you, Madam Chairwoman.
    The Chairwoman. Senator Begich?
    Senator Begich. Thank you very much. Thanks to both of you 
for being here. I have a few questions here. Let me first 
follow up if I can, Mr. Washburn, always good to see you. Thank 
you very much for being here.
    You made a comment, I want to follow through on a couple 
things here. You made the comment, the statement, equal 
partners. So let me ask you, and I know there was a question 
from my colleague, Senator Murkowski, regarding BIA tribal 
justice funds and the complication of funding levels. So let me 
say, from first to base point, and that is, are there any 
restrictions, not money, regulatory, legislatively or 
otherwise, to restrict State of Alaska tribes from accessing 
these grant monies?
    Mr. Washburn. Senator Begich, that is a legal question. I 
am not positive that I know the answer to it. I don't believe 
that there are restrictions, at least for self-governance and 
638 type monies. I don't know if there are restrictions as to 
grant monies. But we can look into that and get back to you. It 
is more of a policy decision at the Department of Justice.
    Senator Begich. I understand. I wanted to make sure there 
is nothing illegal. Mr. Purdon, were you about to say something 
on that?
    Mr. Purdon. The Coordinated Tribal Assistance Grants that 
we send out, my understanding is that Alaska villages receive 
those monies. I checked on that before we started.
    Senator Begich. I understand that piece, but the other 
piece is the tribal justice funds from BIA. Don't worry, I have 
a question for you.
    [Laughter.]
    Senator Begich. So if you could find out, first, if there 
is a restriction.
    Now to the second part of the question, let's assume for a 
moment there are no restrictions. The question then is, how big 
of a pie do you have to have in order for Alaskan tribes to 
access that money if the issue is money versus legal or 
legislative? You may not be able to answer that question right 
now, so I want to understand that.
    Mr. Washburn. Let me just tell you, I can't answer the 
question specifically, but let me put it in context, because we 
do have, as Senator Murkowski said, 229 Alaska villages, that 
is a lot. We also have about 100 tribes in California that are 
also Public Law 280 tribes that don't have this kind of 
funding. So if you do it for Alaska, maybe you need to do it 
for California too.
    So those are issues, we had a tribe come in a couple of 
days ago.
    Senator Begich. Well, that is at least three appropriators, 
so keep going.
    [Laughter.]
    Mr. Washburn. That is exactly the political battle, I 
suppose. And so there are a lot of tribes that want this and 
they could do good things with this money if we could find the 
money.
    Senator Begich. What I would like you to do if you could, 
if there is not a report done or some document that says, here 
is the current capacity, here is what is needed by the current 
folks that are using the money and here is what the potential 
might be, I know it would be broad ranges. But if we don't know 
the numbers, we don't know what we are working with. Is that 
something you could work on or get to us?
    Mr. Washburn. We can work on that, yes, sir.
    Senator Begich. Okay. Let me go back to the CTAS monies, 
the Coordinated Tribal Assistance Solicitation dollars. Again, 
Alaska tribes can apply for them. But here is the question that 
I have. Can that money be used for executing the implementation 
of inter-governmental agreements between the State and the 
tribes? Why I ask this, let me give you the precursor. I have a 
piece of legislation pending on the Safe Villages and Families 
Act, which talks about coordination. I wish the Act was much 
stronger and will look for your recommendations, to be frank 
with you, on how we can strengthen the current piece of 
legislation we have on the table. But putting that aside, it 
talks about this coordination. Can they apply for grants 
through this, CTAS, and use to develop these coordinations and 
efforts with the State?
    Mr. Purdon. I wonder what you mean by executing 
implementation or entering into these. Certainly they can, the 
monies that come to them, there is certainly no limitation that 
you can't then enter into an MOU.
    Senator Begich. No, the way we draft this legislation, 
again, I want it stronger, but it is what it is. And it 
basically talks about the tribe and the State negotiating an 
agreement.
    Mr. Purdon. Right.
    Senator Begich. That takes resources before you get to the 
agreement. So the question is, can those resources be used to 
help the tribe have these technical assistance and everything 
to help negotiate against a pretty big organization, the State 
of Alaska, which honestly has not been very favorable to my 
legislation. So do you see where I am going?
    Mr. Purdon. Yes, I do. I will get back to you. I will say 
that the idea of increasing or encouraging coordination through 
MOU between State and county governments and the tribes, 
absolutely.
    Senator Begich. That is one of your goals.
    Mr. Purdon. That is one of the goals. We struggle with it 
in North Dakota. I try and bring local law enforcement and the 
tribes together, listening conferences and getting together. At 
the end of the day, though, as the Federal Government, I can't 
make them do anything.
    Senator Begich. So you understand the question, if you 
could get that back to us?
    Mr. Purdon. I will get back to you on that.
    Senator Begich. So this is a quick yes or no. I think your 
testimony may have had this in it, both of you. As you know, my 
legislation, Safe Families and Villages Act, has a repeal to 
Section 910 of VAWA. Do you support that repeal or not?
    Mr. Washburn. I think I can speak for both of us. We both 
support that repeal. I think I heard from Senator Murkowski 
that she supports repeal of that section as well. That would be 
low-hanging fruit for a new Chairman of the Senate Committee on 
Indian Affairs, if we got the Republican Member from Alaska and 
the Democrat Senator from Alaska.
    Senator Begich. That is legislation we are both on. So we 
will find that right person and have that discussion. But you 
both are in favor of repealing that?
    Mr. Purdon. The Department absolutely supports that.
    Senator Begich. Okay. I will finish there, Madam Chair, 
thank you.
    The Chairwoman. Senator Tester, you seem to be up.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. In more ways than one. Thank you both for 
being here. I appreciate the opportunity to visit with you, 
Kevin, always. And Tim, it is good to see you again. You may 
not be getting out tonight.
    I want to follow up on the MOU conversation with you. Is 
there more Congress can do on this issue?
    Mr. Purdon. That is a good question, and I don't know the 
answer off the top of my head. But I think that it is hard, it 
is hard, I have found this to be a difficult part of my job 
over the last three and a half years. I have sat in the county 
courthouse in Rolette County in North Dakota with the BIA 
police chief and the sheriff. And they all say, yes, we should 
do this, we need a go-by. Here is a go-by. I will give you a 
go-by. But there we are.
    And I think there is a history of some of these places that 
we just have to keep chipping away and getting people in the 
same room and communicating. I don't know what Congress can do 
to encourage that.
    Senator Tester. When you are out in the field, if you think 
of some stuff, I think there are some real benefits to being 
able to have folk work together and communicate well.
    Senator Heitkamp talked about recidivism. You talked about 
the fact that the chap you knew had a sponsor, went to AA and 
had a job, went back to the reservation and there was none of 
the above. What is possible here, Kevin, and Tim, as far as 
that goes; is there an infrastructure out there to be able to 
do some modifications, or are we starting from ground zero? 
Because you are absolutely right, if you lose all those tools, 
you get back in the same climate that got you in trouble to 
begin with.
    Mr. Purdon. Here is what I found after 18 months of 
studying this, is that state of the art is the Boston re-entry 
model, David Kennedy's model of combining an offender coming 
out, some law enforcement or person of authority meets with 
them and says, careful or you are going to get revoked, and 
then here are these services that are available, you need your 
GED, you need job training.
    What I have found is that I have had colleagues that have 
begun very successful reentry programs in southern Alabama and 
larger urban areas, and there is a support network, maybe 
churches. On the reservation, that piece has been very 
difficult to figure out a way to bring that panoply of services 
to the table. So that is a challenge. But that goes back to the 
idea of crime prevention, holistic approach, the same thing we 
have been talking about.
    Senator Tester. Let's talk about prevention. You talked 
about education a minute ago with one of the questions. What 
other preventive services are out there that could really work?
    Mr. Purdon. Well, my answer is this. What I have done--I 
don't have a catalog of preventive services I can just impact 
on a reservation. What I have done is get my AUSAs on the 
reservation with their ears open, so if they hear about a 
viable crime prevention program we can figure out a way to 
support it. Gary's program of talking to the schools is one of 
these.
    But we just have to be creative. It becomes getting our 
folks out of the office in Bismarck and Fargo and onto the 
reservation on a more frequent basis, to become part of the 
community. That is what we can do, keep our ears open. And when 
we see something that looks like it is going to work that the 
tribe is interested in, come and figure out a way to support 
it.
    Senator Tester. This is for both, if you want to answer it. 
The Department has implemented some VAWA pilot projects rather 
quickly. I commend you on that. What is the expansion plan for 
these pilot projects?
    Mr. Purdon. I have been part of the team that has been 
working on reviewing the applications and launching these pilot 
projects. So there are the three tribes that were approved, I 
think it was last week, to begin, Tulalip, Umatilla and Pascua 
Yaqui. There are other tribes whose applications are pending in 
our review, and they are free to continue to apply. I don't 
know if I have answered your question, but it is an ongoing 
process.
    Senator Tester. I was just wondering, is there a plan for 
expanding the pilots.
    Mr. Purdon. Yes. Tribes continue to apply, continue to be 
reviewed. If there are tribes whose application come in today 
and they are ready to go, the Department will continue to 
approve.
    Mr. Washburn. Yes, and Senator Tester, every tribe will 
have the opportunity to do this, come March of 2015. So they 
don't need to go through a pilot period first.
    Senator Tester. Thanks. Declination rates, very, very 
quickly. Can you give me an update on the rate of declination 
in Indian Country? Where are we?
    Mr. Purdon. Sir, the Indian Country Investigation and 
Prosecution Report that came to Congress last spring has the 
most recent numbers in terms of prosecutions being up over 50 
percent and the corresponding declination rates.
    Senator Tester. Up 50 percent over what?
    Mr. Purdon. So from 2009, the number of Indian Country 
cases prosecuted by U.S. Attorneys across the Country in 2009 
was around 1,110. In 2013, it was well over 1,600. So the raw 
number of criminal cases filed on the reservations is up over 
54 percent. In North Dakota, we have seen similar increases. I 
think the number of defendants we have charged since 2009 is up 
48 percent, the number of cases is up over 80 percent. With 
that, we have seen a corresponding decrease in our declination 
rate.
    Senator Tester. How many cases are being declined?
    Mr. Purdon. We cut our declination in North Dakota, our 
rate in half.
    Senator Tester. So how many cases are being declined?
    Mr. Purdon. I don't have the number off the top of my head. 
But the number of cases we are doing is way up and our 
declination rate is down.
    Senator Tester. I appreciate that, I do, Tim. I don't mean 
to be a terrible human being. But an issue around declination 
in Indian Country, until it matches up to the declination rate 
outside of Indian Country, we should not be happy. You can tell 
me I am wrong.
    Mr. Purdon. Well, you have heard this, there are lots of 
reasons to decline a case. But let me think of one thing that 
happened in North Dakota that changed the way I thought about 
this a little bit. Because when I came in, this was three and a 
half years ago, this was an issue that concerned me. We had 
this Operation Prairie Thunder down at Standing Rock where we 
scooped up 21 guys, and many of them had prior drug offenses, 
so they got charged in Federal court. There were three or four 
of these guys, though, that were 19 years old. It was their 
first offense. Because we had tribal SAUSAs at Standing Rock 
and because we were working closely with them on this whole 
operation, we made the decision to charge those four or five 
guys in tribal court.
    Now, I am proud of those referrals. That was the right 
thing to do. Historically, those would have been treated as a 
declination.
    Senator Tester. Oh, really? Okay. That is good information.
    Mr. Purdon. Yes, historically.
    Senator Tester. Thank you both.
    The Chairwoman. Thank you, Senator Tester. I am trying to 
be liberal here with the clock, just because, well, first of 
all, I am so impressed with my colleagues for being here. I 
think a lot of people throw barbs at Congress at what we get 
done, but here it is, about to be a snowstorm, people are 
running to catch planes and here are six of my colleagues who 
are here paying attention to a very----
    Senator Murkowski. Look at where we're from.
    [Laughter.]
    Senator Tester. We aren't going anywhere.
    The Chairwoman. Nonetheless, you could still be doing 
something else, and I think from the tone and detail of your 
questions, people can see that you all care passionately about 
this issue and you are trying to make this a focal point of 
what can we do better. Again, I thank our witnesses on this 
panel, because obviously this report highlights what we can do 
better and you are making some suggestions. So then we are 
going to hold you both to the budget issues and these 
recommendations. But we definitely have to move forward. I 
thank you for the creativity and success you have shown so far.
    But these Members are here because it affects every one of 
them and their States. And it affects the people of their 
State. I do appreciate them being here.
    Let's move on to the second panel. We are going to hear 
from Mr. Troy Eid, who is the Chairman of the Indian Law and 
Order Commission, from Denver, Colorado; Ms. Affie Ellis, who 
is the Commissioner of Indian Law and Order Commission, from 
Cheyenne, Wyoming; and Ms. Tamra Truett Jerue, who is the 
Director of Social Services and Tribal Administrator from Anvik 
Tribal Counsel, Anvik, Alaska.
    Welcome to all of you. Thank you for being here, thank you 
for your patience this afternoon. We will start with you, Ms. 
Ellis.

 STATEMENT OF AFFIE ELLIS, COMMISSIONER, INDIAN LAW AND ORDER 
                           COMMISSION

    Ms. Ellis. Thank you, Madam Chair. I want to thank everyone 
for the opportunity for us to be here to present our work.
    My name is Affie Ellis. I am a member of the Navajo Nation 
and I am also a citizen of Wyoming. I was appointed to the 
Commission by Senator Minority Leader Mitch McConnell. It has 
been an honor for me to serve on this commission.
    I want to thank my fellow Commissioners. I know you are 
watching online and we certainly wish you were here with us 
today.
    I also want to pay special thanks to all the people that we 
met in the field over the course of the last three years. They 
have shared with us some very personal and sometimes very 
difficult information. It wasn't always easy to hear what they 
had to say, but we appreciate your candor and your honesty.
    As has been noted very much today, there have been a lot of 
efforts to make Native America safer and more just. I want to 
thank all the Members of this Committee for being here and for 
supporting those efforts. In particular, I want to thank 
Senator Barrasso for supporting my nomination to this 
Commission and for supporting our hearing today. Wyoming is 
very lucky to have you.
    When we first met to work on our report, we didn't know 
what the final product was going to look like. But we had a few 
guiding principles. First, we pledged to listen to the people 
that we met. And it was these people who defined the scope of 
what we talked about in our report.
    We were also interested in writing a report that said 
something, that actually said something, and wouldn't just be a 
document that sat on a shelf accumulating dust. By the end of 
our field hearings, when we started putting pen to paper, we 
decided we wanted to speak with a unified voice. We didn't want 
a report that had a majority recommendation with dissenting 
views. And the reason for this is very simple: these issues are 
too important. In short, people are dying, people are 
suffering, and our report was written in a unified voice with 
those people in mind.
    Indian Country Today, as many of you have seen, wrote a 
story about our report, and they described it as radical, 
revolutionary, exceptional or just plain common sense. And I am 
not a fancy gal, I am a nice Navajo person from Wyoming, so I 
like the term common sense to best describe our recommendations 
and our work. In short, we called for more local, tribal 
control over law enforcement issues.
    When we were out in the field, we saw a lot of bright spots 
where tribes were working with State and Federal partners. They 
had invested in hiring more tribal police, they invested in 
detention facilities to meet the needs of their citizens. They 
were investing in tribal courts that were familiar with their 
clients, as our fellow Commissioner, Judge Pouley, likes to 
call defendants before her court. And they paid close attention 
to rehabilitation needs.
    When the Commission saw areas where things were working, we 
kept hearing one thing over and over: look what we are doing. 
Rarely did we hear, actually I would say never did we hear, 
look what other people, the Federal Government, is doing for 
us.
    Our Commission thus views tribal governments as playing the 
lead role in strengthening tribal justice. We recognize that 
tribes have a lot of challenges and that they have got to 
continue to develop internal capacities to become more self-
determinant across all tribal justice functions. This isn't 
easy, we know this, but it can and must be done. Lack of law 
enforcement remains a problem in many places in Indian Country, 
particularly Alaska. We know boots-on-the-ground law 
enforcement is essential for reducing crime. Our report talks 
about HPPG, and how increased law enforcement in certain areas 
has made a difference. In other words, it is saving lives.
    We all know, though, that increasing law enforcement and 
other services requires funding. Accordingly, we recommend 
structural changes within the Federal Government to reduce 
confusion and redundancy by transferring law enforcement duties 
within the Department of Interior to the Department of Justice. 
Our report highlights one instance where DOJ funds were 
available to build a detention facility in Indian Country, but 
the building sat empty because no funds were appropriated 
through the DOI budget.
    We also recommend base level funding after repeatedly 
hearing about how grant-based funding is not a good match for 
Indian Country's needs. Some tribes, we have heard, struggle to 
write the winning application because they don't have the human 
capital to complete those applications. And more 
problematically, we hear about grants coming and going, because 
a program will get money and then run out of funds.
    But I think what is most troubling is that grants reflect 
the Federal Government's idea about what works in Indian 
Country, rather than trusting tribes to make those decisions on 
their own. Our report is very lengthy, and I do want to 
apologize that my good friend, Ivan Posey, could not be here 
today. He provided some very meaningful testimony about some 
efforts at Wind River to address juvenile justice. We urge the 
Committee to continue to look at our report with a fine-toothed 
comb to see what works in your particular areas. And we want to 
thank all the tribes that welcomed us to their reservations, 
and particularly Alaska. We visited some extremely remote 
villages and were welcomed by very gracious people.
    So while we have huge challenges that remain, I just want 
to thank everyone for your continued interest and commitment to 
reducing crime in Native America and Native Alaska villages. 
Thank you so much and I am just going to say, I appreciate the 
opportunity to present before my esteemed colleague, the 
Chairman of the Commission, Troy Eid. Thank you.
    The Chairwoman. Thank you.
    Sir, I thank you very much. I appreciate your being here 
and thank you for your leadership on the Commission.

   STATEMENT OF TROY A. EID, CHAIRMAN, INDIAN LAW AND ORDER 
                           COMMISSION

    Mr. Eid. Thank you, Madam Chair. I sure do appreciate it, 
and Mr. Vice Chair, good to see you. I appreciate all your 
support, Committee members.
    My name is Troy Eid, from Denver, Colorado. I wanted to try 
to find a way to thank you and express my concern. All I can 
say is, but for this Committee, there would be no report. When 
you are appointed to a Committee like this, or a commission, 
there is no instruction manual. It was the staff of this 
Committee that stepped forward and said, here is how you get 
this done. I am very grateful to all of you and I want to 
express that publicly.
    I also thank our other commission members. We are all 
volunteers. We spent three years of our lives doing this. We 
have come up with the most comprehensive report probably ever 
on this subject matter. It is 324 pages, 40 substantive 
recommendations. We spent a month in Alaska, combined time. We 
literally went from the east coast across the Country. We have 
been in Public Law 280 jurisdictions, where about half the 
Native people live and we have been in traditional Indian 
Country, as well. We never opened an office, we just worked in 
the fields.
    And because we have the ground truth, we really had, I 
think, the means to do what you asked us to do. We have done 
it, which is to tell you in an unvarnished way what needs to be 
done, as best we could. We have done it unanimously.
    I would just say a couple of things. One, Kevin Washburn I 
have known for many years. He is a fantastic public official, 
as is Tim Purdon and Brendan Johnson, as well, who was 
mentioned. The folks who serve are not the issue. The issue is 
a failed Federal system. The Indian Country system and the 
Public Law 280 system both are not producing the way they 
should. They will never be reformed, never, in a way that meets 
the needs of local communities as the way they should. Because 
in America, local justice is what we all trust. Having people 
self-govern, having people be able to vote in their own 
officials, to be transparent, accountable and accessible and to 
deal with the budget reality on the ground in a multi-year 
fashion, by the way, not subject to some annual appropriation 
from a distant place.
    The dominant theme in this report is the failure of that 
system. And if you need any other example, post-traumatic 
stress disorder, the President talked about it, Congress has 
talked about it. The PTSD rate for returning vets from 
Afghanistan is the same as Native American juveniles in this 
Country. It is identical. One in four suffers from PTSD because 
they are so routinely exposed to violence in a way that is 
indefensible at this time and in this moment.
    And we really can do something about these issues. We have 
a roadmap with recommendations that shows a transition point to 
local control, self-government. And the idea that we can 
protect every American's civil rights, which is key to this 
balance that we try to strike, we should be able to go through 
tribal courts and get to Federal courts to vindicate these 
rights.
    But with that system, let these Indian nations choose. Let 
them choose whether they are Public Law 280 or whether they are 
a non-Public Law 280 State, to develop a system as we have 
outlined, with great specificity, included in our written 
testimony. You can adopt, let them choose for themselves and 
let them decide which laws work the best for their own 
communities and partner with the Federal Government or the 
States or both as they see fit and make it sovereign to 
sovereign. And the results will flow.
    Wherever we saw reduced Federal control, reduced command 
and control, whether it is indirectly, through Public Law 280, 
or directly through U.S. Attorneys and the whole Federal 
justice system, well-intentioned through it may be, whenever 
tribes are free to do what they need to do, to set priorities 
and enforce their laws, with protection for civil rights, crime 
goes down. It is as simple as that. I don't know how else to 
say it except to say there is hope. But we have to change our 
thinking. And we should not be defending a system that is not 
working so well for people.
    Finally, I would just say, it really is a privilege to be 
here. It is a privilege basically to work on these issues with 
you. We have sunset now, and you are gracious to keep us here 
for this hearing. If we can help you in the years to come, we 
will be glad to do it. I am very confident that within the next 
generation we will do the things in this roadmap. I have no 
doubt whatsoever. Because I know just from my own experience 
that these issues go beyond party lines. I want to thank 
Senator Reid for appointing me to this Commission. I was a 
George W. Bush U.S. Attorney, appointed by a President I dearly 
love and enjoyed serving and was honored to serve. There is no 
reason why we can't work together, as you have done so ably as 
Chair of this Committee, Madam Chair, to be able to do these 
things.
    And finally, as a point of personal privilege, thank you 
for your letter about Washington's mascots. Much appreciated, 
on a personal level, by many of us who live in the field. Thank 
you.
    [The joint prepared statement of Mr. Eid and Ms. Ellis 
follows:]

  Joint Prepared Statement of Troy A. Eid, Chairman, and Affie Ellis, 
             Commissioner, Indian Law and Order Commission
    Thank you for the opportunity to join you today. It is a privilege 
to discuss with you the Indian Law and Order Commission's November 2013 
report, ``A Roadmap for Making Native America Safer'' (the 
``Roadmap''). The Roadmap can be downloaded at 
www.indianlawandordercommission.com or http://www.aisc.ucla.edu/iloc/.
    Congress and the President created the Indian Law and Order 
Commission (the ``Commission'') by enacting the Tribal Law and Order 
Act of 2010 (TLOA). The Commission was charged by TLOA, and later the 
Violence Against Women Act Reauthorization Amendments of 2013 (VAWA 
Amendments), with assessing public safety challenges affecting all 566 
federally recognized Indian tribes and nations. The Roadmap contains 
this assessment--perhaps the most comprehensive federal inquiry ever 
undertaken--and proposes reforms at the federal, state and tribal level 
to make Native American and Alaska Native communities safer and more 
just for all U.S. citizens.
    While the Roadmap speaks for itself, a few points may stand out. 
First, the Roadmap's findings and recommendations are unanimous. They 
reflect the consensus views of all nine Commissioners, appointed by the 
President and Majority and Minority leadership of the Congress, 
Democrats and Republicans alike. The Commission's shared assessment and 
vision for safer Native American and Alaska Native nations attest to 
the bi-partisan--indeed, non-partisan--character of these very 
important issues.
    Second, this report was written from the ground up. This Commission 
has operated entirely in the field for much of the past three years. 
We've done it without any permanent office, traveling from the East 
Coast to the outer reaches of Alaska, taking testimony and talking with 
thousands of people, Native and non-Native alike. The Roadmap's 
assessment, conclusions and proposals reflect the ground-truth of what 
we experienced across our great country. The practical realities of 
what works and what doesn't informed the Commission's endeavors at 
every stage. All nine commissioners vowed not to avoid the hard issues 
because we wanted to keep faith with the many inspirational people we 
met and learned from during this remarkable journey.
    As this Committee well knows, American Indian and Alaska Native 
communities and lands are frequently less safe--and sometimes 
dramatically more dangerous--than most other places in our country. In 
short, the Commission found that throughout history, and continuing 
today, federal policies have displaced and diminished tribal 
institutions that are best positioned to provide trusted, accountable, 
accessible and cost-effective justice in Tribal communities.
    In most U.S. communities, the Federal Government plays an important 
but limited role in criminal justice. State and local leaders have the 
authority and responsibility to address virtually all other public 
safety concerns. Precisely the opposite is true in much of Indian 
country. The Federal Government, and in some cases state governments, 
exercise substantial criminal jurisdiction on reservations. As a 
result, Native people--including juveniles--frequently are caught up in 
a wholly nonlocal justice system. This system is complex, expensive, 
and simply cannot provide the criminal justice services that Native 
communities expect and deserve.
    It is time for a change. The idea that local communities should and 
indeed must have jurisdiction to make and enforce their own criminal 
laws, if they so choose, is a bedrock principle of the American justice 
system. The federal courts can and will be accessible to criminal 
defendants, as a crucial part of the Roadmap's recommendations, if and 
when needed so that the federal civil rights of all U.S. citizens are 
fully protected.
    Public safety in Indian country can improve dramatically once 
Native nations and Tribes have greater freedom to build and maintain 
their own criminal justice systems. The Commission sees breathtaking 
possibilities for safer, stronger Native communities achieved through 
home-grown, tribally based systems that respect the civil rights of 
all. The Commission rejects outmoded command-andcontrol policies, 
favoring increased local control, accountability, and transparency.
    The Roadmap contains six chapters addressing: (1) Jurisdiction; (2) 
Reforming Justice for Alaska Natives; (3) Strengthening Tribal Justice; 
(4) Intergovernmental Cooperation; (5) Detention and Alternatives; and 
(6) Juvenile Justice. Throughout these chapters, the Roadmap offers 40 
substantive proposals for making Native American and Alaska Native 
nations safer and more just, while protecting the civil rights of all 
U.S. citizens, Native and non-Native alike.
    This Committee has approved important legislation in recent years 
to make Native America safer and more just. These reforms, including 
TLOA and the VAWA Amendments, are making a difference and we greatly 
appreciate your leadership. But much more can be done. We respectfully 
urge this Committee, the Congress and the President to put this Roadmap 
into action by implementing its recommendations as expeditiously as 
possible. These improvements will enable U.S. citizens to travel 
together from today's stubborn reality--where far too many Native 
American and Alaska Native communities suffer from violent crime--to a 
not-too-distant future where the public safety gap between Native 
America and the rest of the United States can finally be closed.
    When the Commission first released the Roadmap last November, we 
were privileged to provide briefings to Members and professional staff 
from the Senate and the House, as well as The White House, U.S. 
Departments of Justice and the Interior, and other Executive Branch 
agencies. From these discussions emerged a request that the Commission 
provide even greater specificity as to how each of its 40 
recommendations might be implemented--through legislation, Presidential 
executive order or Executive Branch policy directive, and so forth. The 
remainder of this testimony steps through the Roadmap to provide this 
supplemental information.
    Again, and on behalf of the entire Commission, thank you for the 
privilege of serving. We appreciate your continued leadership and 
commitment to making Native America safer and more just.
Chapter 1: Jurisdiction
Congress
    1. Enact a statute amending 18 and 25 U.S.C. so that any tribe 
subject to federal and/or state criminal jurisdiction under 18 U.S.C.  
 1152, 1153, or 1162 will have the option to exclude itself from such 
jurisdiction, either fully or partially, and from the sentencing limits 
of the Indian Civil Rights Act, so long as it affords federal 
constitutional rights to defendants, and subject to limited review of 
such constitutional guarantees by an Article III court, the United 
States Court of Indian Appeals. Under this statute, tribes could also 
opt to return to federal and/or state jurisdiction. To the extent 
tribes exercise this option to exclude themselves from federal and/or 
state criminal jurisdiction, this law would also acknowledge tribal 
criminal jurisdiction over all individuals who commit offenses within 
Indian country.
    2. Enact a statute establishing a new specialized Article III 
court, the United States Court of Indian Appeals, whose appellate 
jurisdiction would extend to cases arising in the courts of all tribes 
that have exercised the option to be excluded from federal and/or state 
criminal jurisdiction and from the sentencing limits of the Indian 
Civil Rights Act. The Court of Indian Appeals would be authorized to 
hear all appeals relating to alleged violations of the 4th, 5th, 6th, 
and 8th Amendments of the United States Constitution by such tribal 
courts, to interpret federal law related to criminal cases arising in 
federal [and possibly tribal] courts in Indian country, to hear and 
resolve federal questions involving the jurisdiction of tribal courts, 
and to address federal habeas corpus petitions from defendants in 
tribal courts, whether or not from tribes that have exercised the 
jurisdictional opt-out. In all cases of appeals from tribal courts to 
the Court of Indian Appeals, the defendant would be required to first 
exhaust tribal remedies. The law would make the Court of Indian Appeals 
on the same level as the United States Circuit Courts of Appeal, and 
would authorize appeals from decisions of the Court of Indian Appeals 
to the United States Supreme Court, according to the current 
discretionary review process. Judges of the Court of Indian Appeals 
would be nominated by the President in consultation with tribes, and 
each panel of the Court would consist of at least three judges. The 
Court would have a permanent location within Indian country, and 
additional temporary locations throughout Indian country.
    3. Amend the Speedy Trial Act, 18 U.S.C.  1361, to apply to tribal 
courts to the extent they have opted out of federal and/or state 
jurisdiction.
    4. Amend 25 U.S.C.  1323 to authorize tribes subject to state 
criminal jurisdiction under 18 U.S.C.  1162 or any other federal 
statute to retrocede that state jurisdiction back to the Federal 
Government.
Chapter 2: Alaska
Congress
    1. Amend the Alaska Native Claims Settlement Act, 43 U.S.C.  1601 
et seq., to: (1) provide that former reservation lands acquired in fee 
by Alaska Native villages and other lands transferred in fee to Native 
villages pursuant to ANCSA are Indian country within the meaning of 18 
U.S.C.  1151, or, in the alternative, amend  1151 to provide for a 
special Indian country designation for such lands; (2) clarify that 
Native allotments and Native-owned town sites in Alaska are Indian 
country within the meaning of the existing provisions of 18 U.S.C.  
1151; (3) clarify that the Secretary of Interior is authorized to take 
land into trust for Alaska tribes, including lands transferred to 
tribes from Regional Corporations or otherwise acquired by tribes in 
fee; 3) allow transfer of lands from Regional Corporations to tribal 
governments; (4) direct more resources to tribal governments for the 
provision of government services in those communities.
    2. Repeal Section 910 of Title IX of the Violence Against Women 
Reauthorization Act of 2013 (VAWA Amendment), which excluded all Alaska 
tribes, except for the Metlakatla Indian Community, from other 
provisions of the Act which address tribal criminal jurisdiction and 
tribal protection orders.
    3. Enact a statute affirming the inherent criminal jurisdiction of 
Alaska Native tribal governments over all Indians within the external 
boundaries of their villages.
Executive Branch
    1. The Department of the Interior should amend 25 C.F.R. part 151 
to eliminate the exception for Alaska and to provide a process and 
decisional criteria for the exercise of the Secretary's discretion to 
acquire land in trust for Alaska Natives.
    2. The Secretary of the Interior should seek a legal opinion from 
the Solicitors' Office regarding the Indian country status of Alaska 
Native allotments and Alaska Native Townsites.
Chapter 3: Strengthening Tribal Justice
Congress
    1. In accordance with existing studies and any additional studies 
as needed, appropriate funds sufficient to bring Indian country law 
enforcement coverage into parity with the United States, including 
tribes under state as well as federal criminal jurisdiction, tribes 
that do or do not compact for federal services under P.L. 93-638, and 
tribes that opt for exclusion from federal and/or state jurisdiction.
    2. Enact a statute requiring state and local law enforcement 
agencies to report annually on criminal offenses occurring within the 
Indian country that is subject to their jurisdiction through federal 
authorization.
    3. Enact a statute requiring the United States Department of 
Justice to provide reservation-level victimization data from its annual 
crime victimization surveys. 4. Amend the Tribal Law and Order Act of 
2010 to allow tribes to sue the Departments of Justice and Interior if 
they fail to produce and submit annual Indian country crime data and 
reports as required by the Act.
    5. Amend 18 U.S.C.  3006A to direct each federal district court 
whose district encompasses Indian country, in developing its plan for 
indigent defense, to include a program for the appointment of qualified 
tribal public defenders as special assistant public defenders in Indian 
country cases, similar to the program established under 18 U.S.C.  
2810(d) for the appointment of Special Assistant United States 
Attorneys.
    6. Enact a statute encouraging United States District Courts that 
hear Indian country cases to hold more judicial proceedings and provide 
more judicial services (e.g., probation) in and near Indian country.
    7. Commission the Congressional Research Service to study the value 
and desirability of expanding the current pool of United States 
Magistrates in order to improve criminal justice access and services to 
Indian country.
    8. Enact a statute similar to the Transfer Act for Indian Health 
Services, P.L. 83-568, Aug. 5, 1954, transferring all of the functions, 
responsibilities, duties, and authorities of the Department of the 
Interior relating to the provision of law enforcement and justice 
services to Indian country, as set forth in 25 U.S.C.  2802, to the 
Department of Justice, and consolidating them with existing services 
and programs for Indian country within DOJ. The law would establish a 
new Indian country entity within the Department of Justice, headed by 
an Assistant Attorney General, to house the new consolidated services 
and programs, including an appropriate number of FBI agents and their 
support resources. The statute should specify that Indian preference, 
as set forth in 25 U.S.C.  472, applies to positions in the Department 
of Justice carrying out the transferred functions, and that the new 
entity exercises the trust responsibility of the United States toward 
Indian nations. It should also specify that the provisions of the 
Indian Self-Determination and Education Assistance Act, 25 U.S.C.  450 
et seq., addressing contracts with tribes for federal services and 
Self-Governance agreements apply to the Department of Justice in 
carrying out its law enforcement and justice services for Indian 
country. The statute would direct cost savings from the consolidation 
to the new Indian country entity, and maintain at least that level of 
funding over time.
    9. Enact a statute ending all grant-based, competitive Indian 
country criminal justice funding in DOJ, and pool the funds to 
establish a permanent, recurring base funding system for tribal law 
enforcement and justice services, administered by the new Indian 
country entity within DOJ. This base funding would be available on an 
equal basis to all tribes choosing to provide law enforcement and/or 
justice services, including tribes under state as well as federal 
criminal jurisdiction, tribes that do or do not compact for federal 
services under P.L. 93-638, and tribes that opt for exclusion from 
federal and/or state jurisdiction. The statute would also authorize DOJ 
to set aside 5 percent of the consolidated grant monies each year as a 
tribal criminal justice system capacity-building fund. Under the 
statute, the formula for distributing base funding and a method for 
awarding capacity-building dollars would be developed by DOJ in 
consultation with tribes.
    10. Enact the funding requests for Indian country public safety in 
the National Congress of American Indians Indian Country Budget Request 
for FY 2014, and consolidate these funds within the new Indian country 
entity in DOJ. These requests include full funding of all provisions in 
the Tribal Law and Order Act of 2010, funding of the Indian Tribal 
Justice Act of 1993 ($50 million/year for seven years for tribal court 
base funding) and a 7 percent Indian country set-aside from all Office 
of Justice Programs.
    11. Fund the Legal Services Corporation (LSC) at a level that will 
allow LSC to provide the public defense services in tribal court that 
it was authorized to provide under the Tribal Law and Order Act of 
2010. Such appropriated funds shall be provided directly to tribal 
governments so tribes may have flexibility to provide criminal defense 
services separately, if they so choose, from existing civil legal aid 
agencies and organizations.
Executive Branch
    1. In accordance with existing studies and any additional studies 
as needed, recommend appropriation of funds sufficient to bring Indian 
country law enforcement coverage into parity with the United States, 
including tribes under state as well as federal criminal jurisdiction, 
tribes that do or do not compact for federal services under P.L. 93-
638, and tribes that opt for exclusion from federal and/or state 
jurisdiction.
    2. The FBI should revise its NIBRS uniform incident reporting 
system to establish ``Indian country'' (or not) as a separate category 
within ``Offense,'' apart from ``Location'' characteristics.
    3. The United States Department of Justice, Bureau of Justice 
Statistics, should extract and report annual victimization data at the 
reservation level in its National Crime Victimization Survey.
    4. The Attorney General should issue a directive affirming that 
federally deputized tribal prosecutors appointed as Special Assistant 
United States Attorneys pursuant to 25 U.S.C.  2810(d) are entitled to 
all Law Enforcement Sensitive information needed to perform their jobs 
for their tribes. The United States Attorneys Manual and all training 
programs and manuals provided to the FBI and other federal law 
enforcement agencies should be updated to incorporate this directive.
    5. The Attorney General should issue a directive creating a 
presumption that federal officials shall serve as witnesses in tribal 
court proceedings when subpoenaed by tribal courts to do so, and 
streamline the process for granting permission to such officials to 
testify when subpoenaed or otherwise directed by tribal court judges.
Chapter 4: Intergovernmental Cooperation
Congress
    1. Appropriate funds to support training costs and other 
requirements for tribes seeking to have their agencies and officers 
certified by state POST agencies for purposes of exercising state peace 
officer powers.
    2. Enact a statute creating a federally subsidized insurance pool 
or similarly affordable arrangement for tort liability for tribes 
seeking to enter into a deputization agreement with state and/or local 
law enforcement agencies.
    3. Amend the Federal Tort Claims Act, 28 U.S.C.  1346(b), to 
include unequivocal coverage for tribal police, coverage that is not 
contingent on the exercise of discretion by U.S. Attorneys or other 
federal officials.
    4. Enact a statute requiring state authorities to notify the 
relevant tribal government when they have reason to believe that they 
have arrested a tribal citizen who resides in Indian country, and when 
they have reason to believe that a tribal citizen who resides in Indian 
country is a criminal defendant in a state proceeding. When a tribal 
citizen is a defendant in a state proceeding, the relevant tribe should 
be notified at all steps of the process, be invited to have 
representatives present at any hearing, and be invited to collaborate 
in choices involving corrections placement or community supervision. 
These obligations would be contingent on the arrestee/defendant 
providing his/her consent and the tribe informing state authorities of 
the appropriate point of contact with the tribe.
    5. Enact a statute providing Byrne grants or COPS grants for data-
sharing ventures to local and state governments, conditioned on the 
state or local governments entering into agreements to provide criminal 
offenders' history records to any tribe with an operating law 
enforcement agency that requests data sharing. State and local 
governments that did not make such agreements would be ineligible for 
Byrne and COPS grants.
Executive Branch
    1. The Department of Justice should establish a model tribal-state 
law enforcement agreement program, to help states formulate uniform 
laws to enable MOUs and agreements with tribes, both in states that 
have jurisdiction under Public Law 280 or similar laws and in states 
that do not have such federallyauthorized criminal jurisdiction.
    2. The Departments of Justice and Interior should require their law 
enforcement officers to notify the relevant tribal governing when they 
arrest a tribal citizen who resides in Indian country and when a 
citizen who resides in Indian country is a criminal defendant in a 
federal court proceeding, including the outcome of that proceeding. The 
United States Probation Department should establish a policy that when 
a tribal citizen has been convicted in a federal proceeding for an 
offense committed within Indian country, it will notify the relevant 
tribal government and invite that tribe to collaborate in choices 
involving corrections placement or community supervision.
    3. The Departments of Justice and Interior should establish 
policies of providing written notice to the relevant tribal governing 
body regarding any tribal citizens who are reentering tribal lands from 
jail or prison or who are being released from jail or prison on tribal 
lands, whether or not that citizen formerly resided on the reservation. 
These obligations would be contingent on the tribe informing federal 
authorities of the appropriate point of contact with the tribal 
governing body.
Chapter 5: Detention and Alternatives
Congress
    1. All appropriations for reentry, second-chance, and alternatives 
to incarceration (funding, technical assistance, training, etc.) should 
include a commensurate amount set aside for Indian country. These funds 
should be managed by the new Indian country entity within DOJ and 
administered using a permanent, recurring base funding system. This 
base funding would be available on an equal basis to all tribes 
exercising criminal jurisdiction, including tribes under state as well 
as federal criminal jurisdiction, tribes that do or do not compact for 
federal services under P.L. 93-638, and tribes that opt for exclusion 
from federal and/or state jurisdiction. Under the statute, the formula 
for distributing base funding and a method for awarding capacity-
building dollars would be developed by DOJ in consultation with tribes.
    2. All appropriations for construction, operation, and maintenance 
of jails, prisons, and other corrections programs should include a 
commensurate amount set aside for Indian country. Those funds, together 
with funds for existing programs for offenders convicted under tribal 
law, should be consolidated and administered by the Indian country 
entity within the Department of Justice.
    3. Appropriate funds that supply incentives for development of 
high-quality regional Indian country detention facilities, capable of 
housing offenders in need of higher security and providing 
rehabilitative programming beyond ``warehousing.''
    4. Convert the Bureau of Prisons pilot program created by the 
Tribal Law and Order Act into a permanent programmatic option that 
tribes can use to house prisoners.
Executive Branch
    In budget requests, prioritize incentives for development of high-
quality regional Indian country detention facilities, capable of 
housing offenders in need of higher security and providing 
rehabilitative programming beyond ``warehousing.''
Chapter 6: Juvenile Justice
Congress
    1. Amend 18 and 25 U.S.C. so that any tribe subject to federal and/
or state juvenile jurisdiction under 18 U.S.C.   1152, 1153, or 1162 
will have the option to exclude itself from such jurisdiction and from 
the sentencing limits of the Indian Civil Rights Act, so long as it 
affords federal constitutional rights to juveniles, and subject to 
limited review of such constitutional guarantees by an Article III 
court, the United States Court of Indian Appeals.
    2. Amend the Federal Delinquency Act, 18 U.S.C.  5032, to add ``or 
tribe'' after the word ``state'' in subsections (1) and (2). The effect 
will be that federal prosecution may not proceed against a juvenile for 
any offense under 18 U.S.C.   1152 and 1153 unless the prosecutor 
certifies, after investigation, that at least one of the following 
three conditions exists: (1) the Tribe does not have jurisdiction or 
refuses to assume jurisdiction over the juvenile; (2) the Tribe does 
not have programs or services available and adequate for the needs of 
juveniles; or 3) the offense is a violent felony or a specified drug 
offense in which there is a ``substantial federal interest.''
    3. Amend the Federal Delinquency Act, 18 U.S.C.  5032, to provide: 
``Notwithstanding   1152 and 1153, no person subject to the criminal 
jurisdiction of an Indian tribal government for any offense the Federal 
jurisdiction for which is predicated solely on Indian country (as 
defined in  1151), and which has occurred within the boundaries of 
such Indian country, shall be proceeded against as an adult unless the 
governing body of the Tribe has elected that federal law providing for 
transfer of juvenile cases for criminal prosecution shall have effect 
over land and persons subject to its criminal jurisdiction.''
    4. Amend the definition of ``child custody proceeding'' in the 
Indian Child Welfare Act, 25 U.S.C.  1903(1), to delete the following 
language: ``Such term or terms shall not include a placement based upon 
an act which, if committed by an adult, would be deemed a crime . . 
..'' The effect will be that in some juvenile proceedings involving 
such acts (mainly those where the child resides or is domiciled in 
Indian country) tribal jurisdiction will be exclusive of the state, and 
in other such proceedings there will be a presumption in favor of 
transferring the matter from state to tribal court.
    5. Enact a statute similar to the transfer act for Indian health 
services, P.L. 83- 568, Aug. 5, 1954, transferring all of the 
functions, responsibilities, duties, and authorities of the Department 
of the Interior relating to the provision of juvenile justice services 
to Indian country, as set forth in 25 U.S.C.  2802 and otherwise, to 
the Department of Justice.
    6. Enact a statute modeled on the Indian Child Welfare Act, 25 
U.S.C.  1901 et seq., providing that in every Federal and State 
juvenile proceeding where the court has reason to believe the juvenile 
is an ``Indian child'' as defined in 25 U.S.C.  1903(4), the state or 
federal court must seek verification of the juvenile's status from 
either the BIA or the juvenile's Tribe in accordance with BIA 
Guidelines for State Courts: Indian Child Custody Proceedings, November 
26, 1979, 44 Fed. Reg. 67584,  B.1; must notify the juvenile's Tribe 
in the manner provided in 25 U.S.C.  1912; and must afford the 
juvenile's Tribe the right to intervene as specified in 25 U.S.C.  
1911(c). This statute should also include a requirement that state and 
federal courts exercising jurisdiction over ``Indian children'' for 
acts occurring in Indian country maintain records at every stage of the 
proceedings, including detention, noting the status of the juvenile as 
an ``Indian child'' and the juvenile's tribal affiliation(s).
    7. Enact a statute, modeled on Section 712 of the U.S. Attorneys' 
Manual, directing federal courts to establish a pre-trial diversion 
program for Indian country juvenile cases that utilizes the tribal 
probation department of any participating tribe as the agency 
responsible for establishing a pre-trial diversion agreement and 
certifying compliance with that agreement.
    8. Enact a statute providing that when an Indian juvenile is 
detained for treatment pursuant to state or federal court order for 
acts carried out in Indian country, the detaining agency must ensure 
that the treatment is informed by the most recent and best trauma 
research as applied to Indian country, as certified by the Department 
of Justice, and, consistent with provision of such treatment, is 
provided in a facility that is community-based or located within a 
reasonable distance from the juvenile's home.
Executive Branch
    1. The Department of Justice, in consultation with tribal 
representatives, shall establish standards for treatment of Indian 
juveniles that is informed by the most recent trauma research as 
applied to Indian country.
    2. Regulations governing federal law enforcement, probation, and 
prosecution agencies should be modified to ensure that at the time 
Indian juveniles are brought before federal juvenile justice agencies, 
those juveniles are provided with trauma-informed screening and care, 
carried out in consultation with tribal child welfare and behavioral 
health agencies.
    3. The cost to the Federal Government of federal and state Indian 
country juvenile jurisdiction should be determined, and whenever a 
Tribe opts out of federal and/or state jurisdiction, the federal funds 
that would otherwise go to federal and/or state agencies should instead 
be directed to the Tribe.
    4. Consolidate Department of Justice funding for Indian country 
juvenile justice as block funding rather than as grants, affording 
tribes the option to direct funds to treatment rather than detention.
    5. In budget requests, funding levels for tribal juvenile justice 
should be established at a level of parity with state juvenile justice 
for every tribe exercising juvenile jurisdiction.
Conclusion
    Again, the members of the Commission are committed to continuing to 
work with this Committee and the Congress to support the effective 
implementation of the recommendations contained in our Roadmap. The 
Roadmap reflects the unanimous bi-partisan consensus for how justice 
can be strengthened to benefit the lives of all people living and 
working in Native American and Alaska Native nations across our 
country. We look forward to supporting your continued efforts to make 
Native American and Alaska Native communities safer and more just for 
all U.S. citizens.

    The Chairwoman. Thank you. Thank you for that.
    Ms. Truett Jerue, nice to see you here in Washington. Thank 
you very much, and you are welcome to provide your testimony.

  STATEMENT OF TAMI TRUETT JERUE, DIRECTOR OF SOCIAL SERVICES/
           TRIBAL ADMINISTRATOR, ANVIK TRIBAL COUNCIL

    Ms. Jerue. I am not used to speaking like this, but I 
appreciate being here. I am very honored to have been asked, 
Madam Chair, and to the honored Senators, Senator Begich and 
Senator Murkowski, both for which I have a great deal of 
respect.
    I know that testimony was submitted for me, with some of my 
thoughts in it. But I think that I really wanted to speak to 
you, and I think that I was asked to speak to you as a Native 
woman. I am not a lawyer, I am an advocate. I live in a very 
small, remote, isolated community, in Anvik, Alaska, on the 
Yukon River. I flew out on Monday morning at 10:30 on 40 mile 
winds on a 207 and I was thinking, where is the snow?
    [Laughter.]
    Ms. Truett Jerue. So I really do want to clarify a few 
points. The main things that I really want to talk to you about 
is, I live in Anvik, my family lives in Anvik. I worry day to 
day about the regular things that we worry about as parents and 
going to work and the things that we need, oil in the stove. 
But I also worry about whether my children, my nieces, nephews, 
or relatives are going to be hurt today. And in Anvik, I 
consider us a fairly safe community.
    But I would like to, when I have to have a conversation 
with my 14 year old son, when he gets out his snow machine and 
goes to school in the morning, hey, I want you to come home 
early today, the booze came in on the plane, I don't want you 
to be out there, because I am afraid that the drunks are going 
to be, I am afraid for you, not because of you, but the other 
people that are drinking. Or when I have to tell my 18 year old 
niece who I know is going to be drinking, even though I know 
she shouldn't be, that she needs to be careful about who hands 
her that drink, and where she is, and to be aware, those are 
the things that I have to worry about every day.
    Or if I get a phone call, who is calling me. Is it because 
I am going to have a callout to go respond to domestic 
violence? Am I going to get a callout so I have to go bring 
some kids for the night? I do that all the time, not as part of 
my job, but as part of my community.
    I am married to a chief of the community. He has been Chief 
for about 23 years. That doesn't give me any special 
privileges, in fact, I think it not a good thing sometimes.
    [Laughter.]
    Ms. Truett Jerue. But what I really want to make very clear 
here is this is reality. The report is an amazing report. I am 
so honored to sit here with you all. We got to be heard. And I 
don't know when that really has happened.
    After having read this report, I want to really be clear, 
though, Alaska, we have all these dangerous realities in our 
lives. And there are a lot of reasons why, and you stated it 
very clearly in your report about that. But we are not victims. 
We are not victims. We may have been victimized, and we may 
have been victimized by the system and we may be victimized 
even in our own communities.
    But we are not sitting here as victims. We are strong, 
Native people. We have a right to live where we live. We have a 
right to command that we have safety. We have a right to 
command the same types of daily protections that you all have. 
I can't get on there and say 9-1-1, and get somebody to come 
and help me. It may take me two or three days to get resources. 
But there are people I can call. There are safe places that 
will help me. There are places that I can go.
    So I want to be really clear in this. And I know there are 
several other things that I should say, but I really want to 
speak for the women, the children, the men who have been 
victimized, who have worked so hard to not live as victims. But 
also, I really, really encourage the work that we have done 
over the last 30 years in domestic violence, we have done some 
amazing things. We do need to amend 910, we do need to do that 
in VAWA 2013. That has to happen. It is just one of those basic 
protections that we can utilize as communities to help our own 
people. That is the message that I really want to leave with 
you. I have so many stories, it would take months.
    Thank you, and I am really honored to be in this room with 
you all, and your allowing me to talk with you about this.
    [The prepared statement of Ms. Truett Jerue follows:]

 Prepared Statement of Tami Truett Jerue, Director of Social Services/
               Tribal Administrator, Anvik Tribal Council
    Chairman Tester, Vice-Chairman Barrasso and distinguished Members 
of the Committee, thank you for holding today's hearing on the Indian 
Law and Order report. I would also like to personally thank the 
Commission for its hard work and commitment to Alaska. My name is Tami 
Truett Jerue and I am from the village of Anvik, an Athabascan village 
located on the Yukon River in Western Interior Alaska. Anvik is a small 
Deg Hit'an Athabascan community with a very rich history. We are 
located on the west bank of the Yukon River in Interior Alaska, just 
inside the old mouth of the Anvik River along the hillside. We are a 
very isolated, federally recognized Tribe with 275 enrolled citizens, 
for whom we have responsibility to protect and serve. We are not on the 
State's road system and we travel in and out of the village by air, 
boat, or snow machine.
    I am honored to also speak for the 37 federally recognized tribes 
that make up the Tanana Chiefs Conference, an inter-tribal health and 
social services consortium that serves an area of Interior Alaska that 
is almost the size of Texas, and I bring the message of over 200 tribes 
across Alaska.
    As a life-long village resident and tribal social services 
director, with 30 years of professional experience in tribal child 
protection, domestic violence, sexual assault, substance abuse and 
therapeutic counseling, I assure you that the Law and Order Commission 
Report's chapter dedicated to Alaska is no exaggeration, and that the 
statistics, data, quotes and findings in the 23 page chapter only 
briefly touch on the social ills that Alaska Natives confront and seek 
to change. Everything you have read in this Report about levels of 
violence and assault in our Alaska Native communities is absolutely 
true. We have the most severe rates of domestic violence and sexual 
assault compared to any other communities in the United States. Yet as 
tribal governments, the crippling legal structure crafted by Congress 
and the State of Alaska have severely compromised our ability to do 
anything more to heal and protect our people.
    We agree with the Commission's statement that ``ANCSA got Indian 
policy in Alaska wrong.'' To be sure, ANCSA was well-intentioned, and 
we applaud the efforts of the many ANSCA corporations' boards and staff 
that carry-out well the missions of their various companies. ANCSA 
corporations have certainly had positive impacts on the Alaskan 
economy. At the same time, because of ANCSA and the flawed 
interpretations of ANCSA by the Supreme Court and by the State of 
Alaska, Alaska Tribes today are denied the most basic of governmental 
tools necessary to exercise true local self-government and to reverse 
the alarming and tragic rates of violence, substance abuse and suicide. 
It is Congress's duty to fix this flawed structure, and to reverse and 
discontinue the practice of exempting Alaska Tribes from national 
policies and programs that are available to Tribes everywhere else; our 
tribal children and communities, our women, will all continue to suffer 
if nothing is done.
    I ask that you seriously consider carrying out all the Commission's 
recommendations. For today, let me just discuss a few of them.
    First, Alaska tribes need a land base to provide public safety, 
quality education, natural resource management, and economic 
opportunity for our tribal citizens. This land base can be created by 
two means: first, by clarifying land status; and second, by giving 
Alaska Tribes the option to have their lands placed into trust. 
Finally, to protect Alaska Native women it is essential that Section 
910 of VAWA be repealed, as TCC President Isaac requested in his recent 
testimony on S. 919 (a bill to amend Title IV of the Indian Self-
Determination Act, and for other purposes).
The Indian Country Status of Townsites and Allotments Must Be Clarified
    An immediate step this Committee can take to provide a land base to 
Tribes in Alaska is to confirm the Indian Country status of the 
approximately 6 million acres of individual Native allotments and 
communal village townsites located throughout the state. These lands, 
presently held in restricted fee status and not related to ANCSA, 
already satisfy the ``federal supremacy'' requirement for Indian 
Country described by the Supreme Court in the Venetie decision. 
Furthermore, their prevalence in scores of Villages across Alaska 
already provides many tribal governments with an existing land base 
upon which to exercise authority.
    The Interior Department has been reluctant to affirm the legal 
status of these lands through regulation, adjudication or the issuance 
of a firm legal opinion. By providing minor alterations to the 
definition of Indian Country, this Committee is uniquely situated to 
bring clarity to this long-unsettled issue. I respectfully urge this 
Committee to enact legislation confirming that Alaska Tribes (1) have 
an existing land base in the form of townsite and allotment lands, and 
that (2) that land base enjoys the same legal Indian Country status as 
exists for Indian lands in the lower 48 States.
Alaska Tribes Should Be Able to Have Their Land Taken Into Federal 
        Trust Status
    Tribes in Alaska, like all other federally-recognized Tribes, 
exercise and enjoy a government-to-government relationship with the 
United States. But when it comes to trust lands, we have again been 
treated differently from other Tribes in the United States. Until 
recently, Alaska's Tribes were prohibited from petitioning the 
Secretary of the Interior to place our lands into trust status under 
Section 5 of the Indian Reorganization Act. Although the trust lands 
issue is presently in litigation, and despite a victory for our Tribes, 
I want to emphasize to this Committee that the present federal policy 
remains one of prohibition: Alaska's tribes are still denied the right 
to have our lands placed into trust status.
    What our communities seek is choice; we seek the right to decide 
for ourselves whether trust lands status is in the best interests of 
our Tribes and our tribal communities. Some Tribes may conclude that it 
is in their best interest to have local lands be in ANCSA corporate 
ownership. Others may conclude it is in their best interest to have 
their tribal lands be in fee simple ownership. But some will decide it 
is in their best interests to have their lands protected through 
federal trust status, and that choice should be ours, alone, to make. 
This is the heart of tribal self-determination and self-governance. 
Tribes in Alaska deserve the opportunity to maximize their self-
determination just as much as any other Tribes in America.
    Placing land-into-trust would enhance the ability of our Tribes to 
provide public safety and related services to village residents, 
concurrent with the State of Alaska. Many of our Tribes are ready and 
able to take on such public services with some adjustments to local 
tribal ordinances, and codes, and with existing funding available 
through federal agencies like the Bureau of Indian Affairs and the 
Department of Justice. In the Interior region of Alaska, most of our 
Tribes have active tribal courts, but current funding constraints and 
narrow jurisdiction limit our opportunities to heal our people, address 
drug and alcohol issues, and protect our women and children from 
domestic violence.
Section 910 of VAWA Must Be Repealed
    Section 910 of the recently reauthorized Violence Against Woman Act 
(VAWA) prevents 228 Alaska Tribes and their tribal courts from being 
able to adequately address domestic and sexual violence in our 
communities. This Alaska Exception is one of many such unwarranted 
exceptions that have treated Tribes in Alaska differently from Tribes 
in the Lower 48. Given our extraordinarily high numbers of domestic 
violence and sexual assault, Section 910 only further endangers our 
communities. This measure is ethically repugnant and must be repealed 
at once. Last month, Tanana Chiefs Conference President Jerry Isaac 
encouraged this Committee to repeal Section 910 at once as it considers 
Senate Bill 919. I join President Isaac in respectfully encouraging you 
to add a provision to S. 919 repealing section 910 of VAWA and to mark-
up and pass S. 919 as swiftly as possible. As President Isaac so 
eloquently said: ``Our women cannot wait. Our Children cannot wait.'' 
The time to act is now.
The Alaska Safe Families and Villages Act (S. 1474) Should Be Amended 
        and Swiftly Enacted Into Law
    Finally, I respectfully request that this Committee consider and 
amend S. 1474, the proposed Alaska Safe Families and Villages Act. S. 
1474's current provisions should be merged with S. 1192, which was 
considered in the 112th Congress. It is absolutely essential that, 
without regard to technical land titles and the technical ``Indian 
country'' status of lands or tribal communities, our Tribes must have 
the tools necessary to combat drug and alcohol abuse, domestic 
violence, and violence against women. Fighting these scourges in our 
communities and healing our people cannot be made to stand on 
technicalities. We need to get to work, and now. And we need Congress's 
help to do that. The State is not the problem, because the State is 
nowhere to be found in most of our Villages. It is our sacred 
responsibility to protect our people, and Congress has an equally 
sacred obligation to our Tribes, to our women and to our children, to 
enact a bill that will, once and for all, secure to our Tribes the 
tools necessary to do so. Please amend and pass the Alaska Safe 
Families and Villages Act. Today, the Tribes of Alaska come to you, not 
as victims of a failed governmental policy, but as powerful and 
responsible advocates for our people. We are stepping up to do what we 
must do. But without equally firm action from Congress, our people will 
suffer, we will continue with decades more of litigation battles, and 
loopholes will continue to be found which deny our Tribes the funding 
necessary to improve law and order in our communities. Our tribal 
courts will continue their work as best they can--they have courage and 
commitment I cannot begin to convey here today--but they will remain 
handicapped and our communities will continue to suffer. Real, lasting, 
positive change will escape us.
    As you consider the Law and Order Commission's Report and 
Recommendations, please consider my story, my extended family, and my 
small but precious community. To me, the statistics revealed in this 
Report tell the story of real people who I love and care for. They 
deserve better. Please equip our Tribes with the practical and 
effective tools we need to heal ourselves. If Congress does its part, 
we will do ours.
    Thank you for the opportunity to testify today on the Commission's 
historical report. And many thanks to the incredibly brave women from 
our Tribes who shared their personal and horrific stories with the 
Commission. They are silent no more, and your hearing today honors them 
more than anyone.

    The Chairwoman. Thank you. Thank you very much for 
traveling all this way to be here, and for your passion on 
these issues.
    Ms. Ellis, I am going to start with you. You talked about 
the structural issue between DOI and Justice and appropriating 
funds. To me it is something we should look at pursuing. We had 
a similar issue between Hanford, injured worker issues in the 
Department of Energy and Department of License. It doesn't mean 
that both people are involved, it is just, which is the better 
agency for actually administering the program.
    And in this case, I think what I heard you say, what I 
would like you to expound on, you are saying that DOI isn't 
responding fast enough or doesn't have the law enforcement 
experience to determine how to allocate those resources. So you 
are saying it is better done through the Department of Justice?
    Ms. Ellis. Madam Chair, thank you so much for the question. 
I also want to thank you for letting us have Theresa Pouley 
serve on our commission. She did a wonderful job representing 
the State of Washington. And particularly the Tulalip Tribe. 
When we talk about bright spots in Indian Country, Tulalip is 
certainly one of those areas.
    I would not say though that the law enforcement personnel 
or services that are housed in the BIA are doing necessarily a 
bad job. I think it is more of a situation where you have the 
left hand doing something and the right hand is not--I think I 
am getting this mixed up too, as I am trying to illustrate with 
my hands. They are not talking to each other. And when you look 
at the difference between the Department of Interior, which 
houses other agencies, such as the National Park Service and 
the Bureau of Land Management, versus the Department of Justice 
with its specific focus on reducing crime in the Country, the 
Commission believes that the Department of Justice is better 
suited to handle more of the law enforcement needs, rather than 
the Department of Interior.
    The Chairwoman. That would be like a grant program, to have 
the expertise to make the decisions where the funding should 
go? What specifically?
    Ms. Ellis. We are looking at efficiencies and trying to 
find ways for government to be more efficient. We keep pointing 
to the move of Indian Health Service no longer being housed 
within the Department of Interior but being transferred over to 
the Department of Health and Human Services. So that is the 
kind of situation that we are talking about, is transferring 
the current duties that are being performed within the BIA, 
Department of Interior house being transferred over to 
Department of Justice.
    The Chairwoman. I think Mr. Purdon and Mr. Eid both, to me 
it is building on that expertise, and if you want it to work 
together, then having Indian Country and the Department of 
Justice work together more is like building infrastructure 
capacity. I don't know whether you have any more comments about 
that, Mr. Eid?
    Mr. Eid. Yes, I do. When I was U.S. Attorney in Colorado, 
it was typical. I served for a little bit more than three 
years. More than half the time I was there, the detention 
center the BIA had in our district was not funded, even though 
DOJ had built it with capital grants. So it sat empty. We sent 
our detainees up to South Dakota, typically. And sometimes 
farther away.
    The prosecutor that BIA had to provide was not funded for 
14 months of that, and there was no public defender for four 
years. It wasn't funded. So we had a completely dysfunctional 
justice system for almost five years. I happened to serve 
during most of that time. It is typical that the right hand, 
which is Interior, does not know what the left hand, which is 
Justice, is doing. They need to be consolidated in one place. 
We think DOJ is where the law enforcement functions should go, 
it should all go to DOJ, including all the law enforcement 
folks that serve in the Office of Justice Services. They need 
to go into the Department of Justice, they can be managed by an 
Assistant Attorney General and be accountable on one place to 
this Committee and to the rest of the Congress.
    The Chairwoman. Thank you. Vice Chairman Barrasso?
    Senator Barrasso. Thank you very much, Madam Chairwoman.
    Ms. Ellis, just thinking about what Ivan Posey, council 
member for the Eastern Shoshone Tribe, has been working on, you 
talked about stronger preventive services, suicide prevention, 
that all these services be provided for our Indian youth. Then 
these services will serve to reduce the unacceptably high 
numbers of Native youth entering the justice system.
    I am just wondering how you think preventive services are 
going to assist in reducing the number of Indian youth in the 
justice system.
    Mr. Ellis. Thank you so much, Senator Barrasso, Mr. Vice 
Chairman. Our report talks about some of the programs that are 
existing at Wind River. Some of them have been award-winning. 
But again, back to my point about grant-based funding, too 
often you get a great program up and running, it runs out of 
money, and then it ceases to exist until another grant 
opportunity arises. We heard that at Wind River and we heard 
that across the Country with people we talked to.
    One thing that our report emphasizes, though, is there are 
some solutions that just need to be community-driven, driven by 
tribes and organizations. I think Councilman Posey's testimony 
speaks to that. He talks about things that he is working on, 
and efforts that the Eastern Shoshone and Northern Arapaho 
Tribes are trying to tackle on a reservation basis.
    So to the extent that the Federal Government and State 
governments can support those efforts, we think it is important 
that ultimately, those need to be community-driven.
    Senator Barrasso. In your testimony, you talked about some 
of the things you heard as you traveled were that people 
locally said things that we did, rather than what the 
government did. One of the highlights the Commission points to 
in the report is a lack of Federal judges and Federal 
courthouses. You made the point about how there was money to 
build a courthouse but not money to staff them, just some 
amazing inconsistencies of a bureaucracy. I am wondering about 
the barriers for criminal justice in Indian Country, 
specifically relating to Federal judges, courthouses. Our U.S. 
Attorney for Wyoming, Kip Crofts, also shared that view in his 
written testimony submitted to the Commission.
    Ms. Ellis, can you talk about how you think this lack of 
Federal judges and courthouses affects Wind River Reservation?
    Ms. Ellis. Thank you again for that question, Vice 
Chairman. In Wyoming, as you know, and everybody in this room 
is very familiar with it, you come from large States with large 
land bases, and you are in the car for hours and hours driving, 
just to get from one town to another. That scenario becomes 
particularly difficult when you are talking about a place like 
Wind River where I think it is about a three and a half or four 
hour drive from the Wind River Reservation to Cheyenne, 
Wyoming, where the Article 3 judges are housed.
    U.S. Attorney Kip Crofts in Wyoming has suggested that we 
start moving more of these court proceedings closer to Indian 
Country. Our report discusses perhaps using some magistrate 
judges in various roles to help ease the burden on some of 
these court functions. We also talk about a situation where 
Federal court proceedings have actually been held, criminal 
court proceedings held in Indian Country. I am proud to say 
that the Navajo Nation has been one of those areas.
    So we think that it just makes sense. We didn't do any 
empirical data saying, it will save you this much money if you 
move a court proceeding closer to Indian Country, but we think 
it makes sense. And in the long run, it adds a little bit more 
to the institutional legitimacy, as people are able to go to 
these trials, hear what these people did, understand what 
happened in the courtroom. Right now, that is very foreign. 
People don't have the resources on reservations to travel to 
Cheyenne, for example, to see what is going on down there. So 
it is a bit of a mystery, and I think it would just help 
increase the transparency of what happens in these proceedings 
when we move them closer to Indian Country.
    Senator Barrasso. Mr. Chairman, anything you would like to 
add to that in terms of what you have seen across the spectrum?
    Mr. Eid. I appreciate it very much, Mr. Vice Chairman.
    My State of Colorado, we have two Indian nations, they are 
400 miles and 360 miles, respectively, from the nearest U.S. 
District courthouse. In the entire 20th century, there was 
exactly one U.S. District Court tribal in Indian Country, one. 
It was in 2005, in Shiprock, on the Navajo Nation, Chief Judge 
Vasquez presided in a murder case.
    Part of the issue is just having the access that is local. 
So why we took this next step with the structural reform is we 
want to have a world where tribes who are ready and willing to 
accept the consequences can opt out of Federal jurisdiction, 
except for laws of general application. For example, in my 
State, the Southern Ute Indian Tribe, it is such a great tribe 
and such a great justice system that the Federal Government 
already contracts to put the Federal detainees, in the U.S. 
Attorneys office cases, they go to the jail at Southern Ute. 
They don't go to LaPlata County or the surrounding counties. 
They go the tribal jail, because it is a better jail. And it is 
better.
    And so a tribe like that could assert that jurisdiction now 
if they provide the civil rights on the back end, let them opt 
out of the Federal justice system. They have their own laws, 
they can enforce them for just about anything that happens down 
there. If they are not ready, they don't have to do it. If they 
don't choose to do it, that is fine. But I think that will also 
help this judicial access issue, because I am pretty sure that 
Congress is not going to be able to find funds to build another 
whole round of Federal courthouses in distant places. We have 
to find a way that is easier for people to do.
    Finally, as Commissioner Ellis said, magistrates can really 
help, I know, on a lot of these dockets. They can be a very 
valuable way to support judges. And then judges getting out in 
the field as well is another way. There is no plan right now in 
the judicial conference to do this. But there should be one 
plan, and I think it is appropriate in their oversight that 
there be a plan. They can decide what the plan is, but they 
should be able to account to you for what that plan is.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairwoman.
    The Chairwoman. Thank you. Senator Heitkamp?
    Senator Heitkamp. Thank you again.
    A couple quick questions. Mr. Eid, I am encouraged by your 
talking about MOUs and cooperative agreements. But I have to 
tell you, I have tried to negotiate them. I think we can all 
agree that when everybody works together and when we provide a 
collective network, so that jurisdictional differences or 
jurisdictional boundaries do not prevent justice from being 
served, that is the better method.
    But there is one element here, and that is called trust. 
And it gets in the way every time you go, and try, trust me, I 
am a veteran of trying to negotiate these kinds of agreements. 
In your discussions on the Commission, can you tell me how or 
whether you considered this trust issue as you deliberated and 
came to this conclusion?
    Mr. Eid. Senator, I really appreciate that question. I must 
tell you that we have many robust debates. Can you force States 
to do these things? I was a State cabinet officer in Colorado 
for five years. I think the answer is no, you can't force the 
States to do it. But what you can do is make it easier for them 
in a practical way. You can have, for example, a risk pool for 
insurance that makes it possible so that everyone who 
participates in a task force or is involved in some sort of 
interagency agreement can be insured. That is one of the 
recommendations we have in this report.
    You can also amend laws like the Federal Tort Claims Act 
which this Committee could do, to make it clear that if a 
tribal or State officer is operating as a Federal agent under 
existing law to enforce Federal laws, such as in a domestic 
violence case, they are insured and the government will stand 
behind. With all due respect, it is not up to some U.S. 
Attorney to say that they don't get insured.
    Senator Heitkamp. Let's flip that around, because you are 
talking about State impediments. Obviously I was a State 
official trying to make that happen.
    Mr. Eid. Yes.
    Senator Heitkamp. My resistance really came from tribal 
authorities.
    Mr. Eid. With all due respect, I think that when you stick 
your neck out like you did, and you can put those steps forward 
in the Federal system and in the State systems, the tribes will 
begin to reciprocate. I think until we do that, it is much 
harder to gain the trust, frankly, because you have the ability 
to point to something and say look, we will insure you, but 
this is what we expect out of you in return.
    Senator Heitkamp. I don't want to belabor the point. But I 
think it is significant, given the importance you put to this 
issue, and that is that until people believe that tribal, State 
and Federal authorities will act in unison and without bias, it 
is going to be extraordinarily difficult to do that kind of 
agreement.
    Mr. Eid. I agree.
    Senator Heitkamp. Because right away, it is, I do not want 
the county sheriff having that jurisdiction on that State road. 
And I can give you examples where I tried to get DUI 
convictions from tribal courts so that we could handle the 
licensure, a bus driver at over .2 who the tribal court would 
not give me their conviction for driving under the influence so 
we could revoke a bus driver's license.
    So these are very complicated and historically very 
difficult issues. I think as we go forward in implementing 
these, we need to take the steps that we took in VAWA to build 
the trust, to build the relationship, to work collaboratively. 
This isn't something that can happen tomorrow, I guess is my 
point. I do want to talk a little bit about juveniles, because 
I think that if we looked at the system, as horrific as we 
might believe the system of justice is for adults, I think it 
is twice as bad for juveniles. I think the lack of intervention 
early, what drug courts, trying to install a drug court up at 
Spirit Lake and having jurisdictional issues with a very, very 
proactive State District Court judge, but still having 
resistance to doing an interventional court, like a drug court.
    So again, it goes back to cultural and historic distrust 
that drives the inability for us to move forward. And we are 
going to have to figure out how we can take those steps that 
build trust that are going to move us forward.
    I appreciate your report. I think it really highlights a 
lot of concerns, not anything I didn't know, having been 
Attorney General of a State like North Dakota. But the 
solutions, I find that I have tried a lot of those solutions 
and have met with resistance and been not able to do it on both 
sides. And always what gets in the way is trust.
    The Chairwoman. Thank you. Senator Murkowski?
    Senator Murkowski. Thank you, Madam Chair.
    And thank you to each of you for your testimony and just 
the level of work that went into it to provide this report from 
the Commission. That truly is dedication. It is extraordinarily 
important. The fact that you spent the time on the ground 
rather than sitting in some nice office, and assuming that you 
knew what you were hearing from folks being out there on the 
ground is critically important. So thank you for just your 
diligence and attention to what I think we all recognize is 
critically important as we look at these issues, as to how we 
provide for a level of protection, a level of justice for our 
First Peoples.
    Tamra, your testimony, I will tell you, I sit and I listen 
to a lot of people with nice titles come, but you spoke from 
the heart today. You spoke for your children and your 
grandchildren and all your family, all your Alaska Native 
families. So thank you for truly giving voice to those who 
unfortunately too often do not have that voice.
    The way you described our conversations with your grandson 
about not being around on the snow machine when the plane comes 
in loaded with booze, that is something that as Alaskans we 
might understand and get it. Folks here in the lower 48 have no 
concept of what it can mean to be in a small village that is 
isolated, with no road access, one way in and out, at least for 
most parts of the area, you might be able to take a boat down 
the river. But our reality is such that it is beyond the 
comprehension of most people.
    So your testimony today to try to describe how on a daily 
basis you deal with the realities of a family and a community 
that lacks basic protection, and you are not asking for a lot 
of fancy things. But when your closest State trooper is Bethel, 
isn't that correct?
    Ms. Truett Jerue. We have Aniak, too.
    Senator Murkowski. Okay, so describe for the Committee 
here, you have a State trooper that is how many miles away?
    Ms. Truett Jerue. Air miles, about 240 miles, air miles. It 
is about an hour and 20 minute flight, weather permitting.
    Senator Murkowski. Weather permitting. And oftentimes, 
weather is not permitting.
    Ms. Truett Jerue. Right.
    Senator Murkowski. Your courthouse, the State courthouse is 
there in Bethel.
    Ms. Truett Jerue. Yes.
    Senator Murkowski. Which is about 400 miles away, maybe?
    Ms. Truett Jerue. About, 450 miles.
    Senator Murkowski. To get to the closest courthouse.
    Ms. Truett Jerue. Weather permitting.
    Senator Murkowski. Weather permitting. The jurors that then 
come into that courthouse actually have to be flown from other 
communities.
    Ms. Truett Jerue. Right. We do get jury notices every once 
in a while. In the 30 years I have lived there, I have gotten a 
couple and I have never been flown to Bethel for a trial, 
except as a witness.
    Senator Murkowski. And would they expect you to fund that 
ticket yourself? What does it cost to fly to Bethel?
    Ms. Truett Jerue. The cost to fly to Bethel is $750 round 
trip.
    Senator Murkowski. Round trip. And that just gets you to 
Bethel?
    Ms. Truett Jerue. Yes, it does.
    Senator Murkowski. Madam Chairman, it is important to ask 
what I think Tamra would consider pretty basic questions, not 
really about the report. But this is the reality that Alaska 
Natives live in our rural and remote communities. So when we 
are talking about providing for a level of protection, it is a 
different situation. And I listened as the comments were made 
about being able to at least drive. And it is long distances, I 
appreciate that. But at least you have the ability to get into 
a vehicle and move.
    Mr. Eid, I want to ask you a couple of questions here in 
the remaining time that I have. There are some things coming 
out of this report that I absolutely strongly support. You have 
the parity in tribal court funding, which I think is 
imperative. Unfortunately, we sure didn't hear that enthusiasm 
for that coming from the BIA. But the empowerment of local 
communities, what we are doing there, and Madam Chairman, I 
would ask that my opening statement be submitted as part of the 
record. Because I pointed to some of the opportunities where 
our local communities are addressing their own issues.
    But I guess the biggest question that I have for you, Mr. 
Eid, is this. We see constantly the description of the failures 
coming from the reservations in the lower 48. The Washington 
Post had a big Sunday article talking about some of the 
failures here.
    And in recognizing that, I have to look at the report and 
say, why are the recommendations for Alaska really moving 
toward the recreation of Indian reservations, if they are not 
performing as we want them to be? I am not suggesting that the 
Alaska situation is acceptable. It is absolutely not. But do we 
want to take what many would acknowledge is a failed or failing 
system and then just say, that is the Alaska answer? Try to 
help me through why you believe that that is the approach? Or 
maybe it is a hybrid?
    Mr. Eid. Madam Chair, Senator Murkowski, I really 
appreciate being here with you and I admire your leadership 
very much. Let me just say that we don't have to have an Indian 
reservation system in Alaska to have self-governance. You could 
have some form of special jurisdiction. In fact, we talk about 
this in the report, a special Indian Country jurisdiction.
    Just so long as the communities have territorial integrity 
and they can govern themselves, or they can enforce their own 
laws and be governed by them. What I don't think works is the 
colonial model in Alaska. And when I say colonial, I am not 
trying to play to the crowd. My dad grew up in a colonial 
system in Egypt and came here with a hundred bucks when he was 
17, so I kind of know about colonialism. The system in Alaska 
is not serving the people there, because the State can never 
police it from afar.
    When we were up there last time in December, the leaders 
came to us and said, we just had a 12 year old girl raped, it 
took them four days to come out to our village. That is not 
acceptable in our Country. And I know it is not acceptable to 
you. It just seems to me that if we can get past what I think 
is a misnomer or canard about a reservation system, no one is 
proposing to replicate anything in Alaska other than to say, 
these are self-governing nations, they are federally-recognized 
as such under Federal law, enable them to be able to enforce 
their own laws and be governed by them. Don't fight with the 
people when you are a State government. There is no reason for 
it.
    I have great respect for the State of Alaska and for the 
people there and for the officials who have to make the hard 
calls. But they shouldn't be fighting with the tribal nations 
there. They should say, who is the tribal court, here is what 
we need to enforce a restraining order, now reinforce it. And 
if there is a problem with the requirements being met, help 
train them, help get them up to that standard. But don't try to 
hold it down. Try to build it up.
    And I think that is coming in Alaska. I really think that 
with your leadership and with your colleague, Senator Begich's 
leadership, I think this can happen. I am really optimistic 
about it.
    Senator Murkowski. Madam Chair, my time is well over. Mr. 
Eid, I would love the opportunity to pick your brain about some 
of the proposals contained within the report. I would ask, 
Madam Chair, that a copy of the Alaska Rural Justice and Law 
Enforcement Commission, the report that came out in January 
2012, be included as part of the record. I don't know whether 
that was incorporated as part of the Commission's report. But 
it is an important enough report that I would like to have it 
included. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files and can be found at http://akjusticecommission.org/pdf/reports/
ARJLEC--2012--Report.pdf
---------------------------------------------------------------------------
    The Chairwoman. Without objection.
    Senator Murkowski. I look forward to further discussions 
and thank you for coming all this way, Tamra. I so appreciate 
it.
    The Chairwoman. Thank you.
    Senator Tester?
    Senator Tester. [Presiding.] I want to echo Senator 
Murkowski and say thank you, all of you, for your testimony. I 
very much appreciate it today, especially yours. That was very 
good.
    The work of the Commission really focused around making 
jurisdiction divides clearer and ensuring the sovereignty of 
tribes. So could you share with us, and this can be either Ms. 
Ellis or Mr. Eid, could you share with us the benefits of 
having a single appellate court on par with the existing 13 
circuit courts?
    Mr. Eid. Let me just quickly say, Senator Tester, I 
appreciate very much the question. What we came up with was an 
idea for a specialized court. It is like the Federal circuit 
court here in D.C. that hears intellectual property cases. It 
would be a court where all the Indian Country cases go, so that 
there would be a consistent body of law and it would be, we 
think, faster and more expeditious.
    So what would happen, sir, is that let's just say someone 
raised a constitutional challenge in a tribal court proceeding. 
So you have a criminal defendant who has raised a Fourth 
Amendment claim, illegal search and seizure, say. So they go 
into tribal court and the prosecution would occur there, with a 
tribal prosecutor. Say the person is convicted. Then that 
defendant would appeal. The first step would be in tribal 
court, they would exhaust the remedies. That is, they would 
already go through whatever the appellate process the tribe 
has.
    But the twist that we recommend is the Federal Speedy Trial 
Act would apply to that. So there is no delay, which happens 
sometimes in tribal court. Believe me, I litigate there a lot, 
I know, it can happen. So then it gets into the Federal system 
and it would be a direct appeal, not up through a U.S. district 
court, but it would go right to an Article 3 U.S. court of 
appeals, just for this purpose. And then there would be 
discretionary review to the U.S. Supreme Court.
    So the whole idea is make sure that Federal constitutional 
right is vindicated for every single U.S. citizen. But have it 
in one place, make it an expedited process and try to ensure 
that Federal civil rights are enforced.
    Senator Tester. What would be the downside of it?
    Mr. Eid. The downside is, I have been told, of course I 
have been told a lot of things by people who are not in your 
position, so I will look to you for the leadership. But some 
people think that the Congress would never create another panel 
or another court, it just sounds too expensive. We are not 
talking about something that would be more expensive, I don't 
think, sir. If you had a three-judge panel that could sit in 
Indian Country, in fact, it could be on the road, it could kind 
of be the way we were, you could fund these folks through the 
same process so you could decide whether they were up to that 
kind of a job or not. But the bottom line is they could go out 
and they would hear these cases, they would really get good at 
this, I think, over time.
    So there would be a cost involved, there is an up-front 
cost, there is a fiscal note. But I think in general it is a 
way to vindicate the right.
    Then if I might say also, secondly, a lot of Native people 
on reservations don't get their full constitutional rights 
today.
    Senator Tester. Bingo.
    Mr. Eid. Thus the Indian Civil Rights Act, and it is a 
travesty, they are American citizens. They should get all their 
rights, including when the tribal governments abuse their 
rights. They have Federal civil rights. They should be able to 
vindicate that.
    So let them go into that process too. There may be some 
opposition, I know, on that issue from tribes. But we all have 
to live in the same system, and that is part of the price of 
admission.
    Senator Tester. I appreciate that. While we are talking 
about the Division of Indian Justice, a new division within the 
Department of Justice, that would be able to specifically 
address concerns in tribal courts, Federal districts, 
overseeing Indian Country and investigations into tribal 
country. Is that correct? Is that a correct assessment?
    Mr. Eid. Yes, sir. It would take all those functions that 
are in the Bureau of Justice Services, Bureau of Indian Affairs 
Office of Justice Services and combine them into DOJ, along 
with the group of FBI and so on to do additional enforcement if 
they are needed.
    Senator Tester. Were you guys able to do any sort of cost 
assessments on the proposals? We talked a little bit about it 
on the court.
    Mr. Eid. Senator Tester, I am glad you asked that. We 
specifically met with the White House staff in November. They 
asked us that same question. They said it would help if you 
would break it all out, which we have done in our testimony 
here. That way it could go to OMB. So one of the things that 
would be great, I think they are going to do that, but if you 
could just please remind them. They said they put some of these 
things through OMB. And if we knew what they cost, I think it 
might help the Committee.
    Senator Tester. Yes, bingo. Just a little bit about the 
lack of police officers that you address in your testimony, Ms. 
Ellis. It is something this Committee has talked about before, 
especially in the large land-based tribes. Are there 
technological improvements, and if so, what would they be, to 
help Indian Country, to help bring them into the 21st century 
when it comes to law enforcement?
    Ms. Ellis. I am just trying to think of all the things I 
want to talk about when it comes to lack of law enforcement in 
Indian Country. Just to go back a little bit to Senator 
Murkowski's point, the situation in the lower 48 is vastly 
better than it is in Alaska.
    Senator Tester. That is correct. It is not too cheery down 
here, either.
    Ms. Ellis. No, it is not. But you know, we have heard just 
resources for ankle monitoring, whether or not tribal courts 
can actually do some more on the ground technological 
monitoring to make sure that somebody is not violating the 
terms of their parole. It really does boil down to a lot of 
resources. As a fairly conservative person, I don't feel that 
it was our role to come to Washington and say, let's just keep 
throwing money at this problem and putting band-aids on it here 
and there. Our view, and my view, would be let's fix the big 
problem, get a structure that is working, and then if we can 
invest in a structure that is working, I think that is 
something that this entire Congress can get behind.
    But right now, we keep investing in a broken system with a 
whole bunch of band-aids. I don't mean to be general about it, 
but I am tired of buying band-aids.
    Senator Tester. I appreciate your testimony.
    Senator Begich?
    Senator Begich. Thank you very much.
    I am sorry I have had to come in and out. I have had some 
meetings in the back here.
    Tamra, thank you. I know it has taken you four or five days 
to get here. The sad news, this place shuts down where there is 
snow. So they say later tonight there might be snow. I don't 
know when you were planning to go home, but you might be here a 
little longer than you anticipated. But first, thank you for 
being here. Thank you for representing Alaska and also tribes 
not only in our State but around the Country on the issues of 
justice.
    If I can ask you just a couple of questions, and again 
thank you for your testimony, which I have had a chance to 
review, so I appreciate that. Let me ask you, first, as you 
know, I have a bill, the Safe Families and Villages Act, trying 
to give more power to villages to really handle their justice 
system. I am a hard core believer in this. I think it is 
important. Can you give me your thoughts, one, on how tribal 
courts, in your mind, are successful and where those are 
working? But also specifically in our bill, we have the repeal 
of Section 910 of VAWA, and our comments on that, if you would. 
Then I have a couple other questions.
    Ms. Truett Jerue. Briefly, in terms of tribal courts, I 
have worked with tribal courts in terms of child protection a 
lot in Alaska. We do have some, oftentimes our tribal councils 
are acting as our courts, or they will have elders as part of 
those. And I believe that the tribal courts in our small 
systems have been very effective in those cases. I also believe 
that they have been very effective in juvenile justice cases, 
particularly minor infractions and things like that, where 
there is no monitoring available, there is no probation, there 
is no fancy program for people to go to. So I think that in 
small communities where we have a fairly active tribal court, I 
believe that it can be very effective. Because at that point, 
you are looking at people you know very, very well. And in 
knowing them so well, you also know what is happening next 
door.
    Senator Begich. What the capacity is and what else is going 
on in their life or with their family.
    Ms. Truett Jerue. And I think that there some tribes in 
Alaska that really do have already some of the infrastructure 
in place to do that. So that is a brief answer to that 
question.
    Senator Begich. Let me, if I can, and you have probably 
heard me say this publicly, and if you haven't, this is a 
statement I make a lot of times, on the issues of dealing with 
tribal courts. Let me pause for a moment, my brother Tom works 
in this area a lot, throughout the State as you probably know, 
and as well when I was on Anchorage Assembly, we started 
Expanded Youth Court, which was founded on the principle of 
tribal courts and elder courts, or youth and elder courts, 
which have been great successes, as you just described.
    We went in alone, in a way, because we couldn't get the 
State to step up as I thought they could. So I want to get a 
sense from you, in working on these issues, how has the State 
helped or hindered you in these efforts, knowing there is 
always this thing they always like to talk about, which is 
sovereignty issues. But in reality, this is about justice. This 
is about giving opportunities for young people to get on the 
right track rather than the wrong track.
    Can you give me a sense, and if you feel uncomfortable 
saying it, I understand. But I have had my criticisms, to be 
frank with you, of the State's inability to really see this as 
an opportunity.
    Ms. Truett Jerue. I work, I am a trained social worker, and 
I have been working in this field for a long time in rural 
Alaska, that is where I work. Not just in Anvik. I believe that 
the State has hindered us in many ways from solutions that we 
could have dealt with there locally.
    Senator Begich. Solutions you all thought were workable.
    Ms. Truett Jerue. From the community, whether it is the 
community council, to the tribal council, to whatever 
infrastructure may be in place in that community, they have 
come up with some excellent ideas. But we were then hindered by 
State intervention and/or lack of. I think that has happened 
oftentimes, and again, it is not a criticism of the individual 
State workers.
    Senator Begich. Understood.
    Ms. Truett Jerue. It is a criticism of the system itself. 
It is not working for us out there. I think that as local 
people, we know our people, we know our resources, we know our 
limitations. But we also know that there are some times we 
could be more effective by just purely getting real creative 
that wouldn't be listed in some system.
    So I think it is really important that we get this 
opportunity to do that.
    Senator Begich. We have seen wellness courts, youth courts, 
tribal courts, a variety of new approaches that have shown 
success. If you have more flexibility, less lack of access or 
ability, you can do a lot of things. Is that a fair statement? 
Or at least try some things that might give some avenue of 
opportunity to solve some of these problems?
    Ms. Truett Jerue. We have done just that. We got a CTAS 
grant that was a youth court grant for Anvik. I helped write 
that grant. Then when we actually received the funding, it was 
wonderful and we were very grateful for that. But re-looking at 
the grant, when it was written, it required that we have a 
mental health person or somebody come in and be working with 
our kids. Well, I have only seen a mental health person in 
Anvik in, well, I don't know, I have lived there 25 years, 
maybe once. So I figured, well, this isn't going to work for 
us, even though we could make it work.
    So what I did is I talked to several people in the 
community and I said, you know what would really work more 
effectively is a peer mentoring group. And that would look 
different in our community than it is going to look in the 
community 20 miles upriver, because they have some different 
issues than we have.
    So we rewrote it, and they accepted that. How ours looks is 
that we work with the kids from the age of 6 until 20. And we 
make sure they have activities, we make sure that they are 
being supervised in those activities and we are talking to our 
teenagers and really teaching them about the fact that they are 
also tribal citizens. They don't know that.
    Senator Begich. Let me say this, I am over my time. I did 
have questions for the Commissioners, but I will submit those. 
I know we have talked, and I want to first commend you guys. 
You did an incredible report. Not that we look to be seeing the 
kind of information that comes out of it, but what it is, it is 
an eye opener for us and what we need to do, what we need to be 
acting on. This is not a report that that should end up on some 
shelf somewhere collecting more dust until we sit here five 
years later having the same conversation.
    I want to commend you guys for doing it, one, that there 
was unanimous support of the report. It wasn't politicized, it 
was, here is what you saw. Here is what is happening and here 
is what we think. Some solutions were not in detail in the 
sense that we need to this, because I know you want to get down 
that path.
    But I want to say thank you for doing this. For Alaska, it 
is tough love sometimes when we have to see these things. But 
it is good for us to be reminded of how far we still have to go 
when it comes to justice systems in Alaska. So thank you for 
that.
    I will submit some questions for the record, because I know 
my colleagues are--it is 5:30. I know Tamra would stay here as 
long as she wants, because she is five days flying here and 
only five minutes. I don't know if that ratio worked out fairly 
for her. But we just really appreciate Tamra for being here. 
Thank you for being here, Tamra, again, for five days on a 
plane. I try to explain this to my colleagues all the time. 
Thank you for being the example of what we talk about all the 
time.
    The Chairwoman. [Presiding.] Do my colleagues have more 
questions?
    Senator Murkowski?
    Senator Murkowski. Madam Chairman, I don't have a question, 
but I want to share an article, a CNN report from February 6th. 
* It highlights a 104-year old Alaska Native woman, Elsie 
Nanugaq Tommy, who is 104 years old, who has started a women's 
shelter. They call it a secret women's shelter, in Newtok. And 
Denise Tommy, who is over there, the women's coalition in 
Bethel, talking about the shelters. But the point of sharing 
this with you is, the report says Alaska doesn't have to be the 
State where rape is most common, that we can do small things to 
make a difference. And we have talked about community 
empowerment.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files and can be found at http://www.cnn.com/2014/02/03/opinion/sutter-
alaska-rape-change/.
---------------------------------------------------------------------------
    But I am looking at some of these suggestions: donate to 
worthy organizations like shelters, start a petition to get 
cops in every village, tell your story, host a choose respect 
rally, demand rape kits are counted, share this post with your 
friends. We have incredible, incredible issues that face us in 
rural Alaska. Our statistics are staggering and sobering. To 
think that these are some of the solutions that we are looking 
at, share this post with your friends, start a petition, donate 
to worthy organizations, I think we need to, as policy makers, 
do that much more to redouble our efforts to make a difference. 
Because as genuine and heartfelt as starting a petition is, we 
have some real problems we have to deal with.
    Thank you for letting me share that.
    The Chairwoman. Senator Tester?
    Senator Tester. Tank you, Madam Chair.
    On a completely different issue, I would say you were very 
complimentary to us earlier in this meeting. The last Committee 
meeting we had, we bid you adieu.
    This is your last Committee meeting, and I just want to say 
thank you for your service, not only to Indian Country, but to 
the Country and you will remain on this Committee, and 
hopefully be an active member of it. We thank you very much for 
your service.
    The Chairwoman. Thank you. My heart is definitely with this 
Committee, and I want to thank the staff on both sides for 
their hard work. I have really enjoyed working with all of you.
    Boy, I get a gavel after what, less than a year?
    [Laughter.]
    The Chairwoman. I want to say, I have every confidence that 
Senator Tester, who represents tens of thousands of Native 
Americans, will do an outstanding job on this Committee, 
because he is so steeped in these policy issues, traveling 
around his State. I just know that all of these issues he has 
dealt with. He will bring great leadership to this Committee. 
That is what makes it, I am not saying easy to move over, but 
the Small Business Committee does have some interest in Native 
American issues. So we will look forward to working with this 
Committee on those.
    I want to thank you again for this hearing. It is a very 
important hearing, a very important public policy issue. You 
came with some good suggestions, we will try to get them 
implemented. Thank you.
    We are adjourned.
    [Applause.]
    [Whereupon, at 5:40 p.m., the Committee was adjourned.]
                            A P P E N D I X

 Prepared Statement of Ivan D. Posey, Chairman, Montana-Wyoming Tribal 
                            Leaders Council
    Good afternoon. My name is Ivan D. Posey and I currently serve on 
the Eastern Shoshone Business Council from the Wind River Indian 
Reservation located in Wyoming. I also serve as Chairman for the 
Montana-Wyoming Tribal Leaders Council which consists of seven tribes 
in Montana, two tribes in Wyoming and the Shoshone-Bannock tribe in 
Idaho.
    It is an honor to provide testimony to the Senate Committee on 
Indian Affairs regarding the Indian Law and Order Commission report 
regarding a ``Roadmap for Making Native America Safer'' which was 
released in November 2013. Many times I have had the opportunity to 
provide testimony to this distinguished committee which includes my own 
Senator, John Barrasso.
    My testimony today will focus on Juvenile Justice: Failing the Next 
Generation.
    The report outlines many serious issues with the juvenile justice 
system in Indian Country and the lack of resources needed to address 
these concerns. From jurisdictional, detention, treatment and 
educational barriers, to name a few, the obstacles pertaining to tribal 
youth are still outstanding.
    First, let me address detention. Many tribes lack adequate 
facilities to house juvenile offenders that may pose a risk to public 
safety, and in many instances, their own safety. Some juveniles, who 
may be intoxicated, are sometimes returned to the home where safety 
becomes a concern for family members who dwell there. On the Wind River 
Indian Reservation, some adjudicated youth are sent to a detention 
facility two hours away in Sweetwater County or detained for a longer 
period in Busby, Montana, which is four hours away. There are no local 
facilities to hold juveniles.
    Many of these youth may not be criminally inclined but may suffer 
from health related issues such as Post Traumatic Stress Disorder. The 
need for stronger mental health services in Indian Country is 
paramount. When these services are available, through referral, 
voluntary or through the school systems, they would drastically prevent 
many tribal youth from entering the juvenile justice system and 
incarceration. Services need to be enhanced, or made available, and 
designed to work with the entire family which is affected.
    As noted in the report, jurisdictional matters regarding tribal 
youth may be better served for hearing in tribal courts. Of course that 
depends on the capacity of some courts and the ability to monitor and 
evaluate outcomes. There are some ways to effectively address and 
prevent further detention through family and drug courts for youth 
offenders. The ability to create models through traditional and 
cultural values is a very real possibility in the tribal court systems. 
Over the years I have seen tribal youth lost in the system and when 
they become adults they are prosecuted in the federal system and serve 
time in a federal institution.
    Second, let me address services to families, and in some instances, 
extended families. There have been many programs available in Indian 
Country to address these concerns over the years; many have been 
effective while some have gone to the wayside. Boys and Girls Clubs, 
United National Indian Tribal Youth (UNITY) and other programs have 
stood the test of time and continue to be effective in Indian Country. 
These programs create a sense of belonging and contribution which is 
very important to young people. As in any successful endeavor, family 
participation is very important. From parent/teacher conferences to 
volunteering for youth activities, participation from parents or 
guardians remains low. To be effective there has to be a holistic 
approach to family involvement in the lives of our youth.
    Although at times, there is a sense of shame and guilt associated 
when dealing with youth issues, there has to be a more effective 
approach to working with families in their homes. It is likened to a 
person who attends treatment but returns to the same environment. Part 
of the problem may lie with a caring parent who feels they have no 
control or resources to address the issue regarding their child or 
grandchild. This would give the adults the opportunity to seek help and 
have a strong support system to assist them.
    Suicide Prevention has also been effective in many tribal 
communities. Decades ago the subject was not openly discussed in our 
tribal communities even though it was a common occurrence. We have lost 
too many of our tribal youth to suicide and many families still live 
with the pain and emptiness of how they may have prevented it. Myself, 
I have lost two nephews and one niece to suicide.all of them my older 
brother's children.
    Third, the educational system needs to teach our children instead 
of testing. Testing sometimes make our children feel alienated if they 
are not in a certain category or group. Individualism needs to be 
recognized and commended. Many schools are faced with children who have 
Fetal Alcohol Effects (FAE) and require special needs such as 
Individual Educational Plans (IEP) which require more one on one 
teaching. Many of these children receive great educational services but 
some may not. Schools have a huge responsibility regarding the 
development of our children and preventing many from becoming part of 
the juvenile justice system.
    Although the problems may seem insurmountable at times, I am 
optimistic that positive change can happen in Indian Country regarding 
Juvenile Justice. This report has outlined the barriers and has created 
a pathway to address and overcome the many obstacles tribal youth face. 
Many answers lie within our communities and our tribal people. We need 
to continue to strengthen what works and embrace positive change.
    As in any society our youth need a sense of belonging and feel that 
their contribution is being acknowledged. We all have our own 
``medicine'' and we contribute in a positive or negative manner. A 
young child is not destined to be a juvenile offender and detained in a 
system where they may become introduced to a harsher way of life. Many 
of our children have been through a life of violence, substance abuse, 
sexual assaults and suicides . . . as tribal communities it is time to 
act and make our youth feel that they have a voice, are being heard, 
and their contributions are being recognized. Through prevention, 
family involvement, community support and innovative means of 
discipline, our tribal youth have a bright future.
    WHO WEE HOO and GOD bless.
                                 ______
                                 
  Prepared Statement of the Great Plains Tribal Chairman's Association
    Madame Chairwoman and Members of the Committee:
    Thank you for holding this important hearing and for allowing the 
Great Plains Tribal Chairman's Association (GPTCA) to present the 
following preliminary observations and comments on the Tribal Law and 
Order Commission's (TLOC) final report. We would also like to thank the 
Members of the Commission for their hard work and dedication.
More Hearings and BIA Meetings Are Necessary
    Nothing is more important to the Members of the GPTCA than the 
safety and security of our members. For that reason, we encourage this 
Committee to hold additional hearings on the Commission's report in 
order to receive testimony from as many tribal leaders as possible. 
Additionally, because the resolution of many of the problems discussed 
in this report will require the concurrence and active participation of 
the Senate Judiciary Committee, we would hope that some of those 
hearings could be conducted jointly by your two Committees.
    We would also ask this Committee to encourage the BIA to begin 
holding comprehensive meetings with Tribal leaders, tribal judges and 
tribal law enforcement officers to discuss these important findings and 
recommendations. It is our hope that senior representatives from OMB, 
the Department of Justice (DOJ) and the Indian Health Service (IHS) 
will participate in these events because their cooperation is clearly 
going to be required to implement many of the Commission's 
recommendations.
We Also Need the Participation of the Budget and Apppropriations 
        Committees
    We further ask you to help us assure the participation of the 
Members of the House and Senate Budget and Appropriations Committees in 
your hearings. Many positive public safety changes have been authorized 
in recent years, but the appropriations required to implement those 
changes have not been forthcoming. We need to find a way to change 
that, because the absence of these much needed appropriations has left 
major differences between what was authorized by this Committee, and 
what has and can be implemented by most of the Tribal Nations in the 
Great Plains.
    This is evidenced by what has happened with the expanded tribal 
sentencing and tribal jurisdiction provisions of the Tribal Law and 
Order Act (TLOA) and the Violence Against Women Act (VAWA). While some 
economically-successful gaming tribes have recently announced that they 
have already amended their tribal Codes and hired professional judges, 
prosecutors and defense attorneys, using their own third party income 
and are now preparing to implement the expanded tribal jurisdiction 
authorized by TLOA and VAWA, such is not the case for the majority of 
tribes in the Great Plains. In fact, for most Great Plains Tribes as 
well as most other treaty tribes, who are among the poorest in the 
United States, the idea of funding the pre-requisites required to 
expand their sentencing authority and tribal criminal jurisdiction is 
outside the realm of possibility. As a result, many of the members of 
those tribes now view these much talked about authorizations in TLOA 
and VAWA as nothing but another set of unfulfilled promises. This is 
wrong, especially when you consider that the Treaty and Large Land 
Based Reservations we are talking about house the largest percentage of 
on-reservation Indians in the United States.
    Now let us turn to some specific comments on the TLOA Commission's 
Recommendations.
Tribal Jurisidiction Over Non-Indians Needs to be Returned Now!
    We were thrilled to see that the Commission's first recommendation 
was to allow those tribes, who chose to do so, a path toward again 
exercising criminal jurisdiction over non-Indians who commit crimes in 
their tribal homelands. The Commission was absolutely right when it 
concluded that on-reservation criminal justice should be controlled 
locally by the Tribe, and that the Supreme Court's decision to take 
away tribal jurisdiction over non-Indian perpetrators has created 
nothing but problems. This Committee has heard hours of testimony on 
this point during its hearings on TLOA.
    Too many of our tribal people are injured by the actions of non-
Indians who we lack the practical ability to control. We find it 
disheartening that so much Congressional attention remains focused on 
protecting the civil rights of the non-Indian perpetrator while so 
little attention is focused on defending the civil rights of the Indian 
victim. Returning criminal jurisdiction over non-Indians to those 
Tribes who wish to exercise it is the most cost effective and practical 
way of correcting these problems. In 2014, no tribe should have less 
practical ability to protect its citizens than the average small town 
in the United States.
    At the same time, we are disheartened by the fact that the 
Commission's recommendations again tie our ability to exercise this 
inherent sovereign authority to our ability to pay for tribal court 
pre-requisites which we cannot afford, and which the Federal Government 
has never chosen to fund. Four years after the passage of TLOA, our 
courts have not only failed to receive any real increases in federal 
dollars; they have actually lost ground because of sequestration. So, 
if you continue to follow this same path, you will again find yourself 
making an offer which only those tribes with sizable third party 
incomes will be able to accept.
    Because some tribes are preparing to begin exercising expanded 
jurisdiction under VAWA, we felt it was necessary to stress the 
importance of assuring that those tribes are provided the federal 
support and resources they will need to defend that jurisdiction. We 
know that as soon as the first non-Indian is brought before a tribal 
criminal court legal challenges will quickly follow. These challenges 
will most likely lead to long and very expensive litigation which will 
not only bring the scope of tribal criminal jurisdiction and inherent 
tribal sovereignty squarely before the federal courts, but will also 
establish a precedent for what can and will happen within other tribal 
Nations across the United States.
Improvements in the Federal Judiciary
    We were also pleased to see that the Commission has recommended 
that the federal courts begin holding federal criminal trials, 
involving Indian defendants, on or near our reservations. Most of our 
federal courts are located hours from our tribal communities. We have 
no public transportation to those locations and our people lack the 
practical ability to travel to those sites. Thus, federal criminal 
trials involving on-reservation crime are often viewed by our members 
as actions that are being taken by and for outsiders.
    We were equally happy to see the Commission's call for the renewed 
use of Indian Federal Magistrates. We do not need another expensive 
study to determine the worth of this program, that worth has already 
been proven. We just need you to make the program permanent and 
available to those tribes that wish to utilize it. We have a number of 
tribal members who have all of the legal education and experience 
necessary to serve in these positions. We would hope that you would 
direct the Federal Government to look to these individuals as potential 
candidates to fill those positions. We would also note that if this 
program is going to be as effective and well received as possible, each 
Tribe should have a direct role in the selection and approval of the 
Magistrate who will serve their community.
    We also feel strongly that a tribe should continue to play a direct 
role in the selection of the special Assistant U.S. Attorney who will 
serve as its liaison. As we discuss below, we currently have an 
excellent working relationship with the individuals who serve in these 
positions in the Great Plains, but we also know that these individuals 
will change over time. We must continue to play a direct role in the 
selection of their replacements to further advance our relationship 
with the U.S. Attorney's Office.
    Finally, we support the Commission's call for an expanded tribal 
role in federal and state prosecutorial decisions. The participation of 
Tribal Prosecutors in federal criminal trials, authorized by TLOA, has 
already proven its worth, and that participation should continue to be 
expanded. Too many of our people are in federal prison for crimes that 
would have been better handled in our tribal court systems or by being 
sentenced to treatment rather than just incarceration.
    When a Tribal member is convicted in federal court, or when a 
federal plea agreement is contemplated, the Tribal prosecutor should 
also be given a direct role in deciding the proposed sentence even if 
they did not participate in the case. Most of these convicted 
individuals are going to return to our tribal communities, and we 
should therefore have a tribal voice in deciding the disposition of 
these matters.
Juvenile Justice
    We were very happy that the Commission devoted considerable time 
and attention to the issue of juveniles. Too many of our children find 
themselves caught up in the federal and tribal criminal justice 
systems. More often than not, their actions were influenced, at least 
in part, by something going on or not going on at home. We agree that 
juvenile incarceration should be seen as a last resort, but we must 
advise this Committee that we do have some juveniles who require highly 
supervised residential attention and we cannot eliminate completely the 
use of juvenile detention centers.
    One of the big problems we currently face is our lack of 
residential programs for children who are simply in need of care and 
supervision, and for juveniles who are repeat status offenders. We 
recognize that if care and attention is not provided, or if that care 
and attention is not sensitive to their tribal culture, too many of 
these young people will find themselves in the criminal justice system 
at some point in their life. In fact, most Indian people who are 
currently incarcerated started out as neglected youth or status 
offenders who lost track of their tribal heritage and belief systems. 
We might have been able to prevent this from happening if we would have 
just had the resources available to intervene when they were still 
children. While we recognize that group homes and culturally centered 
counseling and residential treatment locations are not normally viewed 
as a part of the ``criminal'' justice system, they should be viewed as 
major crime prevention tools which are well worth the cost.
    We also agree that the Tribe should be notified and allowed to 
become a full partner in all judicial decisions whenever a tribal 
juvenile is brought into any State or Federal criminal justice system. 
State and Federal Courts often do not understand the circumstances that 
led a juvenile to act the way they did, and they also fail to recognize 
some of the tribal tools available to address the situation. For 
example, many State and Federal Courts do not understand or appreciate 
the role that a child's extended family members play in tribal society, 
or how extended family members can be used to help redirect the life of 
a child. So please help us stop future crime by helping us redirect the 
lives of juveniles who, without tribal and federal assistance, may end 
up before the adult criminal courts.
Cross-Deputization Agreements
    No Tribe should feel pressured or be coerced into entering into an 
inter-governmental policing agreement with a non-Indian government 
simply because they have inadequate funds to operate their own law 
enforcement and corrections programs. Additionally, no tribe should be 
penalized or looked down upon for refusing to do so. Each tribe has a 
different present and historical relationship with its surrounding 
governments and as such each tribe should remain totally free to decide 
for itself how to handle matters of this importance.
    At the same time, we support the Commission's call for removing 
some of the current impediments to such agreements--like insurance--for 
those tribes who are interested in exploring these options.
Flexible Funding--Not Block Grants
    Because our tribes have diverse needs, we support the Commissions' 
call for a ``flexible'' funding system which allows tribes to decide 
for themselves where to put the federal public safety and justice money 
that they receive. We need a single source of adequate base funding, 
and what we are receiving from BIA today does not even come close to 
meeting anyone's definition of adequate.
    At the same time, we are extremely concerned about the Commission's 
call for the use of block grants as the mechanism for achieving this 
goal. Block grants are designed to assist and supplement the funding 
needs of a government which already has a viable tax base and the 
ability to run a basic program. Block grants were designed to provide a 
federal means to enhance those programs, not to be their sources of 
basic operating dollars. Thus, they are not the answer for tribal 
programs that do not have, and have never had, a reasonable source of 
base funding.
    Federal block grant allocations are always based on formulas which, 
by their very nature, can never really consider the actual needs of a 
given community. Block grants also provide no mechanism for addressing 
changed circumstances, or emergency funding needs, and no viable 
mechanism for assisting a tribe to catch its programs up to the level 
that others have already achieved. We are already experiencing these 
exact same problems with our current block grant programs for roads and 
housing construction. Law Enforcement, courts and public safety cannot 
work in this manner.
    The BIA's current base funding for law enforcement and courts is 
totally flawed because it has always been distributed disproportionate 
to actual need. To make matters worse, the percentages given to the 
tribes in the Great Plains and other large land based and treaty tribes 
are far below those received by many other tribes in the U.S. There is 
no fair and honest ``distribution formula.'' Tribes which were 
recognized in more recent years, and tribes who received tribal court 
and public safety add-ons in the 1970s thru the early 1990s, have been 
able to increase their base funding to a still inadequate, but a least 
more reasonable level, while ours has remained stagnant.
    Additionally, many of our tribes suffer a disproportionate impact 
on their base budgets when the costs of gasoline and other similar 
items go up. Our large land based tribes not only have higher gasoline 
costs, because of the miles that their emergency vehicles have to be 
driven each day. They also have higher annual vehicle maintenance cost 
because of excess mileage and bad roads, and their police vehicles have 
a shorter life span. Thus, even when law enforcement funding has 
remained stable, our large land based tribes have still seen their base 
budgets fall further behind every single year. A block grant program 
that does not have the ability to adjust to these very real annual 
changes is going to leave us in an even worse position than we already 
are today.
    It is also important for us to note, that unlike some other tribes 
in the Country, the funding for our Great Plains public safety programs 
stems directly from the treaty commitments that U.S. government made. 
The very language in our treaties calls for the actual protection of 
our communities, not just for a share of an insufficient block grant 
program that fails to achieve that objective.
Parity has to Have a Realistic Meaning
    We are also pleased that the Commission has emphasized the need for 
parity in our law enforcement staffing, but we define ``parity'' in a 
far different way. To us ``parity'' means the minimum staffing 
currently existing in a community of comparable population, comparable 
land base, comparable economic conditions, and comparable social 
problems, which has had the resources available to it to make an 
informed decision on the level of protection that needs to be provided 
to address those conditions. Not on some abstract comparison of 
population to officers. Today, our police departments remain funded at 
50 percent of what the Federal Government itself has determined to be 
our actual need. This is one of the reasons that we started our 
testimony by calling for a ``buy-in'' to the Commission's 
recommendations by OMB and the House and Senate Budget and 
Appropriations Committees. Simply saying we need more officers is not 
getting the job done.
    Additionally, comparing many of our reservations to the average 
small American town does not work. Unlike most rural communities, many 
of our reservations in the Great Plains are the size of some states. 
They have far more widely dispersed residential communities, far more 
serious alcohol and drug problems, far higher drop out and suicide 
rates, far higher unemployment and poverty levels, and jurisdictional 
issues that are far more complicated than those which exist in most 
rural communities in the United States.
    Indian country also has a number of unique situations which call 
for a special definition of parity. The best example of this is the MHA 
Tribal Nation which because of the oil and gas boom, now has more 
transient workers living in some of its communities than tribal 
members. It also has 20,000 large oil and gas trucks per day traveling 
at high rates of speed on the same dilapidated roads used by school 
children and local residents. This has created a huge public safety 
crisis in that community which the current BIA funding system has no 
ability to address. In fact, traffic is not even a factor that is taken 
into consideration when BIA funding is distributed. Because these 
situations have been ignored by BIA, crime has risen significantly at 
MHA, at the same time that federal dollars have been cut back. This is 
not the way a federal public safety program should be operated. Simply 
put, these are the types of very real factors that the BIA's current 
3.8 officers to 1,000 people formulas fails to consider and that 
cannot, and most likely will not, be factored into a federal block 
grant formula. Parity means parity with other identical communities, 
not with the average rural town in the United States. An officer in a 
small rural community in South Dakota, which is 20 miles by 20 miles, 
can respond to four police calls in the time that it takes an officer 
at Rosebud to respond to one call which is 60 miles away. An officer in 
the average rural community may see one or two suicides in a year, 
while our officers see two or more a month. An officer in most rural 
areas may get 100 police calls a month; our officers get 100 calls on a 
single Saturday night, and the average small town does not have traffic 
and transient issue the come anywhere close to what is happening on the 
Reservation of the MHA Tribal Nation. These simple realities need to be 
factored into any ``parity'' allocation that is developed.
    Additionally, parity cannot be measured on just the number of 
officers required. There are a number of additional costs which have to 
be considered. Each officer that is added will require a vehicle 
capable of handling our bad roads, a uniform, training, a number of 
pieces of equipment and a variety of other things that are both 
necessary and very expensive. ``Parity'' can only be achieved when all 
of these factors are considered.
    Finally, we are troubled that the Commission failed to call for 
``parity'' in the staffing, equipping, and funding of our tribal courts 
and detention programs. We are never going to be able to adequately 
address crime in our Tribal Nations until these two programs are viewed 
as being equally essential to that effort. Today, our Courts are 
operating under conditions that would be viewed as totally unacceptable 
in any county in the United States. At MHA, the tribe's one tribal 
judge and one tribal prosecutor have in excess of 3,800 open cases, 
most of which are drug related and many of which involve drug sales, 
not just drug possession. No non-Indian prosecutor in this country has 
3,800 open criminal cases of this magnitude, and no judge can assure 
justice to the parties involved in that many different matters.
    While non-Indian courts are developing a variety of new and 
creative ways of administering justice, our tribal courts are 
struggling just to stay open. Today, our tribal courts lack the basic 
equipment, training dollars, and court personnel found in every county 
court in the United States. They also operate without access to the 
same types of viable treatment, counseling, and other diversion 
programs common to all other State and county courts in the United 
States. The end result is, that today, a tribal judge in the Great 
Plains is forced to decide between incarcerating or releasing a 
defendant, even when that Judge knows that neither of those 
alternatives are in the best interest of the tribe or beneficial to 
crime prevention. We have far too many repeat offenders and we need 
culturally oriented counseling and treatment programs run by the Tribe 
if we are really going to make a dent in those statistics.
Stop the Reliance on DOJ Grants and Move the Money Back to BIA Today
    We were also pleased to see that the Commission has joined us in 
opposing the continued use of DOJ grant funding to pay for core law 
enforcement and court operations. Their findings mirror the statements 
we have been making for the last twenty-five years.
    No one can run a police department or a court on grants, especially 
when those grants do not become available to even apply for until the 
last quarter of the fiscal year. We are mandated to start our law 
enforcement programs on October 1, regardless! We cannot wait until a 
grant cycle is initiated. Grants are unreliable, we never know if or 
when we are going to get them, or how much they will be, and our 
funding needs change radically when we have an emergency like a 
blizzard, a tornado or even an unexpected influx of drugs. Grants are 
not flexible enough to address any of these kinds of needs. So please, 
if you want to advance tribal law enforcement and court operations 
today, without adding a penny to the taxpayers burden, get together 
with the members of the Judiciary Committee and the Commerce Justice 
Appropriations Subcommittee and move the Indian funding from the DOJ's 
Bureau of Justice Assistance and COPS programs, including all of the 
construction dollars, back to BIA where they can be used more 
effectively to meet the actual needs of tribal programs on those 
reservations which have exclusive tribal/federal jurisdiction.
    By doing this you will also be able to undo a DOJ detention and 
tribal court construction program which has created nothing but 
problems for the majority of tribes which exercise full criminal 
jurisdiction on their tribal lands.
    We make this recommendation because we know that federal money is 
tight and hard decisions have to be made. In a perfect world, we would 
love to see both full funding at BIA for our on-going public safety 
programs and a reasonable level of DOJ grants which could be used to 
fund new and unique initiatives. Unfortunately, we do not currently 
live in a perfect fiscal world.
Our Strong Opposition to Moving Law Enforcement, Courts and Detention 
        to DOJ
    While we support the idea of funding all tribal law enforcement, 
detention and court programs through a single agency, we strongly 
disagree with the Commission's recommendation for moving BIA law 
enforcement, courts and detention funding, including construction 
funding authority, to the DOJ. We will continue to take this same 
position even if the DOJ grant programs are replaced with permanent on-
going funding, and even if DOJ provides the option of ``638'' 
contracts. This same BIA to DOJ transfer recommendation has been made 
three times in the last twenty years and the Tribes have rejected it 
every time!
    DOJ has never exhibited a comprehensive knowledge or practical 
understanding of on-reservation needs, thus, it lacks the information 
and understanding necessary to perform this function. How can an agency 
which is not involved with such important matters as on-reservation 
land ownership, changes in tribal law, changes in tribal enrollment 
policies, tribal religious and cultural events and beliefs, the 
internal problems at tribal schools, and the inter-relationship between 
programs and services ever going to be capable of managing on-
reservation public safety.
    DOJ is an agency which has experience dealing in one area- 
felonies- not with the types of day to day crimes which plague most of 
our communities. Even their efforts to collect crime statistics on our 
reservations have failed miserably, because they focus their efforts on 
felonies and violent crime, while totally ignoring the drunken drivers, 
incidents of domestic disputes, thefts, traffic problems, fights, and 
drunk and disorderly cases which are every day occurrences in our 
Tribal Nations. In fact, they are not even interested in drug arrests 
in our communities unless the quantity of the drugs seized is above a 
certain amount.
    Simply put, the DOJ's policy makers and law enforcement staff do 
not have the time and therefore, do want to be bothered with DUI's, 
shoplifting, stolen household items and fights at basketball games and 
bars. In fact, they consider most thefts in our tribal communities to 
be minor offenses, because the value of what is stolen does not rise to 
the level of a ``major theft''. I can assure you; however, that the 
person who lost the only car they have in their entire family, the 
theft of that car is a major theft--even though that car may only have 
a blue book value of $500 or less. While we need expanded FBI and other 
DOJ assistance to address the felonies which do occur on our 
reservations, this is not the only type of law enforcement and the only 
type of law enforcement thinking that we need overseeing our police 
functions.
    We are constantly faced with proposals, from well-intended agencies 
and individuals, which call for the removal of a program or service 
from the BIA, even though it is the BIA which has the primary 
responsibility to implementing the federal trust responsibility. We 
call this ``stovepiping'' and we oppose all of these proposals outright 
because they simply do not work.
    What the proponents of these ideas fail to understand is that when 
you live in isolated, impoverished communities like ours, everything is 
inter-related and what happens in one area impacts another. An after 
school program get closed down and we see a rise in crimes involving 
young people. An after school program gets added and we have more 
accidents because we have more young people walking on our roads after 
dark. General assistance checks are cut back and we see an increase in 
drop-out rates and suicide. Agencies like DOJ do not understand this 
because they lack a comprehensive point of reference. DOJ, by its 
nature, like to compartmentalize things like this and focus attention 
on just one area--law enforcement and criminal justice. The BIA and 
tribal governments, on the other hand, have responsibility for the 
whole picture.
    Managing that whole picture will become more difficult if you 
remove a vital program like law enforcement from the overall decisions 
of tribal government, and from the tribal BIA budget process. Crime 
will not be properly address if DOJ is forced to make decisions on law 
enforcement while playing no role in the other programs and decisions 
that impact its success.
    At DOJ we are always going to be seen as a lower priority, simply 
because of that agency's other very important obligations. Some of our 
tribes recently an issue with another division at DOJ, and it took them 
seven weeks to get a meeting with the Director. This was not because he 
was slighting us in any way, or because we doubt for a minute his 
commitment to tribal leaders or the commitment of Attorney General 
Holder. That Director just had too many other pressing national 
concerns to address before he could get to what was on the national 
scale a small tribal issue impacting only a small number of people. We 
understand that, and see it as another reason to keep our criminal 
justice programs at BIA.
    Our point about different agency priorities is evidenced in HHS' 
implementation of its role under TLOA. While Tribes and the BIA 
recognize the direct relationship between our lack of on-reservation 
residential alcohol and substance abuse treatment centers and on-
reservation crime, HHS has not given that issue the same level of 
attention. This is evidenced by the fact that, despite all of the 
studies and all of the testimony the Congress has received over the 
last twenty-five years, HHS has still not created, or even proposed the 
creation of, a single residential treatment center in Indian county. We 
do not want a non-Indian thinking police department and court program 
coming out of DOJ, it's just that simple.
    Finally, it is important for us to note that while we currently 
enjoy a fine working relationship with our current U.S. Attorneys, and 
with the DOJ Executives and staff in the Central Office, this has not 
always been the case. We also know that many of those people will be 
gone after the next election, regardless of who gets elected. History 
has taught us that unlike with the BIA, which is well recognized as 
having a unique trust responsibility, and which has as its sole 
responsibility the protection of tribal rights; the decision makers in 
the DOJ are always going to have other responsibilities and other 
competing priorities. For these reasons alone, the degree of attention 
they focus on tribal issues will always change over time. This is not a 
politically motivated statement, it has happened more than once under 
both Republican and Democratic Administrations. This is why we feel so 
strongly that we need to maintain and enhance the role of the BIA, 
rather than creating a new, less effective agency in the DOJ.
Detention
    While we were pleased that the Commission touched on the need for 
additional detention facilities in Indian Country, we are not in 
agreement with all of its recommendations. In fact, many of those 
recommendations--and the current discussions which are already 
underway--scare us a great deal.
    When agency officials, academics and Members of Congress discuss 
``detention'' they often think in terms of prisons and long term 
holding facilities. And, when they talk in terms of ``alternatives to 
incarceration'' they are often thinking about persons who are sentenced 
to long-term incarceration. We have those needs, and we are open to new 
ideas in those areas, but what we also have is a real need for what 
most people would think of as the county and municipal jails. Simply 
put, we need a safe place to put the individual who is drunk and 
aggressive, the individual who is driving under the influence, the 
individual who is threatening to beat up another person, and the 
individual who has just robbed a local store or taken another member's 
car. We also need a safe local place to keep the individual who is pre-
arraignment, the person in or awaiting trial and the person awaiting 
bail. For many Great Plains Tribes this is not a small number of 
people.
    Additionally, because of our rural isolation, bad roads, and lack 
of public transportation, we are strongly opposed to the idea of 
placing even our sentenced offenders hundreds of miles from their 
families, friends, religious advisors and support groups. The 
Commission noted the importance of allowing tribes to develop re-entry 
programs designed to help bring these people back into our communities, 
and this whole concept is lost if we break family and community ties by 
incarcerating our people hundreds of miles from home. This is 
especially true for juveniles.
    Unfortunately, Washington being what it is, the very second that 
the BIA and DOJ started talking about ``alternatives to incarceration'' 
and ``regional facilities,'' all discussions surrounding our current 
local large land base and isolated community needs fell to the wayside 
and so did the funding to meet those needs. Today, we talk to 
appropriators about the need to replace our jails, and they tell us 
that the new emphasis is on ``alternatives to incarceration'' and 
``regional facilities.'' What these individuals fail to recognize is 
that the majority of the people our law enforcement officers deal with 
have an underlying alcohol or substance abuse problem, so things like 
ankle bracelets are not the answer. Treatment is a wonderful long term 
approach that we strongly support, but it is not a quick solution to 
our immediate problem. Until that treatment can change the lives of 
every person within the boundaries of our tribal Nations, we are still 
going to need local jails to protect our communities. We really wonder 
if the BIA and DOJ people who are talking about replacing jail space 
with ankle bracelets understand that there are a sizable percentage of 
Indian perpetrators who live 60 miles from the closest police 
substation in areas that the large land based tribes can only patrol 
sporadically. We also wonder if they understand that many of these 
areas still do not have phones or Internet, and satellite coverage only 
work there if the weather is perfectly clear. SO, while we welcome 
these alternatives to incarceration for tribes which will find them 
helpful, this is not a comprehensive solution to our problems.
    Today, many of the jail and court house facilities in the Great 
Plains are so deteriorated that they cannot be repaired, and those 
closest ``jail'' or ``court house'' space that most of our tribes could 
possibly rent is over 100 miles away. When we say deteriorated, we are 
talking about heating systems that fail regularly in our 10 degree or 
below winters, cooling systems that fail regularly in our 90 degree 
plus summers, and water systems that shut down altogether multiple 
times per year. Both our tribal and federal employees are working in 
jail and court house buildings that would be closed down immediately if 
OSHA officials ever visited them. So, if something is not done about 
these problems we will have no choice but to start releasing dangerous 
people back into our communities.
    We have so many problems with the current DOJ construction grant 
programs we could fill pages. So all we can do is highlight some of the 
most glaring. First, there is no priority list, so tribes which have 
the most pressing needs find themselves competing against tribes which 
are just now starting their police forces. Second, DOJ does not provide 
the core funding for our detention and court staff and does not 
understand what can and cannot be done with the existing BIA funds, so 
it is funding the construction of buildings that cannot be staffed. 
Third, because of the size of some of our populations, the cost of 
constructing a single justice center in the Great Plains and on other 
large land based reservations exceeds the entire amount in the DOJ 
construction budget, and DOJ currently has no mechanism to multi-year 
fund one of these projects.
    The most pressing example of this is the need for a new jail 
facility at Kyle on the Pine Ridge Reservation. As some of you are 
aware, the Kyle facility has been at the top of the BIA's jail 
construction priority list for many years. To address this crisis, the 
Congress reprogrammed FY 2011 funding to plan and design a new Kyle 
Justice Center, and directed that this facility be designed to serve 
the entire eastern side of the Pine Ridge Reservation. Unfortunately, 
when the facility planners, who included both tribal and BIA law 
enforcement and court officials, examined the actual occupancy rates at 
the current Kyle facility, along with the actual number of residents of 
the eastern side of the Reservation who were currently before the 
courts, and used those number to project the future needs of such a 
facility over the next ten years, they quickly determined that a much 
larger facility was needed in order to meet actual and projected needs 
of that community for just short term holding. This facility is 
estimated to cost in excess of $45 million, which is $15 million higher 
than the maximum amount which has ever been in the DOJ tribal 
facilities construction budget. The result is that today there is no 
existing federal program which has the money and the capability of 
building, or even completing the design on, the highest priority 
project in Indian Country. DOJ cannot multi-year fund a large project 
like this, as the BIA was able to do in the past, and no decent 
contractor is going to want to enter into a contract to build half a 
building. Even if they were, they certainly are not going to warrant 
their work. This is a real problem, because Pine Ridge is not the only 
high priority project which is going to face this problem. Lastly, it 
is almost impossible to project the actual costs associated with 
constructing a building as complicated as this with 100 percent 
accuracy especially given the ever changing federal detention 
standards. Under the old BIA ``pipeline'' funding, BIA always had 
funding for future projects which could be dipped into to fund cost 
overruns and unforeseen problems that developed on on-going 
construction sites when everyone agreed that those costs needed to be 
paid. The money was just moved from one project to another. Today, when 
a DOJ grant faces a similar cost altering problem, the Tribe has to 
shut the project down or leave it incomplete until the next funding 
cycle comes up, and it can compete for a new grant, which might or 
might not be forthcoming, to complete the work. This is a ridiculous 
and very expensive way to address a federal problem of this magnitude.
    Finally, DOJ lacks the practical ability to provide comprehensive 
advice and technical assistance on these projects for the same reasons 
we have discussed above. They do not understand our communities, so 
they cannot predict changes that are likely to occur in things like 
tribal enrollment and new tribal housing development locations, and the 
expansion of gangs. They also don't understand tribal land and utility 
issues, and this becomes a major problem when we run into a need for 
additional land for a lagoon, a drainage system or a different access 
point, or when our project is going to have a direct impact on the 
existing tribal water system or tribal lagoon. They understand how to 
calculate the relationship between occupancy and space requirements but 
they do not understand how to calculate projected occupancy rates 
because they lack a practical understanding of potential changes in 
tribal law. We could go on, but as you can see, this is not the right 
place to house these dollars if the Congress wants to obtain the 
maximum benefits for the least amount of money. So please, help us get 
the BIA back into the jail and court house construction business now, 
because what you are currently doing is not working and makes no sense 
whatsoever.
Alaska
    What is going on in Alaska is appalling and needs to be addressed 
immediately. While Alaskan tribes and Native villages have a different 
legal relationship with the United States, this fact should not be used 
as an excuse for allowing violence against Native people, especially 
Native women and children. Congress needs to act as quickly as possible 
to afford Alaskan Native Tribes and Villages the right to control crime 
in their own communities and include within that action the repeal of 
Section 910 of the Violence Against Women Reauthorization Act of 2013.
Funding in P.L. 280 States and for Alaska Efforts
    While the safety of Native persons should never be based upon 
monetary considerations, and every federally recognized tribe should be 
afforded the right to exercise its inherent sovereign authority to 
protect its people and its lands, until we can secure a substantial 
increase in the federal dollars available to pay for these costs, 
available federal dollars have to be directed first to those areas 
which have no state police jurisdiction over Indian Crime. This is 
unfortunate, but it is just that simple.
Thank You
    Again thank you for allowing us this opportunity to present our 
concerns. The GPTCA and its Member Tribes look forward to working 
closely with the Committee to address these critical issues.
                                 ______
                                 
     Prepared Statement of Elaine D. Willman, Director, Community 
           Development and Tribal Affairs, Village of Hobart

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Tim Johnson to 
                      Troy A. Eid and Affie Ellis
    Question. On the topic of juvenile justice, what methods of 
rehabilitation for Native juvenile offenders have been most effective? 
What preventative measures can be taken to lower the incarceration rate 
of Native youth?
    Answer. Of foremost importance in the treatment and rehabilitation 
of Native youth is bringing the juveniles into a community-based 
treatment rather than detention in distant locations. Assessment, 
treatment and other services that attend to juvenile trauma should be 
local, fully integrated with tribal child welfare and local behavioral 
health agencies. It is only at the local, tribal level that tribal 
elders can play a role in mentoring, instructing and healing juveniles. 
The most positive rehabilitation outcomes have been where there is 
continuity of culture, community support and events, and integration 
with prevention programs.
    The Commission visited the Rosebud Sioux Reservation in South 
Dakota in May 2012 and learned about the tribe's effort to educate 
juvenile offenders and not just incarcerate them. The Commission met 
Miskoo Petite, Facility Administrator for the Wanbli Wiconi Tipi, a 
juvenile detention center, and visited the center to learn about its 
services. The center conducts a Juvenile Assessment and Intervention 
system for each juvenile, weaving together a risk and needs assessment. 
The center provides moral reconation therapy designed to bolster ego, 
social, moral and positive behavioral growth. The center has group 
discussion about gang prevention, suicide prevention, anti-bullying and 
other behavior management strategies. The center requires daily 
exercise, offers an educational program, including Lakota language and 
cultural classes, and provides voluntary prayer circles and sweat lodge 
sessions. Petite testified that when young people have their basic 
needs met, they perform better academically.
    Additionally, the Commission learned about center's Green Re-entry 
program, supported by a federal Office of Juvenile Justice Delinquency 
Prevention grant that provided resources to allow juveniles to develop 
and implement environmentally green technologies. Specifically, 
juveniles receive education and training opportunities to create 
organic gardens, bee keeping, biodiesel fuels and renewable energy in 
solar and wind energy. Rosebud Children's Court Judge Janel Sully 
testified about the program and stated, ``When the youth come in they 
are sullen, angry and upset. They spend some time in the Green Entry 
program and in a matter of days they are smiling, happy and 
energetic.''
    Other effective preventive programs have been local youth councils 
programs, such as the UNITY chapter at Wind River Reservation, the Boys 
and Girls Clubs, such as at the Pine Ridge Reservation, and integration 
into community sports teams, active social services, anti-bullying 
programs and education on the effects of drug and alcohol abuse. The 
Boys and Girls Clubs of America, when integrated into reservation life 
and when appropriately funded, have made a significant difference in 
establishing role models for juveniles, keeping them away from drugs 
and alcohol, bringing them into contact with a continuous line of 
mentors and past graduates of the tribally-based club, and serving as a 
``home away from home,'' especially for those juveniles from broken and 
dysfunctional homes or abusive families.
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Troy A. Eid and Affie Ellis
    Question 1. Can you further explain the report's finding in Chapter 
2 that ``the State of Alaska cannot simultaneously assert that, outside 
the Metlakatla Reservation, there is no Indian country in Alaska and 
that P.L. 83-280 prevails.'' This is a concept that has not received 
much public discussion.
    Answer. Public Law 83-280 by its terms only authorizes state 
jurisdiction within ``Indian country.'' See 18 U.S.C. Sec. 1162; 28 
U.S.C. Sec. 1360. Therefore, if the State of Alaska is denying that 
Indian country exists outside the Metlakatla Reservation, it must also 
be denying that state jurisdiction is authorized on those lands under 
P.L. 83-280. State jurisdiction may exist on those lands for other 
reasons, but not because of P.L. 83-280.

    Question 2. In Chapter 2, the report suggests that in order to 
``avoid ongoing and costly litigation, State-Tribal relations should be 
characterized by respect, mutual recognition, and partnership.''
    Answer. The Commission's unanimous position is that State-Tribal 
relations in Alaska and the rest of our country should be based on 
mutual recognition and respect. See Roadmap for Making Native America 
Safer, Ch. 2, pg. 47. Unfortunately, the State of Alaska instead tends 
to favor legal and policy positions that marginalize the potential for 
Alaska Native Nations to make and enforce their own criminal laws to 
prevent, deter and punish violent crime. The enclosed essay by Chairman 
Eid from Alaska Dispatch News, dated June 21, 2014, highlights some of 
the Commission's findings and recommendations on these important 
issues.
    The Commission respectfully encourages Governor Parnell and his 
administration to reassess their current preference for litigating with 
Alaska Native Nations instead of cooperating more closely with them. 
Alaska Natives, after all, are also Alaska state citizens. Seemingly 
open-ended litigation over these issues by the State of Alaska, the 
Commission noted in its report, undermines public safety. It makes it 
more rather than less difficult for different jurisdictions to work 
together to protect lives and property. In the lower 48, where tribes 
and local governments frequently set aside their differences and enter 
into inter-governmental agreements for criminal justice--in many cases, 
simply ``agreeing to disagree'' and setting aside the jurisdictional 
questions for another day--the two sovereigns have made substantial 
progress in interdicting crime, making arrests, and bringing offenders 
to justice. The result is increased confidence in criminal justice 
overall, the real benefit of crime deterrence, and increased support 
for the victims of crime. Alaska is currently on the wrong path, but it 
does not have to be this way.

    Question 3. The State of Alaska's current approach to solve these 
issues, as was noted in the report, has been to increase funding for 
VPSOs. In addition to this, the State has also launched a public 
campaign known as Choose Respect. Once a year communities across Alaska 
and in Washington D.C. rally in an effort to raise awareness about 
domestic violence issues. In your time in Alaska, did you identify 
tangible results from either of these efforts?
    Answer. While the Alaska Attorney General made mention of the 
Governor's ``Choose Respect'' Initiative in his February 1, 2013 letter 
to the Commission, the Commission itself did not see or hear of any 
change in the reports of domestic violence or sexual assault in Alaska 
Native communities as a result of the initiative. Raising awareness 
about domestic violence is certainly a worthy goal, particularly given 
that reported rates of domestic violence in Alaska are as high as 10 
times the national average, according to the Commission's report.

    Question 3a. Do you think that the Governor's ``Choose Respect'' 
campaign does anything to strengthen 'State-Tribal' relations? What 
could work better?
    Answer. Without knowing of any tangible result ofthe campaign, 
beyond the youth rallies and marches, the Commission is unable to 
speculate on its potential for success. It is clearly a worthwhile and 
laudable goal, and the Commission supports that goal wholeheartedly. 
Yet according to the most recent Legislative Report on the ``Choose 
Respect'' campaign, the campaign itself does not appear to include any 
direct outreach to or partnership with Alaska Native Nations. While the 
campaign would increase VSPO numbers and data collection, it relies 
almost exclusively on existing state agencies and community non-profit 
entities to implement its programs and channel its expenditures. In 
sum, the campaign is aimed at promoting public awareness, which is a 
good and worthwhile objective, but does little to ``strengthen 'State-
Tribal' relations''' because the State still refuses to recognize and 
respect Alaska Native Nations on a government-to-government basis.
    The Governor's office should consider consulting with tribal 
governments to discuss ways that the campaign can channel expenditures, 
program assets and goals, and overall efforts to the tribal government 
entities that can implement locally-based preventive programs, 
education, wrap-around services, and increased enforcement and 
prosecution. The campaign should also encourage appropriate inter-
governmental agreements with Alaska Native tribal councils to jointly 
implement some of the campaign elements on a government-to-government 
basis with the State of Alaska--sharing resources, accountability and 
responsibility.

    Question 4. In your opinion, would arming Village Police Safety 
Officers with guns enhance village public safety?
    Answer. Arming VPSOs would enhance not only Village public safety, 
but the safety of the VPSOs themselves. Alcohol and controlled 
substances are associated with a high proportion of offenses committed 
in Alaska Native communities, and many households and offenders already 
possess firearms. This volatile combination makes it very risky for law 
enforcement officers to respond to calls for service.
    The two VPSOs killed in the line of duty (Thomas Madole on 3-19-
2013 and Ronald Zimin on 10-22-1986) were killed by gunfire. Both VPSOs 
are honored on the National Law Enforcement Memorial in Washington, DC. 
This pattern of officer deaths is hardly unique to Alaska Native 
Villages. Three-quarters of all law enforcement officers killed in the 
line of duty in Alaska were killed by gunfire.
    Both houses of the Alaska legislature recently voted to have VPSOs 
be armed, and this legislation has been sent to the Governor for his 
signature. The Indian Law and Order Commission strongly supports this 
legislation. The bill sponsor's statement puts it well: ``VPSOs work 
often without backup in remote locations where a call to the State 
Troopers can mean hours before backup arrives. I believe my fellow 
legislators will agree that it is not reasonable to continue to ask our 
VPSOs to walk unarmed into situations that pose obvious dangers. It's 
my hope that arming these first responders will have a deterrent effect 
that makes not just the officers but whole communities safer.''

    Question 5. Are you aware of any existing models that have been 
successful in banning or limiting the importation of alcohol/drugs in 
populations seeking to reduce crime related to alcohol, which Alaska 
can look to as an option to address this problem?
    Answer. Best practices in this area appear to be lacking. The 
experience to date suggests that tribal laws banning or limiting 
alcohol possession, distribution and ``bootlegging'' are only as good 
as their practical enforcement, which is often severely deficient. 
Native Nations in the lower 48 have the option under 18 U.S.C.  1161 
to opt-out of federal liquor control laws applicable to Indian country. 
Consequently, some Indian reservations are considered ``dry,'' because 
sale and/or possession of alcohol is prohibited under federal and 
tribal law, while others allow possession and/or sale of alcohol. 
Although the causal relationship is unclear, there is no evidence that 
tribes prohibiting possession and/or sale of alcohol experience lower 
levels of substance abuse and crime. Moreover, where alcohol is 
prohibited on reservations, nearby offreservation communities often 
become places where reservation residents congregate to purchase and 
abuse alcohol, making local roads dangerous. Thus, the Indian Law and 
Order Commission did not recommend reintroducing federal laws that 
would ban all introduction of alcohol onto reservations.
    With respect to Alaska, the Commission found evidence that illegal 
shipments of alcohol and controlled substances are having extremely 
harmful effects in Alaska Native communities, and federal and state 
officials are largely ineffective in stopping such traffic. For 
example, the Captain of the North Slope Borough Police Department 
explained how bootlegging and illegal drugs are the scourge of Barrow, 
where alcohol can be imported, subject to supposedly strict regulations 
and restrictions. Most alcohol comes in through the U.S. Postal Service 
at the local post office, and in air charters, which do not have 
inspections, examinations, or dog sniffers (or metal detectors, no less 
backscatter X-ray machines). People are flying in and out of Barrow all 
day long (weather permitting) with boxes, bags and containers. Sexual 
assaults are frequently the result of binges with the alcohol smuggled 
in, consumed without limit, with the victims often unconscious or 
heavily intoxicated during the attacks. More enforcement resources are 
definitely needed to intercept and seize illegal shipments of alcohol 
and controlled substances, along with building Alaska Native tribal 
capacity to control alcohol and drug abuse at the local level.
    The Commission stands ready to continue working with the Committee 
to implement the recommendations of the Roadmap. It is imperative that 
we continue to work together to make Native American and Alaska Native 
Nations safer and more just for all U.S. citizens. Your leadership and 
that of your colleagues is making a positive difference and is greatly 
appreciated by all of us in the field. Please let us know how we can be 
of continued service.
    Attachment
Alaska Dispatch News (http://www.alaskadispatch.com)--Troy A. Eid--June 
                                21, 2014
    OPINION: We members of the Indian Law and Order Commission keep 
returning to Alaska because we're convinced that the lack of 
accountability for criminals who keep harming women and children in 
rural and urban Alaska is something Alaskans can and will fix.
    Entering a taxi cab at the Ted Stevens Airport, the driver asks: 
``How much longer are you going to keep coming to Alaska?'' A cabbie in 
Fairbanks said the same thing to me last March.
    It's refreshing how many Alaskans have heard about the Indian Law 
and Order Commission and its recent report urging the State of Alaska, 
the Federal Government, and all 229 Alaska Native Nations to work 
together to make Alaska safer and more just.
    The report of the all-volunteer, bi-partisan commission, ``A 
Roadmap for Making Native America Safer,'' highlights Alaska's violent 
crime epidemic. This includes a domestic violence rate 10 times the 
national average and sexual assault rates 12 times higher. It's a 
crisis in the Bush, but also in Anchorage and other cities where 
families flee when village life becomes unbearable. Where criminals 
keep victimizing women and children because they were never held 
accountable for their crimes back home.
    My fellow commissioners and I keep coming back because we're 
convinced this lack of accountability is something Alaskans can and 
will fix.
    Admittedly, the commission's report concluded that Alaska's current 
policy is on the wrong track. Many State policies marginalize the 
potential of Alaska Native Nations to prevent and combat crime in their 
own communities.
    Instead of respecting Tribally based sovereignty and self-
government as other states routinely do, Alaska tries to police and 
judge Native citizens from afar using too few people and resources: 
Colonialism on the cheap.
    If we've learned anything from the Big Government policy failures 
of the 1960s and 1970s, it's that federal and state leaders must help 
locally elected governments build their own crime-fighting and 
prevention efforts, not the other way around. Crime control strategies 
need to be locally tailored and enforced--and court decisions given 
full faith and credit by the State--to be effective. Yet precisely the 
opposite often happens in Alaska, which has the nation's most 
centralized law enforcement system. The commission found, for example, 
that in 75 Alaska Native Nations, the State asserts exclusive criminal 
jurisdiction but routinely provides no law enforcement services at all.
    Elsewhere there aren't enough Village Public Safety Officers 
(VPSOs) and other first responders on the ground. The lack of basic 
infrastructure supporting them in the bush is inexplicable. It's been 
more than a half-century since statehood, yet there's just one women's 
shelter in any Alaska Native village and no shelters where children can 
escape their perpetrators.
    Nor should Alaska Troopers--among the finest public servants 
anywhere--be fairly expected to work miracles from afar. When the 
commission visited the Village of Tanana in October 2012, the Tribal 
Council told us someone would probably get killed there unless the 
State helped them boost the capacity of the Village's court system and 
supported local policing and family protective services. As we talked 
that day, a repeat violent offender freely roamed Tanana's streets 
despite Tribal court restraining orders against him, orders the State 
refused to recognize.
    The tribal leaders with whom we met in Tanana and many other 
villages demanded swift State action so they could do more to help 
themselves. They wanted recognition and respect, not a handout. They 
need Tribally based police and courts with the capacity to enforce the 
civil rights of all Alaskans, Native and non-Native alike.
    This same approach already works well in much of the Lower 48, 
which is why Congress last year recognized Tribal court jurisdiction 
there by enacting the Violence Against Women Act (VAWA). VAWA permits 
Native Nations to enforce laws criminalizing domestic violence over all 
citizens with Tribes' territories so long as their courts enforce 
defendants' constitutional rights.
    This is the same Tanana where Seargent Scott Johnson and Trooper 
Gabe Rich were brutally murdered in Tanana last May 1st while 
responding to an earlier threat against an unarmed VPSO. In the same 
state where violence in many villages has decimated the citizenry so 
that average life expectancies are closer to Haiti's than the rest of 
the United States.
    So why are we so bullish that times are changing for the better for 
Alaska Natives and indeed all Alaskans?
    It isn't just a growing awareness of the problem, necessary though 
that is. Plenty of Alaskans, including those who email me daily, are 
saying that enough is enough.
    This past February, Alaska's senior U.S. Senator, Lisa Murkowski--
who co-sponsored VAWA--declared it now needs to be extended to Alaska 
Native Nations. Both Alaska's Senators are now vowing to make that 
happen.
    This could be a watershed. Recognizing Alaska Native Nations' power 
over all citizens to bring perpetrators of domestic violence to justice 
will, over time, confirm and accelerate the larger trend in Alaska and 
across the country to help Native Nations make and enforce their own 
laws. Where that's already happened elsewhere, the commission 
documented that violent crime rates have gone down. The same can happen 
in Alaska.
    In recent years, the State has insisted that Alaska Native Nations 
lack any territorial sovereignty, or legal control over their lands--a 
conclusion contradicted by Federal law, as the commission's report and 
previous studies by Alaska's own experts make clear. Extending VAWA to 
Alaska, however, will make it essential for the State and Alaska Native 
villages to determine jointly--on a government-to-government basis--the 
precise boundaries in which tribes' have civil and criminal 
jurisdiction to make and enforce their own domestic violence laws over 
Native and non-Native people living and working there.
    This line-drawing can happen in many different ways--by negotiating 
inter-governmental agreements between Native Nations and the State, for 
example--and need not replicate the Indian reservation system in the 
Lower 48, as is sometimes mistakenly suggested.
    Once territorial lines are drawn for VAWA purposes, they can be 
enforced not by State fiat or decree, but through a process of give-
and-take based on mutual recognition and respect. Both sides will have 
a seat at the table. State policy will begin to shift toward building 
more Tribally based capacity for self-governance in order to keep the 
peace and respect everyone's civil rights.
    Looking forward, as such jurisdictional lines are drawn between the 
State and Alaska Native Nations as VAWA requires, those same 
territorial boundaries can be used for other public safety purposes--to 
combat the scourage of drugs and alcohol and host of other ills 
plaguing the bush and radiating into the cities.
    Thanks in part to VAWA, we believe a much brighter future may be 
replacing the old Colonial model and the violence it begets, a future 
worthy of Alaska's independent heritage and values. This future will be 
built the Alaska way--not imposed by outsiders. But it can and we 
believe will be accomplished.
    It will be a privilege to keep coming back to Alaska and see how 
much you will keep achieving by working together.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                         Hon. Timothy Q. Purdon
    Question 1. In my state of North Dakota, there are high levels of 
repeat offenders involved in substance abuse-related offenses. On the 
Standing Rock Indian Reservation, according to a recent survey:

  <bullet> Alcohol is a factor in 80-percent of all criminal arrests--a 
        rate over 220 percent that of the DOJ's statistical average.

  <bullet> In arrests where alcohol is a factor, the average alcohol 
        level at the time of booking was over 310 percent of the legal 
        limit; while 1 in 5 register potentially fatal levels.

  <bullet> 39 percent of the adults on the reservation are booked 
        annually for a substance abuse related offense.

  <bullet> Nearly half of those individuals were arrested at least one 
        more time within the calendar year--again for a substance abuse 
        offense.

    Rather than just treating the problem, we need to treat the source 
by addressing underlying substance abuse issues in order to reduce 
recidivism rates.

    What steps have been taken to promote reentry programs in tribal 
communities to combat recidivism?
    Answer. Incarceration is not the answer in every criminal case. 
Across the nation, at least 17 states have shifted resources away from 
prison construction in favor of treatment and supervision as a better 
means of reducing recidivism. The Attorney General is encouraging the 
United States Attorney's Offices to help reduce recidivism through 
various alternatives. In appropriate instances involving non-violent 
offenses, prosecutors are encouraged to consider alternatives to 
incarceration, such as drug courts, specialty courts, or other 
diversion programs. Accordingly, the Department will soon issue a 
``best practices'' memorandum to U.S. Attorney Offices, including those 
offices with Indian Country responsibilities, encouraging more 
widespread adoption of these diversion policies when appropriate.
    In its memorandum, the Department will endorse certain existing 
diversion programs as models. For example, in the Central District of 
California, the United States Attorney's Offices (USAO), the court, the 
Federal Public Defender, and the Pretrial Services Agency (PSA) have 
together created a two-track specialty court/post-plea diversion 
program, known as the Conviction and Sentence Alternatives (CASA) 
program. Selection for the program is not made solely by the USAO, but 
by the program team, comprised of the USAO, the Public Defender, PSA, 
and the court. Track one is for candidates with minimal criminal 
histories whose criminal conduct appears to be an aberration that could 
appropriately be addressed by supervision, restitution and community 
service. Examples of potential defendants include those charged with 
felony, though relatively minor, credit card or benefit fraud, mail 
theft, and narcotics offenses. Track two is for those defendants with 
somewhat more serious criminal histories whose conduct appears 
motivated by substance abuse issues. Supervision in these cases 
includes intensive drug treatment. Examples of eligible defendants are 
those charged with non-violent bank robberies, or mail and credit card 
theft designed to support a drug habit.
    The Department will also recommend the use of specialty courts and 
programs to deal with unique populations. Examples include a treatment 
court for veterans charged with misdemeanors in the Western District of 
Virginia, and the Federal/Tribal Pretrial Diversion program in the 
District of South Dakota, which is designed specifically for juvenile 
offenders in Indian country.
    To lead these efforts on a local level, the Department is 
establishing a prevention and reentry coordinator within each of the 
USAO's, including in Indian country, to focus on prevention and reentry 
efforts. As part of this enhanced commitment, Assistant U.S. Attorneys 
(AUSA) will be encouraged to devote time to reentry issues in addition 
to casework. The Executive Office of U.S. Attorneys will report 
periodically on the progress made in USAOs on this program.
    In addition, the Department of Justice's Bureau of Justice 
Assistance (BJA) offers grant resources and training and technical 
assistance to tribes and tribal justice systems to support effective 
interventions for drug involved offenders. This includes funding to 
support planning, interventions, enforcement and prevention resources 
through its Coordinated Tribal Assistance Solicitation (CTAS) in 
purpose areas 2 and 3. This includes the use of a healing to wellness 
court model, a drug court model developed specifically for tribal 
justice systems; prevention and treatment programming for those in the 
tribal justice system; and effective supervision in the community 
through the creation and enhancement of tribal probation agencies.
    Other efforts to aid reentry are also being launched. The 
consequences of a criminal conviction can remain long after someone has 
served his or her sentence. Rules and regulations pertaining to 
formerly incarcerated people can limit employment and travel 
opportunities, making a proper transition back into society difficult. 
The Department worked with the American Bar Association to publish a 
catalogue of these collateral consequences imposed at the state and 
federal level. To address these barriers to reentry, the Attorney 
General issued a new memorandum to Department of Justice components, 
requiring them to factor these collateral consequences into their 
rulemaking. If the rules imposing collateral consequences are found to 
be unduly burdensome and not serving a public safety purpose, they 
should be narrowly tailored or eliminated.
    The Attorney General's Interagency Reentry Council has published 
helpful materials on reentry efforts related to employment, housing, 
and parental rights. In an update to these materials, the Department 
will publish new fact sheets on ways to reduce unnecessary barriers to 
reentry in two areas: (1) to connect the reentering population with 
legal services to address obstacles such as fines and criminal records 
expungement when appropriate; and (2) to highlight efforts to reduce or 
eliminate fines at the local level.
    BJA provides resources to support the reentry of tribal members 
from tribal jails as well as federal, Bureau of Indian Affairs (BIA) 
and state prisons. Under CTAS and the Second Chance Act funds, BJA has 
funded a number of tribes in building tribal reentry strategies, often 
in coordination with the U.S. Attorney or state Departments of 
Corrections. Recently, BJA issued a fact sheet that summarizes the 
resources available to tribes to support tribal reentry efforts as well 
as some promising practices. https://www.bja.gov/Publications/
TribalReentryFS.pdf BJA is also working with other federal partners to 
launch a new training program for tribal and federal partners to 
support planning of strategies to support reentry of tribal members 
from federal and state prisons.

    Question 2. Federal courts are often located many hours away from 
where crimes occur on Indian reservations. As a result, defendants and 
witnesses must be transported to federal court, which is time consuming 
and expensive. Tribal courts provide a local solution to tribal law and 
order issues yet, they often lack capacity. What can be done to 
strengthen tribal court systems?
    Answer. The Department is dedicated to helping tribes enhance 
tribal self-governance, particularly through efforts to improve tribes' 
court systems. In that regard, the Office of Justice Programs (OJP), 
funds grants to promote crime fighting and public safety strategies and 
is committed to preventing and controlling crime, violence, and 
substance abuse and improving the functioning of criminal justice 
systems in American Indian and Alaska Native communities. OJP works 
closely with the tribes to help foster leadership, good management, and 
quality services in grant administration and policy development. OJP 
also coordinates with other U.S. Department of Justice components and 
other agencies and organizations to ensure that limited federal funds 
are used to achieve the maximum possible benefit. As part of CTAS 
purpose area 3, tribes can apply to BJA for a range of funding to 
support the creation and enhancement of tribal justice systems. In 
addition, BJA administers a wide array of training and technical 
assistance programs for tribal judges, prosecutors, defense counsel and 
court administrators. OJP works collaboratively with American Indian 
and Alaska Native officials to develop, implement, and enhance justice 
systems that reflect community values, needs, and expectations; and 
provides assistance to plan and construct tribal justice facilities 
including tribal jails, transitional housing, and multipurpose justice 
centers.
    An additional way that the Department can help strengthen tribal 
courts is through the use of Tribal Special Assistant United States 
Attorneys (SAUSAs). Tribal SAUSAs are tribal prosecutors who are 
employees of a Tribe, but who are cross-designated as Special Assistant 
United States Attorneys. With the assistance of a full-time AUSA, 
SAUSAs can prosecute certain Indian Country cases in federal court. 
SAUSAs benefit from Department training at the National Advocacy 
Center, and the close working relationships that develop in a Tribal 
SAUSA program. In 2012, the Office on Violence Against Women (OVW) 
announced that four tribes in Nebraska, New Mexico, Montana, North 
Dakota and South Dakota were awarded cooperative agreements to cross-
designate tribal prosecutors to pursue violence against women cases in 
both tribal and federal courts. Through this special initiative, OVW 
supports salary, travel, and training costs of four tribal SAUSAs, who 
will work in collaboration with the U.S. Attorneys Offices in the 
Districts of Nebraska, New Mexico, Montana, North Dakota, and South 
Dakota. These prosecutors maintain an active violence against women 
crimes caseload, in tribal and/or federal court, while also helping to 
promote higher quality investigations, improved training, and better 
inter-governmental communication.
    To better understand the capacity, needs and challenges faced by 
tribal court systems, several major projects are underway to help the 
Department gather needed data to respond effectively for long term 
solutions. In FY 2014, the Bureau of Justice Statistics (BJS) continued 
the development of the 2014 National Survey of Tribal Court Systems 
(NSTCS). The NSTCS will be BJS's first statistical collection focusing 
on tribal justice systems since 2002. Through the NSTCS, BJS will 
gather vital information on the administrative and operational 
characteristics of tribal justice systems (including budgets, staffing, 
caseloads and case processes), indigent defense services, tribal-state 
joint jurisdiction courts, pretrial and probation programs, reentry 
programs, protection orders and domestic violence, and juvenile cases; 
implementation of various enhanced sentencing provisions of the Tribal 
Law and Order Act (TLOA); and various indigenous or traditional dispute 
forums operating within Indian country. The NSTCS will be sent to all 
566 federally recognized tribes, including those with known tribal 
justice systems and those with unknown judicial forums, as well as the 
Courts of Federal Regulations. This project was recently announced in 
the Federal Register in March 2014.
    Additionally, the Office of Sex Offender Sentencing, Monitoring, 
Apprehending, Registering and Tracking (SMART) works with 165 Federally 
Recognized tribes to implement the Sex Offender Registration and 
Notification Act (SORNA). The SORNA implementing tribes that have 
courts cooperate in the formation of these registries including 
adapting new tribal codes, enactment and enforcement of failure to 
register penalties and other essential functions in the registering, 
notification and management of sex offenders. The SMART Office has 
provided funding to many of these tribe to help their courts build 
infrastructure that not only contributes to their sex offender 
registration programs but enhances their criminal justice systems on a 
broader basis.

    Question 3. The Mandan Hidatsa and Arikara Nation is in the middle 
of an unprecedented growth as a result of the oil boom in the Bakken 
Formation. The influx of new people in the region has attracted high 
crime, placing great strain on state, local, and tribal resources 
available to respond. It has also highlighted the need for greater 
cooperation between all three entities to combat crime. The Roadmap 
recommends embracing intergovernmental cooperation and coordination as 
a solution to the jurisdictional issues which tribes and states face 
when policing large areas. What is being done to promote Memorandums of 
Understanding between tribes and states? Specifically, what is the 
Attorney General doing to incentivize state and local governments to 
work closer with tribes?
    Answer. Section 222 of the Tribal Law and Order Act of 2010 
provides that the Attorney General ``may provide technical and other 
assistance to State, tribal, and local governments that enter into 
cooperative agreements, including agreements relating to mutual aid, 
hot pursuit of suspects, and cross-deputization for the purposes of--

        (1) Improving law enforcement effectiveness;
        (2) Reducing crime in Indian country and nearby communities; 
        and
        (3) Developing successful cooperative relationships that 
        effectively combat crime in Indian country and nearby 
        communities.''

    The DOJ COPS Office funded the creation of a training curriculum 
and technical assistance effort that focuses on collaboration among 
tribal and local law enforcement, including the development ofMOUs/
MOAs/Cross-Deputizations that is provided by the Western Community 
Policing Institute (WCPI). Through this program, now funded by BJA, 
WCPI offers regional trainings that focus on building effective and 
efficient collaborative law enforcement partnerships throughout Indian 
Country to address the unique public safety threats to tribal 
communities and their neighboring jurisdictions. The training 
curriculum includes understanding cultural diversity issues, 
identifying stakeholders, the need for regional collaboration, and how 
to develop effective memoranda of understandings and agreements. In 
addition, COPS has a library of resources available to assist tribes 
and other stakeholders in developing and sustaining regional community 
policing partnerships.
    The COPS Office also has a Tribal Public Law 280 Policing 
Partnerships project that is in development. To strengthen the 
relationship between tribal law enforcement, non-tribal law 
enforcement, and U.S./States Attorneys in Public Law 280 sites, 
Strategic Applications International (SAI) will leverage its vast 
experience in facilitating strategy and action planning summits to 
address crime, drugs, and other social issues in partnership with law 
enforcement and key stakeholders, together with their experience in 
working with tribal law enforcement. The program will include 
approximately four sites where a two-day site specific Community 
Oriented Policing Training augmented with cultural dialogue training 
and action planning will be delivered. Participants will include 
Sheriffs, Chiefs of Police, U.S. Attorneys, and Tribal Leaders. The 
results of the on-site technical assistance will aid in the development 
of a web-based training curriculum tailored to Public Law 280 
communities to enhance tribal and non-tribal law enforcement 
cooperation. The program goal is to improve public safety on tribal 
lands by developing a training program that builds the knowledge, 
skills and abilities of tribal law enforcement agencies to build more 
effective relationships with non-tribal law enforcement to advance 
community policing. This project is in its initial stages as the four 
on-site locations are selected and training and technical assistance 
begins.
    BJA also has a robust portfolio of training and technical 
assistance to support intergovernmental collaboration agreements. 
Working with the Tribal Law and Policy Institute, BJA is sponsoring 
state-tribal court forums and meetings to support interagency 
collaboration agreements, meetings and sharing of codes and resource 
materials. BJA also sponsors the ``Walking on Common Ground'' Web Site 
(www.WalkingOnCommonGround.org) that serves as an ongoing comprehensive 
resource highlighting promising practices in tribal/state court 
collaboration and providing resource toolkits for those wishing to 
replicate such practices. This site provides extensive information and 
resources concerning tribal/state/federal court collaboration and 
encourages intergovernmental collaboration and cooperation. BJA is also 
working with the Oregon Health and Science University to support the 
promotion of the joint jurisdiction court model. COPS is also working 
with the National Sheriff's Association on the initial stages of a 
project to develop model cross-deputization agreements. Finally, DOJ 
works with tribal and local partners on specific MOUs when requested to 
do so.
    The rapid development in the Bakken Region caused by the oil boom 
has resulted in substantial strain upon the residents of the 
surrounding areas, including the Fort Berthold Indian Reservation (Fort 
Berthold). The United States Attorney for North Dakota also recently 
noted a significant increase in the number of sexual assault cases that 
have been referred to that office for criminal prosecution. In response 
to this great need, the Department's Office for Victims of Crime has 
partnered with the Bureau of Indian Affairs to expand its National 
Victim Assistance Program by hiring a full-time Victim Specialist that 
will be based at Fort Berthold. This dedicated staff member will work 
with federal, state, local, and tribal officials to meet the needs of 
victims of crime at Fort Berthold and support local efforts to create a 
greater sense of safety and security among the residents of the 
reservation.
    OVW is launching a special initiative to address violence against 
women, including sexual and domestic violence and stalking, within the 
Bakken region. OVW will support two specific components which comprise 
this initiative: (1) Enhanced Response to Victims, and (2) Tribal 
Special Assistant U.S. Attorneys.
    The OVW Violence Against Women Bakken Region Initiative: Enhanced 
Response to Victims will support projects that are designed to address 
the unique challenges faced by victims, responders, and serve providers 
within this rural region, including challenges of geographic isolation, 
transportation barriers, economic structure, high cost of living, 
homelessness, and other social and cultural pressures. OVW encourages 
applicants to implement innovative approaches, through capacity-
building and partnerships, to address the critical needs of victims in 
this region. Eligible applicants for this part of the initiative are:

  <bullet> First Nations Women's Alliance in North Dakota
  <bullet> Assiniboine and Sioux Tribes of the Fort Peck Indian 
        Reservation in Montana
  <bullet> The North Dakota Council on Abused Women's Services
  <bullet> The Montana Coalition Against Domestic and Sexual Violence
  <bullet> Three Affiliated Tribes of the Fort Berthold Reservation 
        North Dakota

    Through the Tribal Special Assistant U.S. Attorneys (Tribal SAUSAs) 
part of the initiative, OVW will support two Tribal SAUSAs to address 
the increased rise of violence against women on Indian reservations in 
Eastern Montana and Western North Dakota, in collaboration with the 
U.S. Attorney's Offices (USAOs) in those states. OVW will award grants 
to two tribes, selecting qualified applicants approved by participating 
USAOs. These cross-designated prosecutors will maintain an active 
violence against women crimes caseload, in tribal and/or federal court, 
while also helping to promote higher quality investigations, improved 
training, and better intergovernmental communication. These two awards 
are intended to increase the successful prosecution of domestic 
violence, dating violence, sexual assault and stalking in Indian 
country affected by the population boom in the Bakken region. Eligible 
tribes for SAUSAs are:

  <bullet> Assiniboine and Sioux Tribes of the Fort Peck Indian 
        Reservation in Montana
  <bullet> Three Affiliated Tribes of the Fort Berthold Indian 
        Reservation in North Dakota

    The Mandan, Hidatsa and Arikara Nation (Three Affiliated Tribes) 
are working on implementing the Sex Offender Registration and 
Notification Act (SORNA) and has received training and technical 
assistance as well as grant funding from the Office of Sex Offender 
Sentencing, Monitoring, Apprehending, Registering and Tracking (SMART) 
to help the Tribes to build, implement and manage a sex offender 
registration and notification program. SORNA authorized implementing 
tribes including Three Affiliated to register a convicted sex offender 
(Native American or not) who lives, works or goes to school on Tribal 
land. It further created a federal violation for convicted offenders 
who fail to register; violations can be enforced by the U.S. Marshall 
Service (USMS) with the cooperation of the Tribes' registry office. 
Work on implementing a sex offender registration and notification 
program involves enhancement of tribal criminal justice infrastructure, 
information sharing, and collaboration with state, local and federal 
law enforcement. The Tribes have utilized the Tribe and Territory Sex 
Offender Registry System (TTSORS) provided by the SMART Office to set 
up a sex offender registry and public website which is linked to the 
National Sex Offender Public Website (NSOPW). At this writing, the 
Tribes have 35 sex offenders registered and publically posted on their 
website. The Tribes manage by their sex offender registration program, 
which is available to the public to help enhance public safety.

    Question 4. Last year, Congress reauthorized the Violence Against 
Women Act which included an important provision expanding tribal 
sentencing and jurisdiction. What assistance is available to help large 
land based tribes and other tribes with limited resources to implement 
these important reforms?
    Answer. In the Violence Against Women Act Reauthorization of 2013 
(VAWA 2013), Congress authorized up to $25 million total for tribal 
grants in fiscal years 2014 to 2018, but Congress has not yet 
appropriated any of those funds. However, tribes may continue to apply 
for funding through the Department's Coordinated Tribal Assistance 
Solicitation (CTAS), which can support VA WA 2013 implementation. CTAS 
includes most of the tribal programs from the Department's Office of 
Justice Programs, Office of Community Oriented Policing Services 
(COPS), and the Office on Violence Against Women. In particular, tribes 
can apply under Purpose Area 3 for tribal justice systems and can apply 
under Purpose Area 5 for responses to violence against women. The 
programs served I 0 purpose areas and tribes were able to submit a 
single application while selecting multiple purpose areas, ranging from 
juvenile justice to violence against women.
    Following the passage of VAWA 2013, the Department initiated and 
encouraged tribes to join the Intertribal Technical-Assistance Working 
Group (ITWG) on Special Domestic Violence Criminal Jurisdiction 
(SDVCJ). This peer-to-peer group allows tribes to exchange views, 
information, and advice about how tribes can best exercise SDVCJ, 
combat domestic violence, recognize victims' rights and safety needs, 
and fully protect defendants' rights. Tribes participating in the ITWG 
also have an opportunity to engage with the Departments of Justice and 
the Interior and to receive technical advice on specific issues or 
concerns as needed. The Department supports the ITWG with training and 
technical assistance to the extent possible with available resources. 
Participation in the ITWG is completely voluntary and not a 
prerequisite for tribes seeking to implement SDVCJ.
    To complement these resources, BJA is also sponsoring training and 
technical assistance to the tribes seeking to implement the new 
authorization. BJA is also sponsoring training and technical 
assistance, including webinars and publications, on strategies to 
support tribes seeking to implement the enhanced sentencing authority 
under the Tribal Law and Order Act. This includes implementation of a 
number of the same requirements for implementation of this new domestic 
violence authority, as well as training for tribal probation and 
corrections on incarcerating and supervising these high risk offenders.
    The Office on Violence Against Women currently administers 21 grant 
programs authorized by the Violence Against Women Act of 1994 and 
subsequent legislation. These grant programs are designed to continue 
to develop the nation's capacity to reduce domestic violence, dating 
violence, sexual assault, and stalking by strengthening services to 
victims and holding offenders accountable for their actions. Presently 
four of these programs are targeted to Native American populations and 
tribes and are detailed within this section.
    The Tribal Domestic Violence and Sexual Assault Coalitions Grant 
Program (Tribal Coalitions Program), authorized in the Violence Against 
Women Act of 2000 (VAWA 2000), builds the capacity of survivors, 
advocates, Indian women's organizations, and victim service providers 
to form nonprofit, nongovernmental tribal domestic violence and sexual 
assault coalitions to end violence against American Indian and Alaska 
Native women. OVW's Tribal Coalitions Program grants are used to: 
increase awareness of domestic violence and sexual assault against 
American Indian and Alaska Native women; enhance the response to 
violence against women at the tribal, federal, and state levels; and 
identify and provide technical assistance to coalition membership and 
tribal communities to enhance access to essential services.
    The Tribal Governments Program provides resources to: decrease the 
number of violent crimes committed against Indian women; help Indian 
tribes use their independent authority to respond to crimes of violence 
against Indian women; and make sure that people who commit violent 
crimes against Indian women are held responsible for their actions. It 
is administered within the CTAS. In Fiscal Year 2014, it was Purpose 
Area 5 of the CTAS.
    The Sexual Assault Services Act has two funding streams that 
support tribes: the Tribal Sexual Assault Services Program, which 
provides funding for direct sexual assault victim services; and the 
Sexual Assault Services Program Grants to Tribal Coalitions, which 
supports tribal sexual assault coalitions.
    The landmark American Recovery and Reinvestment Act of 2009 
(Recovery Act), signed into law by President Obama, provided OVW with 
$20.8 million for the Indian Tribal Governments Program. The Recovery 
Act provided OVW with $2.8 million for the Tribal Domestic Violence and 
Sexual Assault Coalitions Program to provide much needed resources for 
organizing and supporting efforts to end violence against Indian women 
and provide technical assistance to member programs.

    Question 5. As tribes begin to implement expanded jurisdictional 
authority under the Violence Against Women Act, there will likely be 
legal challenges. How is the Attorney General preparing to defend that 
jurisdiction without jeopardizing federal support and resources to 
tribes?
    Answer. Since the Supreme Court's 1978 opinion in Oliphant v. 
Suquamish Indian Tribe, tribes have been prohibited from exercising 
criminal jurisdiction over non-Indian defendants. This included 
domestic violence and dating violence committed by non-Indian abusers 
against their Indian spouses, intimate partners, and dating partners. 
Even a violent crime committed by a non-Indian husband against his 
Indian wife, in the presence of her Indian children, in their home on 
the Indian reservation, could not be prosecuted by the tribe. In 
granting the pilot-project requests of the Pascua Yaqui, Tulalip, and 
Umatilla tribes, the United States is recognizing and affirming the 
tribes' inherent power to exercise ``special domestic violence criminal 
jurisdiction'' (SDVCJ) over all persons, regardless of their Indian or 
non-Indian status, for crimes committed on or after Feb. 20, 2014.
    As described in the Department of Justice's Final Notice on the 
pilot project, the decisions are based on a diligent, detailed review 
of application questionnaires submitted by the tribes in December 2013, 
along with excerpts of tribal laws, rules, and policies, and other 
relevant information. That review, conducted in close coordination with 
the Department of the Interior and after formal consultation with 
affected Indian tribes, led the Justice Department to determine that 
the criminal justice systems of the Pascua Yaqui, Umatilla, and Tulalip 
tribes have adequate safeguards in place to fully protect defendants' 
rights under the Indian Civil Rights Act of 1968, as amended by VA WA 
2013.
    The Department of Justice posted notices of the pilot-project 
designation on its website and in the Federal Register. In addition, 
each tribe's application questionnaire and related tribal laws, rules, 
and policies will be posted on the Web site. These materials will serve 
as a resource for those tribes that may also wish to participate in the 
pilot project or to commence exercising SDVCJ in March 2015 or later, 
after the pilot project has concluded.

    Question 6. In North Dakota, there are no juvenile justice 
facilities available to house juvenile offenders. The closest place a 
child can be taken right now is Lower Brule, South Dakota. For families 
who live on the Turtle Mountain Reservation, that is a 10 hour drive 
one way. Transporting children 10 hours away puts a great strain on 
families, and is a waste of very limited time and resources which could 
be better spent developing local solutions with better outcomes.
    One solution is to develop alternatives to incarceration to reduce 
the need for such facilities. The Roadmap found rehabilitation through 
community service in a local community is more likely to prevent 
recidivism and therefore suggests funding for juvenile diversion 
programs to rehabilitate youth offenders. What is the Attorney General 
doing to assist tribes with developing juvenile diversion programs to 
keep children out of federal detention?
    Answer. As mentioned in question one, the Department is working to 
publish a memorandum directing the use of alternative disposition short 
of incarceration. The incarceration of juveniles is particularly 
difficult and very disruptive to the community.
    To assist the tribes dealing with juvenile diversion programs, the 
Department will recommend the use of specialty courts and programs to 
deal with unique populations. Examples include the Federal/Tribal 
Pretrial Diversion program in the District of South Dakota, which is 
designed specifically for juvenile offenders in Indian country. The 
district coordinates with the U.S. Probation Office, tribal 
prosecutors, and tribal courts to focus federal resources on the 
rehabilitative needs of juveniles in Indian country.
    To lead these efforts on a local level, the Department is calling 
for U.S. Attorneys to designate a prevention and reentry coordinator 
within each of their offices to focus on prevention and reentry 
efforts. As part of this enhanced commitment, Assistant U.S. Attorneys 
will be encouraged to devote time to reentry issues in addition to 
casework. The Executive Office of U.S. Attorneys will report 
periodically on the progress made in USAOs on the reentry front.
    In North Dakota, in the fall of 2012, the USAO launched a pilot 
program aimed at reaching young people on the Standing Rock 
Reservation. An AUSA in the office, who is himself an enrolled member 
in a North Dakota tribe, spearheaded the program. Since that time, he 
has organized a regular series of presentations to the student bodies 
of Standing Rock High School and Standing Rock Middle School designed 
to educate the students on protecting their personal safety and on the 
legal and physical/psychological hazards associated with certain 
conduct. The Standing Rock students have been receptive to these 
presentations, and we believe the program increased the students' trust 
in the law enforcement presenters.

    Question 6a. I recognize some children with a history of violent 
crime may not be the best fit for participation in a diversion program. 
What is the Attorney General doing to develop juvenile detention space 
in North Dakota?
    Answer. The Department agrees that few issues are more critical to 
the long-term improvement of public safety in Indian Country than 
working with young people to break the cycle of violence and 
hopelessness we have come to see on some reservations. Recognizing the 
importance of this issue, the Department is working to improve juvenile 
justice in Indian Country.
    Federal juveniles are a special population with special designation 
needs. Each juvenile is placed in a facility that provides the 
appropriate level of programming and security. Several factors--such as 
age, offense, length of commitment, mental and physical health--are 
considered when making placements. Typically, federal juvenile 
offenders have committed violent offenses and have a history of 
responding to interventions and preventive measures in the community 
unfavorably. As a last resort, they are sentenced by the federal courts 
to the custody of the Bureau of Prisons (BOP).
    The Department recognizes that treatment needs of the juvenile 
offender population must be continually monitored to ensure programs 
effectively meet existing needs. Juvenile offenders are placed at the 
most appropriate type of facility, which include the following: secure 
juvenile facilities that provide rehabilitation and accountability for 
federal juvenile offenders in a secure setting; and, non-secure 
juvenile facilities that, to achieve treatment and correctional 
objectives, provide rehabilitation and accountability for federal 
juvenile offenders by confining them in appropriate settings that allow 
offender access to and activities within the community under monitored 
conditions.
    The BOP makes every effort to ensure the individual is prepared to 
manage that release successfully. The BOP attempts to place all federal 
juveniles close to home to facilitate community reintegration and their 
eventual reuniting with their families.
    In fact, the process of family reunification begins during 
incarceration. In addition to encouraging family visitation, other 
services (e.g., individual and family counseling for juveniles, their 
families, and/or significant others) are made available when feasible. 
Counseling is provided by qualified professionals with an appropriate 
state license, if required. Additional consultation services are 
obtained when the need arises. Due to the high percentage of Native 
American juveniles in the system, reasonable provisions for visitation 
by the extended family, tribal elders, and tribal members are also 
made, provided this does not interfere with or disrupt the safe 
operation of the facility.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Tim Johnson to 
                         Hon. Timothy Q. Purdon
    Question. As you know, jurisdictional issues can be a nightmare for 
both tribal and local law enforcement agencies. The Tribal Law and 
Order Act encourages the use of cooperative agreements. How is the DOJ 
providing technical assistance to tribal, local, and state agencies and 
what type of barriers have you witnessed in the process between 
agencies coming to an agreement?
    Answer. The Department is working towards ensuring that both tribal 
and federal criminal justice systems are equipped with the authority 
and resources needed to ensure public safety in Indian country. To this 
end, the Department continues its work to strengthen relationships with 
federally recognized tribes, improve the coordination of training and 
information-sharing, and enhance tribal capacity, so that together the 
tribal and federal governments can provide effective law enforcement 
and prosecutions in Indian country.
    Strengthening partnerships and tribal self-governance was a major 
theme of the Attorney General's message to tribal leaders on November 
13, 2013, at the White House Tribal Nations Conference, where he 
announced a proposed statement of principles to guide the Department's 
work with federally recognized tribes. As the Attorney General said, 
``As a result of these partnerships--and the efforts of everyone here--
our nation is poised to open a new era in our government-to-government 
relationships with sovereign tribes.''
    United States Attorneys' Offices are engaged in an unprecedented 
level of collaboration with tribal law enforcement, consulting 
regularly with them on crime-fighting strategies in each District, 
joining in Federal/tribal task forces, sharing case and grant 
information, training investigators, and cross-deputizing tribal police 
and prosecutors to enforce Federal law and to allow those deputized 
individuals to bring cases directly to Federal court. For example, the 
Department's enhanced Tribal Special Assistant United States Attorney 
(SAUSA) program is an important tool contributing to improved 
collaboration. Tribal SAUSAs, who are cross-deputized tribal 
prosecutors, are able to prosecute crimes in both tribal court and 
federal court as appropriate. These Tribal SAUSAs serve to strengthen a 
tribal government's ability to fight crime and to increase the USAO's 
coordination with tribal law enforcement personnel. The work of Tribal 
SAUSAs can also help to accelerate a tribal criminal justice system's 
implementation of TLOA and VAWA 2013. The Department's prioritization 
of Indian country crime and the increase in federal resources are 
indicative of our efforts to bolster the faith and confidence that 
tribal leaders and tribal community members have in the criminal 
justice system.
    The COPS Office is also developing a Tribal Public Law 280 Policing 
Partnerships project. To strengthen the relationship between tribal law 
enforcement, non-tribal law enforcement, and U.S./States Attorneys in 
Public Law 280 sites, Strategic Applications International (SAI) will 
leverage its vast experience in facilitating strategy and action 
planning summits to address crime, drugs, and other social issues in 
partnership with law enforcement and key stakeholders, together with 
our experience in working with tribal law enforcement. The program will 
include approximately four sites where a two-day site specific 
Community Oriented Policing Training augmented with cultural dialogue 
training and action planning will be delivered. Participants will 
include Sheriffs, Chiefs of Police, U.S. Attorneys, and Tribal Leaders. 
The results of the onsite technical assistance will aid in the 
development of a web-based training curriculum tailored to Public Law 
280 communities to enhance tribal and non-tribal law enforcement 
cooperation. The program goal is to improve public safety on tribal 
lands by developing a training program that builds the knowledge, 
skills and abilities of tribal law enforcement agencies to build more 
effective relationships with non-tribal law enforcement to advance 
community policing. This project is in its initial stages as the four 
on-site locations are selected and training and technical assistance 
begin.
    The COPS Office funded the creation of a training curriculum and 
technical assistance effort that focuses on collaboration among tribal 
and local law enforcement, including the development of MOUs/MOAs/
Cross-Deputization agreements that is provided by the Western Community 
Policing Institute. Through this program, now funded by BJA, WCPI 
offers regional trainings that focus on building effective and 
efficient collaborative law enforcement partnerships throughout Indian 
Country to address the unique public safety threats to tribal 
communities and their neighboring jurisdictions. The training curricula 
will include understanding cultural diversity issues, identifying 
stakeholders, the need for regional collaboration, and how to develop 
effective memorandums of understandings and agreements.
    BJA also has a robust portfolio of training and technical 
assistance to support intergovernmental collaboration agreements. 
Working with the Tribal Law and Policy Institute, BJA is sponsoring 
state-tribal court forums and meetings to support interagency 
collaboration agreements, meetings and sharing of codes and resource 
materials. BJA also sponsors the ``Walking on Common Ground'' Web Site, 
which serves as an ongoing comprehensive resource highlighting 
promising practices in tribal/state court collaboration and providing 
resource toolkits for those wishing to replicate such practices. This 
site provides extensive information and resources concerning tribal/
state/federal court collaboration and encourages intergovernmental 
collaboration and cooperation. BJA is also working with the Oregon 
Health and Science University to support the promotion of the joint 
jurisdiction court model.
    DOJ's Office for Victims of Crime (OVC)'s American Indian/Alaska 
Native Sexual Assault Nurse Examiner-Sexual Assault Response Team 
Initiative (AI/AN SANE-SART) addresses the comprehensive needs of 
tribal victims of sexual violence, a crime that research has shown to 
be epidemic in many AI/AN communities and has been mired in part due to 
jurisdictional complexities. From the outset of the project in 2010, 
OVC and its federal, state, local, and tribal partners have focused on 
the challenge of working together to provide coordinated, 
communitybased, victim-centered responses to sexual violence. The 5-
year project includes five components: (1) pilot testing the 
development and implementation of a SANE-SART response at three tribal 
demonstration sites in both PL 280 and non PL 280 states; (2) providing 
national SANE-SART coordinators for the Indian Health Service and the 
Federal Bureau of Investigation; (3) offering tailored training and 
technical assistance for tribal communities interested in developing a 
coordinated community response to sexual violence; (4) establishing the 
National Coordination Committee on the American Indian/Alaska Native 
Sexual Assault Nurse Examiner--Sexual Assault Response Team Initiative 
as a federal advisory committee for the initiative; and (5) developing 
a national strategy for improving the systemic response--at the tribal, 
state, and federal levels--to sexual assault committed against AI/AN 
women. To date, the National Coordination Committee has developed 
recommendations that focus on four major areas: (1) federal agency 
collaboration at the local level; (2) Department of Justice personnel 
policy changes; (3) Department of Justice grant solicitations and 
funding; and (4) public safety and public health. OVC expects that the 
Committee will present their recommendations to Attorney General Holder 
in the next 1-3 months.
    The SMART Office has encouraged states to assist tribes to 
implement SORNA. When specific problems are noted by tribes, the SMART 
Office will contact the state sex offender registry representatives and 
facilitate communication with the tribes. At the SMART Office 
Workshops, sessions are specifically held to have state sex offender 
registry officials meet with the tribes implementing SORNA in their 
states. The SMART Office has also encouraged states to utilize both 
their Adam Walsh Act grant funds and re-allocation funds to assist 
tribes and/or create liaison positions to assist with tribes 
implementing SORNA. One state has utilized its SORNA re-allocation 
funds for this exact purpose to fund a liaison to the tribes. The 
result of such collaborations has been the expansion of criminal 
justice information sharing, creation of task forces for apprehending 
offenders, MOU's where states handle certain aspects of the 
registration process for tribes, and situations where tribes have used 
SMART grants funds to purchase hardware and software that is utilized 
not only by the tribes but by partner localities as well.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Hon. Timothy Q. Purdon
    Question 1. I want to ask about the Coordinated Tribal Assistance 
Solicitation (CTAS) grant program that you mentioned. If an Alaska 
Native tribe applies, and is successful in securing a CT AS grant, 
would the tribe be permitted to use this funding for the execution and 
implementation of intergovernmental agreements with the State? I would 
like to receive a formal response from DOJ.
    Answer. Generally-speaking, CT AS grant funds could be used for 
costs associated with the ``the execution and implementation of 
intergovernmental agreements'' between an Alaska Native tribe and the 
State of Alaska, including funding legal support to assist a village/
tribe in its discussions with the State. It would be advisable, 
however, for the village/tribe (or other entity that may be the CTAS 
grant recipient) to coordinate closely with the appropriate awarding 
agency program office regarding any such proposed use of funds in 
advance, to receive approval prior to incurring any expenses for legal 
fees for these purposes, as a number of limitations may also apply.
    With respect to program authority, there may be limitations on the 
uses to which certain CTAS funds may be put. As an example, if the 
subject matter of an intergovernmental agreement funded with CT AS 
grant funds for corrections and corrections alternatives also covered 
matters unrelated to corrections/corrections alternatives, funding the 
full costs (as opposed to proportional costs) of legal support related 
to that specific agreement (with CTAS corrections funds) would 
generally pose legal concerns and would need to be examined closely.
    In addition, cost principles and other guidance on permissible uses 
of federal grant award funds under applicable law (including DOJ 
regulations), DOJ policies, and OMB cost circulars apply to the 
question of hiring attorneys; these cost principles and other guidance 
specify both permissible and impermissible uses of federal grant award 
funds for legal costs and attorney's fees.
    Cost-/use-of-funds considerations include the following:

  <bullet> Appendix A to 2 CFR Part 225(C)(l)--To be allowable, costs 
        must be necessary and reasonable, allocable, and not prohibited 
        under law or excluded under award terms/conditions or other 
        applicable rules, regulations, or policies. (For example, note 
        that ``consultant rate'' costs proposed to pay attorneys or 
        other grant-supported consultants may require prior approval.)

  <bullet> Appendix B to 2 CFR Part 225(10)(b)--''Legal expenses 
        required in the administration of Federal programs are 
        allowable.'' In this case, the intergovernmental agreement 
        being negotiated would need to be connected to the tribal 
        administration of the specific program funded with Federal 
        funds appropriated for that purpose.

  <bullet> Appendix B to 2 CFR Part 225(32)(c)--Cost allowability of 
        ``retainer fees . . . must be supported by available or 
        rendered evidence of bona fide services available or 
        rendered.'' Records would need to be kept to document that such 
        retainer fees are supported.

  <bullet> Appendix B to 2 CFR Part 225 specifies the following 
        impermissible uses of federal grant award funds relating to 
        legal costs--

    --5. Legal costs relating to ``bad debts'' (and debt collection);
    --10. Legal costs for prosecution of claims against the Federal 
        Government

  <bullet> Lobbying prohibitions/disclosure requirements at 18 U.S.C. 
        1913 and 31 U.S.C. 1352 as implemented by 28 CFR Part 69 may 
        also be implicated in the event that the grant funded attorneys 
        hired by the tribe/village interact with State legislative 
        officials in order to move discussions/negotiations regarding 
        any proposed agreement forward, and such interaction(s) 
        involve, as part of the agreement discussions/negotiations, a 
        change in or adoption of any Federal, State, or local law, 
        regulation, or policy. Without explicit statutory authority, 
        Federal grant award funds generally may not be used for such 
        lobbying activities.

    Question 2. In your written testimony you comment that DOJ is 
carefully studying the recommendations in the Roadmap report, and that 
you will be reaching out to stakeholders to seek additional input. Can 
you provide the Committee with more details, how will you be reaching 
out to stakeholders, and what DOJ's timeline will be for completing 
outreach and submitting additional information to this Committee?
    Answer. The DOJ continues to be committed to exploring the 
recommendations in the Roadmap. In dedicating an entire chapter to 
Alaska early on in the report, the Commission made it clear that this 
needs to be a specific priority for Federal agencies. In June, the 
Associate Attorney General visited Alaska to explore some of the issues 
raised in the report. This visit was meant as an information gathering 
trip as well as a signal to Alaska Natives of the DOJ's commitment to 
addressing long-standing concerns in their communities. An additional 
trip to Alaska by DOJ officials is expected to take place in September/
October 2014. The DOJ is also in the process of fulfilling 
responsibilities under the Tribal Law and Order Act to consult with 
Alaska Natives and Alaska state representatives on continuation of the 
Alaska Rural Justice and Law Enforcement Commission; there will be a 
series of consultations on this topic which will be scheduled for early 
fall.
    In addition to our increased efforts in Alaska, the DOJ continues 
to hold consultations and listening sessions and collect feedback on 
issues affecting DOJ activities and policies in Indian Country, 
including implementation of VA WA 2013, children exposed to violence, 
voting rights, juvenile justice, detention, reentry and approaches to 
funding such as CT AS. As we have worked toward better solutions to 
specific issues affecting American Indians and Alaska Natives, we have 
also developed a Statement of Principles to guide and inform all of the 
Department's interactions with federally recognized Indian tribes. Our 
Statement of Principles will memorialize our ongoing commitment to 
serve partners in fighting crime and enforcing the law in Indian 
country. Consultations on our principles have concluded, and the final 
version is being prepared for publication. The DOJ will continue to 
expand our efforts to reach out to stakeholders on these and other 
important issues affecting American Indians and Alaska Natives, and 
will be happy to continue to provide additional information on our 
progress to the Committee.
                                 ______
                                 

    *Written response to the following questions was not available at 
the time this hearing went to print.*

         Written Questions Submitted by Hon. Heidi Heitkamp to 
                          Hon. Kevin Washburn
    Question 1. Last fall, I heard a story about a teenage girl from 
Spirit Lake in federal detention because of substance addiction. She 
requested access to mental health counseling to help her deal with the 
reasons for her drug abuse. She also wanted to continue her education 
while she was detained because she was already two grades behind and 
was continuing to fall further back. What is the BIA doing to ensure 
access to counseling and educational services for incarcerated youth?

    Question 2. At the Turtle Mountain Reservation in Belcourt, North 
Dakota, the BIA is having difficulty filling vacant positions for law 
enforcement officers. I understand Belcourt's remote location and lack 
of affordable housing contributes to recruitment issues, but this is 
also a common and long-standing challenge across reservation 
communities. What is the Department doing to fill law enforcement 
vacancies, particularly those in remote areas with limited housing?

    Question 3. I frequently hear about the data deficit in Indian 
Country and how it impacts policy decisions here in Washington. The 
Roadmap found the pilot High Priority Performance Goal (HPPG) 
Initiative underscored the need for law enforcement to be trained to 
collect robust qualitative and quantitative data. What changes has the 
BIA instituted to address this data deficit?

    Question 4. Many large land based tribes in my state and other 
Great Plains states are so vast in size their area is comparable to and 
larger than some of the small New England states. On these 
reservations, officers have to travel significant distances over poor 
roads to respond to emergency calls. Law enforcement budgets are 
strained by the impacts to response vehicles resulting from traveling 
long distances over bad roads and by fluctuations in gas prices. 
Additionally, many of these tribes do not have adequate facilities to 
house offenders locally. What steps are being taken to improve parity 
and provide long term base funding to ensure large land based tribes 
have the resources to provide timely responses to emergency calls and 
house offenders locally?

    Question 5. I understand block grants provide a valuable tool for 
developing pilot projects and enhancing programs. However the Roadmap 
suggests since grant funding is not renewable, the current grant system 
creates inhibits long-term budget planning and has resulted in 
documented instances of funding shortfalls after new projects are 
completed. What steps are being taken to provide flexibility in grant 
funding for circumstances where there is inadequate base funding or for 
emergency funding needs?

    Question 5a. What steps are being taken to ensure grant-based 
funding is used to build capacity and sustainability so programs may 
continue even after grant funding lapses?
                                 ______
                                 
          Written Questions Submitted by Hon. Tim Johnson to 
                          Hon. Kevin Washburn
    Question 1. Mr. Washburn, many tribes face a shortage of law 
enforcement officers. In South Dakota, our reservations cover hundreds 
of miles, making it difficult for officers to travel to assist as 
backup or to track down leads. How will you apply what your agency has 
learned from the High Priority Performance Goal to other reservations, 
especially during this tough financial climate?

    Question 2. Tribes are facing hardships when it comes to funding 
for detention facilities. How are you working with other agencies to 
address the problem of dilapidated and crowded facilities?
                                 ______
                                 
          Written Questions Submitted by Hon. Mark Begich to 
                          Hon. Kevin Washburn
    Question 1. Are there ways that tribes/tribal courts/tribal police 
in Alaska can access BIA tribal justice funds, without retroceding P.L. 
280 status?

    Question 2. Would BIA consider changing existing restrictions that 
prohibit Alaska tribes from accessing BIA tribal justice funds to 
enhance public safety in Alaska Native villages?

    Question 3. Are there other funding pools within DOI that Alaska 
tribes can access to enhance village public safety?

    Question 4. Do you agree with the reports' findings, that Alaska 
tribes' ability to take land-into-trust will enhance village public 
safety?

    Question 5. Do you support amending the definition of ``Indian 
Country'' to clarify that Native allotments and Native-owned town sites 
in Alaska as Indian Country?

                                  <all>

</pre></body></html>
